<html>
<title> - GSA'S FISCAL YEAR 2001 CAPITAL INVESTMENT AND LEASING PROGRAM</title>
<body><pre>[Senate Hearing 106-999]
[From the U.S. Government Printing Office]




                                                        S. Hrg. 106-999

                     GSA'S FISCAL YEAR 2001 CAPITAL
                     INVESTMENT AND LEASING PROGRAM

=======================================================================

                                HEARING

                               BEFORE THE

                     SUBCOMMITTEE ON TRANSPORTATION
                           AND INFRASTRUCTURE

                                 OF THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 21, 2000

                               __________



  Printed for the use of the Committee on Environment and Public Works


                   U.S. GOVERNMENT PRINTING OFFICE
68-412                     WASHINGTON : 2001

_______________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Printing 
                                 Office
Internet: bookstore.gpo.gov  Phone: (202) 512-1800  Fax: (202) 512-2250
 Mail: Stop SSOP, Congressional Sales Office, Washington, DC 20402-0001


               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS
                   BOB SMITH, New Hampshire, Chairman
JOHN W. WARNER, Virginia             MAX BAUCUS, Montana
JAMES M. INHOFE, Oklahoma            DANIEL PATRICK MOYNIHAN, New York
CRAIG THOMAS, Wyoming                FRANK R. LAUTENBERG, New Jersey
CHRISTOPHER S. BOND, Missouri        HARRY REID, Nevada
GEORGE V. VOINOVICH, Ohio            BOB GRAHAM, Florida
MICHAEL D. CRAPO, Idaho              JOSEPH I. LIEBERMAN, Connecticut
ROBERT F. BENNETT, Utah              BARBARA BOXER, California
KAY BAILEY HUTCHISON, Texas          RON WYDEN, Oregon
LINCOLN CHAFEE, Rhode Island
                      Dave Conover, Staff Director
                  Tom Sliter, Minority Staff Director
                                 ------                                

           Subcommittee on Transportation and Infrastructure

                  GEORGE V. VOINOVICH, Ohio, Chairman
JOHN W. WARNER, Virginia             MAX BAUCUS, Montana
CHRISTOPHER S. BOND, Missouri        DANIEL PATRICK MOYNIHAN, New York
JAMES M. INHOFE, Oklahoma            HARRY REID, Nevada
CRAIG THOMAS, Wyoming                BOB GRAHAM, Florida
LINCOLN CHAFEE, Rhode Island         JOSEPH I. LIEBERMAN, Connecticut
?

                            C O N T E N T S

                              ----------                              
                                                                   Page

                             MARCH 21, 2000
                           OPENING STATEMENTS

Baucus, Hon. Max, U.S. Senator from the State of Montana.........    19
Boxer, Hon. Barbara, U.S. Senator from the State of California...     2
Graham, Hon. Bob, U.S. Senator from the State of Florida.........    21
Moynihan, Hon. Daniel Patrick, U.S. Senator from the State of New 
  York...........................................................    20
Voinovich, Hon. George, U.S. Senator from the State of Ohio......     1
Warner, Hon. John W., U.S. Senator from the Commonwealth of 
  Virginia.......................................................    46

                               WITNESSES

Peck, Hon. Robert, Commissioner, Public Building Service, General 
  Services Administration........................................    22
    Prepared statement...........................................    46
    Written responses to questions from:
        Senator Baucus...........................................36, 59
        Senator Graham...........................................41, 42
        Senator Smith............................................    59
        Senator Reid.............................................    60
        Senator Voinovich........................................44, 57
Roth, Jane R., U.S. Judge, Third Circuit Court of Appeals, 
  Chairman, Judicial Conference Committee on Security and 
  Facilities.....................................................    28
    Prepared statement...........................................    62
    Responses to additional questions from Senator Voinovich.....    67

                          ADDITIONAL MATERIAL

Article, Federal Times...........................................    61
Statements:
    Berne, Bernard H., M.D., Ph.D................................    86
    Conway, John E., U.S. District Judge, District of New Mexico,    73
    Coyle, Robert E., U.S. District Judge, Eastern District of 
      California.................................................    81
    Davis, Edward B., Chief U.S. District Judge, Southern 
      District of Florida........................................    71
    Edwards, Harry T., Chief Judge, U.S. Court of Appeals for the 
      D.C. Circuit...............................................    68
    Hatter, Terry J., Chief U.S. District Judge, Central District 
      of California..............................................     5
    Skretny, William M., Judge, U.S. District Court, Western 
      District of New York.......................................    77

                                 (iii)

  

 
     GSA'S FISCAL YEAR 2001 CAPITAL INVESTMENT AND LEASING PROGRAM

                              ----------                              


                        TUESDAY, MARCH 21, 2000

                               U.S. Senate,
         Committee on Environment and Public Works,
         Subcommittee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:05 a.m. in 
room 406, Senate Dirksen Building, Hon. George V. Voinovich 
(chairman of the subcommittee) presiding.
    Present: Senators Voinovich, Baucus, Moynihan, Graham, and 
Boxer.

          OPENING STATEMENT OF HON. GEORGE VOINOVICH, 
              U.S. SENATOR FROM THE STATE OF OHIO

    Senator Voinovich. Good morning. This hearing will come to 
order.
    I'd like to thank Robert Peck, Commissioner of the Public 
Building Services of the General Services Administration and 
Judge Jane Roth, U.S. Court of Appeals for the Third Circuit 
and chair of the Committee on Security and Facilities of the 
Judicial Conference for appearing today to discuss GSA's fiscal 
year 2001 capital investment and leasing program, including the 
courthouse construction program.
    The fiscal year 2001 program before the committee requests 
authorization for 54 projects in various stages of development, 
totaling $1.167 billion; repairs and alterations include 13 
projects, $365 million; design, 11 projects, $20.5 million; 
construction, 18 projects, $701 million; and leases, 12 
projects, $80 million in annual costs.
    It is my hope that we will be able to operate within the 
constraints of the budget resolution to approve these 
resolutions early this year, prior to the Treasury, Postal, and 
general government appropriations bill moving through the 
Appropriations Committee.
    Our job is made easier by the fact--hooray--that the 
Administration has included in the President's budget for 
fiscal year 2001 a request of $488 million for seven new 
courthouse construction projects. For the past 3 years, the 
Office of Budget and Management has refused to include a 
request by the General Services Administration on behalf of the 
Federal Judiciary for funds and 
budget authority to construct new Federal facilities.
    I and others on this committee wrote to the Office of 
Budget and Management last fall stating that the Federal 
Government has the responsibility to see that adequate, secure 
facilities are provided to the Judicial Branch of Government, 
as well as the executive and legislative branches.
    I pretty well made it clear that if we didn't get some type 
of request from the Office of Budget and Management, that the 
legislation pending by Senator Cochran, which had bypassed OMB 
and this committee, might have passed.
    Courthouse construction is a Federal responsibility. Unlike 
many other initiatives that the Administration is proposing, 
like school construction, this is something that Congress 
should be funding. The problem around here is that we have 
expanded this Federal Government into a lot of areas that are, 
in my opinion, the responsibility of State and local 
government, and, as a result of that, haven't got the money to 
do the things that the Federal Government has primary 
responsibility for. We need to remember around here what the 
Federal Government is responsible for and what the States are 
responsible for.
    I am pleased that the Senate budget resolution is moving 
one step further in meeting the needs of the Federal Judiciary. 
It is my understanding that the Senate budget resolution will 
assume $700 million for courthouse construction. This will 
allow us to potentially authorize more than the $488 million 
proposed by the Administration to accommodate for the backlog 
of projects that are in the pipeline, and there are lots of 
them.
    The judiciary has a continuing need to have additional 
court space available so it can do business and move cases to 
settlement in a timely manner.
    While saying this, the Office of Budget and Management's 
approach this year to courtroom sharing is one which I would 
like to explore. I would like to receive more information on 
the model that OMB used to derive the increase in courtroom 
sharing at a ratio of two courtrooms for every three judges.
    While we need courthouses, we also need to do more with 
less. We can ill afford, with limited Federal dollars, to build 
courthouses in the future which accommodate a courtroom for 
every single judge.
    I look forward to your testimony on this proposal.
    We'll start our hearing, but prior to doing that we have 
several Senators here today that would like to make statements. 
Our first Senator that arrived was Senator Boxer.

           OPENING STATEMENT OF HON. BARBARA BOXER, 
           U.S. SENATOR FROM THE STATE OF CALIFORNIA

    Senator Boxer. Well, Mr. Chairman, you're very gracious to 
permit me this very short period of time. I will conclude my 
remarks in 1 minute.
    I'd ask unanimous consent that I may place in the record my 
full statement and a statement of Terry Hatter, Jr., Chief U.S. 
District Judge of the Central District of California.
    Mr. Chairman, let me just say, in summarizing my statement, 
I am very distressed, having followed two particular 
courthouses now for years--Los Angeles and Fresno--as to what 
has happened to these projects in the President's budget and 
what GSA is recommending.
    To put it succinctly, I believe that the record would show 
that the way they are reconfiguring the Los Angeles courthouse, 
which is so desperately needed, would compromise security and 
efficiency, and it calls for two buildings to be used instead 
of one. We'd have to require links for prisoner, public, and 
staff circulation. We don't know where a companion building 
could be erected.
    We're very distressed. We thought we had this all done, and 
now this has come up.
    Second, the situation in Fresno, where we have a design, 
everybody is happy, and there's not a penny in there.
    I would conclude by just saying this--because I, again, 
don't want to take the subcommittee's time--this is really 
serious business in my State. We are growing now from 34 
million people to more than 50 million people, Mr. Chairman, by 
the year 2020, and if GSA thinks this is going to resolve it by 
having people sharing courtrooms, this is much bigger than 
that.
    We need justice for the people, and we're not going to have 
it if we start cutting back these buildings and putting two 
buildings linked by a bridge or something. It's not going to 
work in the long term. We're going to find ourselves where we 
find ourselves now all over the country with buildings that are 
built that are inadequate.
    I am really distressed about it, so I'll stop, because I 
don't want to get myself worked up. It's too early.
    But I wanted to thank you for this opportunity, and I hope 
that we can work together, Mr. Chairman. You and I may have a 
different view about sharing space. I know if we suggested two 
Senators in one office, I don't think it would work really 
well, as far as the efficiency of our office. And they have 
things that they do. They are backlogged as it is. But that's 
another conversation.
    So thank you, again. I hope to work with you to remedy 
these two glaring problems in my State.
    Senator Voinovich. Thank you, Senator.
    [The statements of Senator Boxer and Judge Hatter follow:]

        STATEMENT OF HON. BARBARA BOXER, U.S. SENATOR FROM THE 
                          STATE OF CALIFORNIA

    Thank you. Today, I am here to request the construction of 
courthouse buildings in Fresno and Los Angeles. Both cities' 
courthouses are decrepit and filled beyond capacity. New facilities are 
desperately needed. I have raised this point many times, and I think 
that the circumstances warrant our support for new facilities.
    Los Angeles clearly requires a new and larger courthouse. Today, 
the population of Los Angeles is 3.7 million people, making it the 
second most populous city in the United States. The Central District of 
California's Los Angeles division is considered the largest district 
court operation in the nation. The existing U.S. Courthouse on North 
Spring Street opened in 1938 with 8 courtrooms. Although more 
courtrooms were added by converting offices into courtrooms, our 
magistrate judges currently share two courtrooms while two senior 
judges and one new active district judge rotate among available 
courtrooms. A second courthouse site was created three blocks away in 
the Roybal Federal Building, and this facility also is filled to 
capacity. We simply do not have enough space for our judges.
    And the situation will only worsen. The Los Angeles court currently 
has vacancies for three district judges and one magistrate judge. Two 
more district judgeships will be vacant by the end of the year. When 
these vacancies are filled, the court will not have the facilities in 
either building to house these judges.
    As originally planned, the new Los Angeles courthouse would include 
thirty-three new courtrooms and would consolidate all District Court 
operations into a single building. Built in downtown Los Angeles, this 
facility would meet the space requirements of the Federal courts in Los 
Angeles for 30 years. This project would cost approximately $379 
million.
    I was disappointed in the President's budget request that reduced 
funding for the planned Los Angeles courthouse. The budget recommended 
$32 million for site and design, less than the $37 million recommended 
by GSA.
    I also disagree with OMB's demand to downsize the scope of the 
project limiting it to a small, companion building next to the Roybal 
Federal Building. By reducing the size of the new courthouse, OMB would 
force the District Court to continue to operate out of two buildings 
greatly diminishing the benefits provided by the original courthouse. 
Two buildings would require links for prisoner, public, and staff 
circulation. Furthermore, it is unclear as to where a companion 
building could be erected. No space exists on the same block as the 
Federal building, and no adjacent sites are viable. OMB's project would 
compromise security and efficiency and would require extensive and 
costly duplication in building infrastructure and support services.
    It also disturbs me that OMB deleted GSA's proposed high security, 
multi-defendant courtroom. This courtroom was approved by the Judicial 
Council and the Administrative Office of the Courts because high 
security, multi-defendant trials occur regularly in Los Angeles. For 
safety and security reasons, such a courtroom is vital to the 
operations of the District Court.
    During a conference call with Chief Judge Terry Hatter, I was 
amazed to hear that OMB required judges to share courtrooms. The judges 
fear that OMB's mandate to share courtrooms represents an unwarranted 
intrusion by the executive branch into the Judicial Branch, violating 
the doctrine of separation of powers.
    While the OMB recommendation would reduce the cost of the project 
to $266 million, I strongly believe that the detriments would far 
outweigh the benefits. This courthouse's value extends well beyond mere 
cost-benefit analysis. As originally designed, the Los Angeles 
courthouse would provide the judiciary with a quality facility and 
would ease the burdens created by Los Angeles growing population. By 
consolidating the District Court's operations into one large building, 
the courthouse would eliminate the need for people to travel between 
two court buildings, reduce the number of staff currently required by 
the two buildings, permit district and magistrate courtrooms to use one 
central cell block, and diminish the confusion inherently created by 
two courthouses. The new courthouse, as originally designed, is not a 
luxury. It is a necessity.
    Fresno suffers many of the problems currently plaguing the Los 
Angeles judicial system. The San Joaquin Valley area where Fresno is 
located is the fastest growing area in the state, and it has been 
predicted that one-fifth of the state's population will reside in the 
Valley in a very short period of time. The court's caseload reveals 
this population growth. Bankruptcy filings increased from 6,679 in 1995 
to 11,749 in 1999 (a 76 percent growth).
    The court currently is housed in the B.F. Sisk Federal Building and 
Courthouse. This building, originally constructed in 1965, includes 
eight courtrooms (three district, three magistrate, and two 
bankruptcy). This space currently is occupied by four district judges, 
three magistrate judges, and two bankruptcy judges. Within 10 years, 
the court projects that the courthouse will hold eight district judges, 
four magistrate judges, and four bankruptcy judges. The current 
facilities simply cannot accommodate such anticipated growth. In fact, 
five of the existing courtrooms were converted from office spaces and 
are already substandard in size.
    Because the building was not originally designed for use as a 
courthouse, it fails to meet minimum security requirements for court 
operations. Judges and prisoners intermingle in the same basement 
corridors along with GSA contractors and delivery persons. The noise 
created by prisoners in holding cells (containing dozens of prisoners 
each day) often disrupts the court. A seismic evaluation was conducted, 
and it determined that the courthouse is seismically unsound and that 
retrofit was necessary. The cost of such repairs far exceeds the value 
of the building itself. Finally, this building is a firetrap because 
grates cover the windows greatly diminishing ingress or egress in case 
of fire or other emergency. The current building simply is a travesty.
    I am deeply concerned about this situation, and I had hoped that 
the President's budget would reflect the severity of the problem. 
Although the project was overlooked by the FY2001 budget, I strongly 
believe that we must provide funding for a new Fresno courthouse. GSA 
confirms that the project is fully ready for construction and that a 
construction contract could be awarded early in FY2001 if funded this 
year. The new courthouse would cost approximately $111 million. This 
360,000 square-foot, 8 story building would be built on 4.5 acres in 
downtown Fresno. This glass edifice would revitalize the downtown area 
and would ensure a Federal presence that will help to make downtown 
business districts a top priority.
    Our economy is stronger than ever. To use a cliche, we should fix 
the roof while the sun is shining. Well, my friends, the courthouses in 
Los Angeles and Fresno have much more than roofs to fix. I think that 
these courts deserve facilities that will advocate, not impede upon, 
justice, and today, we can do much to provide those very buildings.
                               __________

   STATEMENT OF TERRY J. HATTER, CHIEF U.S. DISTRICT JUDGE, CENTRAL 
                         DISTRICT OF CALIFORNIA

    I appreciate the opportunity to submit to the subcommittee this 
statement regarding the construction of a new U.S. Courthouse in Los 
Angeles. Given its extremely heavy caseload and insufficient 
facilities, the Federal court in Los Angeles desperately needs a new 
courthouse. After extensive study, the General Services Administration 
forwarded to the Office of Management and Budget a proposal for a 
stand-alone courthouse that would house the District Court and related 
facilities. GSA determined that a stand-alone structure would alleviate 
the inefficiencies and security risks currently caused by housing the 
Court in two separate buildings several blocks apart. However, as 
discussed below, OMB has drastically changed that proposal. It would 
now require the new building to connect to one of the existing 
courthouses, and would mandate that active district court judges share 
courtrooms.

                             I. BACKGROUND

    Los Angeles is the only major city in the country that does not 
have a new courthouse in planning or recently constructed. Indeed, 
after evaluating all proposed courthouse projects in the country, the 
Administrative Office of the Courts and the Judicial Conference ranked 
a new courthouse in Los Angeles as the No. 1 funding priority in the 
Judiciary's 5-year courthouse construction plan. This was due in large 
part to our steady growth and also to the fact that the 49 judicial 
positions located in Los Angeles (23 district judges, 12 senior judges, 
and 14 magistrate judges) and the court-related agencies are 
interspersed among two federally owned facilities in downtown Los 
Angeles (the Spring Street Courthouse and the Roybal Building), as well 
as leased facilities. The result is split operations, which creates 
severe administrative inefficiencies and security risks.

       II. THE GENERAL SERVICES ADMINISTRATION'S PROPOSED PROJECT

    In 1996, the Court updated its Long Range Facility Plan and 
identified the need for a new courthouse in downtown Los Angeles. In 
response, GSA, in cooperation with the Court, undertook extensive 
studies, identifying and evaluating over a dozen alternatives.\1\ 
Ultimately, GSA and the Court jointly concluded that the needs of the 
Federal community would best be met by constructing a new stand-alone 
facility to house the entire District Court, including district, senior 
and magistrate judges, the clerk's office, and related agencies. This 
would allow the Bankruptcy Court (currently divided between the Roybal 
Building and the Federal Building) to be consolidated in the Roybal 
Building; the Office of the U.S. Attorney (currently divided between 
the Federal Building and the Spring Street Courthouse) to be 
consolidated in the Spring Street Courthouse; and the Federal Building 
to be dedicated to Executive agencies. This alternative, described in 
the GSA prospectus (attachment #1), would maximize the efficient use of 
existing facilities.
---------------------------------------------------------------------------
    \1\ The results of the studies are documented in the Suitability of 
the Roybal Building for U.S. Court Expansion, dated August 1996 by 
Abide International, Inc.; the U.S. Courts Feasibility and Master Plan, 
dated June 24, 1997 by Kaplan, McLaughlin, Diaz; the Roybal Study; a 
Supplement to the Feasibility Study/Master Plan, dated November 1997 by 
Kaplan McLaughlin Diaz; the Prospectus Development Study; Alternative 
4, dated March 31, 1998 by Kaplan McLaughlin, Diaz; Prospectus 
Development Study; Alternative 5, dated March 27, 1998 by Kaplan, 
McLaughlin, Diaz; and the U.S. General Services Administration 
Courthouse Reinvestment Project; Los Angeles Courthouse Analysis, dated 
November 1998 by Ernst & Young.
---------------------------------------------------------------------------
    GSA estimated the total cost of the proposed project to be $379.5 
million. It has requested that $36.2 million be included in the fiscal 
year 2001 budget for the site acquisition and design of the facility, 
as described in attachment #1.

  III. THE OFFICE OF MANAGEMENT AND BUDGET'S PROPOSED, REVISED PROJECT

    The OMB has substantially changed the proposed project for Los 
Angeles, and now estimates the total cost to be $266 million, $31.5 
million of which is allocated for site and design (attachment #2). 
According to the budget documents, OMB's proposed project would require 
that:
    (1) A companion building be constructed adjacent to and connected 
with the Roybal Building. The new building would be sized to house only 
the district judges, the clerk's office, and some Court-related 
agencies. Magistrate judges, who are also part of the district court, 
and the remaining court agencies would be housed in the Roybal 
Building.
    (2) The number of new courtrooms be reduced by one third, requiring 
district court judges to share courtrooms.
    (3) Anything considered an exception to the U.S. Courts Design 
Guide be eliminated, regardless of the need for such exceptions, and 
despite the fact that several exceptions already have been justified 
and approved by regional and national oversight committees. The most 
important of these is a high security courtroom for multi-defendant 
trials.

          IV. THE COURT'S CONCERNS WITH OMB'S PROPOSED PROJECT

    The Court is extremely concerned that OMB's proposed revised 
project disregards the findings of 3 years of extensive studies by GSA 
and the Court.

A. A Companion Facility for the Roybal Building Is Not Feasible
    The Court and GSA already have considered alternatives--like OMB's 
current proposal--that would connect the Roybal Building to a new 
companion building. In order to meet the Court's functional 
requirements, a new companion facility would have to connect to the 
Roybal Building in a way that would allow both buildings to act as a 
single facility. This would require numerous short links between the 
buildings, at various floors, to accommodate the unique types of 
circulation required in a courthouse--prisoner circulation, public and 
staff circulation, and separate secured circulation for judges. The 
failure to provide such links would compromise security and efficiency, 
and would require extensive and costly duplication in building 
infrastructure and support services. There are only two ways to provide 
such links--building the companion building in the same block as the 
Roybal Building, or building it across a city street. Neither is 
practical.

            1. Building a Companion Building in the Same Block Is 
                    Impractical

    While the entire block that houses the Roybal Building is under 
Federal ownership, it is densely developed, and building a companion 
building would require the demolition of one of the existing facilities 
in the block--the Veterans Administration Building, constructed in the 
early 1990's; the Federal Building, constructed in the 1960's; or the 
Metropolitan Detention Center, constructed in the early 1990's. 
Demolishing the Veterans Administration Building would yield a small, 
roughly triangular site, that would be ill-suited to accommodate even 
the minimum footprint required for a courthouse. Partial or total 
demolition of the Federal Building could provide a suitable site; 
however, according to GSA, it would be prohibitively expensive due to 
the high cost of relocating tenants, and the long-term negative impact 
to the Federal Building Fund. Demolishing and relocating the 
Metropolitan Detention Center would also be cost-prohibitive, and would 
defeat one advantage of locating a new building in downtown Los 
Angeles--the convenience and security of having the courthouse in close 
proximity to the detention center.

            2. Building a Companion Building in an Adjacent Block Is 
                    Impractical

    It is highly questionable whether any sites would be available on 
blocks adjacent to the Roybal Building. The closest sites front on 
Temple Street. They are owned by the city government, and already are 
developed, or planned for development. Moreover, even the closest site 
is too distant. The studies clearly indicate that links, whether by 
bridge or tunnel, are not feasible for any site across the street from 
the Roybal Building, due to excessive distances, extensive underground 
utilities, and the City's reluctance to allow bridges across public 
streets (see attachment #3).

            3. Building a Companion Building Elsewhere Is Impractical

    Given the above problems, the Court is concerned that a proposal 
might be made to build a separate facility not connected to the Roybal 
Building, and sized to house only the district and senior judges, 
leaving the magistrate judges in the Roybal Building. Such a scenario 
again would force the clerk's office, the court agencies and the U.S. 
Marshals to run split operations, thereby duplicating cost and creating 
security hazards. Such a proposal would be totally unacceptable. The 
District Court has confronted exactly these difficulties for 9 years. 
Building a new facility that duplicates these same problems makes 
little sense. (See attachment #4, Impact to the Court of Working in 
Multiple Locations.)

B. The Courtroom Sharing Proposed by OMB Is Contrary to Judicial 
        Conference Guidelines
    Current policy of the Judicial Conference calls for only senior 
judges to share courtrooms. The proposal submitted by GSA and this 
Court adhere to these Guidelines. However, in contravention of the 
Guidelines, OMB would require all district court judges to share 
courtrooms. Setting aside the issue of whether OMB has any 
constitutional authority to dictate the Court's usage of courtrooms, it 
is absolutely clear that the massive caseload in the Central District 
demands that each active district and magistrate judge have their own 
courtroom. There is simply too much activity for courtroom sharing to 
be feasible.
    Moreover, it should be noted that even the original GSA prospectus 
for this project was based on extremely conservative growth projections 
which were made 4 years ago. Only two additional district and four 
additional magistrate judge positions were projected over the next 7 
years. Recent growth trends in California lead the Court to anticipate 
far greater growth than previously projected. The imposition of 
courtroom sharing would not allow room to accommodate that growth.

C. OMB Deleted Important Program Requirements That Were Justified and 
        Approved by the Judicial Council
    Under the GSA proposal, the new facility would include a high 
security, multi-defendant courtroom. This courtroom was approved by 
both the Judicial Council and the Administrative Office of the Courts, 
and with good reason: high security, multi-defendant trials occur 
regularly in Los Angeles. In the current courthouses, one of the larger 
courtrooms must be modified with platforms to hold a large number of 
defendants and to allow for additional security. After the trial, the 
courtroom must be restored to its original configuration. Each 
modification costs $50,000 or more. OMB has deleted this aspect of 
GSA's proposal.

                               V. SUMMARY

    The Court urges the subcommittee to reject OMB's proposal to build 
a companion facility to the Roybal Building. Three years of extensive 
studies concluded that such a proposal was neither feasible nor 
practical. OMB's proposal would lock the Court into a construction 
project that does not meet the needs of the Court or the Los Angeles 
community not even for a 10-year span, let alone the 30-year plan.
    The Court also strongly opposes OMB's proposal to reduce the number 
of courtrooms for this project. The project submitted by the GSA 
comported with all courtroom sharing guidelines that are currently in 
effect.
    As proposed by OMB, this project would leave fewer courtrooms than 
we presently occupy, as well as continue to leave us in the same split 
court operation that we find ourselves in presently.
    A high security courtroom is an essential component of the project, 
as it is desperately needed by the Court. Failing to build such a 
courtroom would not remedy our security issues, would be fiscally 
imprudent, and will not accommodate the large number of defendants, 
lawyers and court attaches (court reporters, experts) involved in 
multi-defendant trials.
    In conclusion the Court requests the support of this subcommittee 
in restoring this project to its original scope as proposed by GSA.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Senator Voinovich. Senator Baucus.

  OPENING STATEMENT OF HON. MAX BAUCUS, U.S. SENATOR FROM THE 
                        STATE OF MONTANA

    Senator Baucus. Thank you, Mr. Chairman.
    First, I want to thank both the witnesses who are here 
today, Mr. Bob Peck, who has been to Montana, and I would like 
to say, as a former associate to the great Senator from New 
York, is a superior public servant. I've dealt with Mr. Peck, 
and I can tell you, Mr. Chairman, he is tops.
    Also, Judge Jane Roth, who has been before the committee 
several times, has done a great job of explaining the courts' 
and judiciary's view on courthouse construction.
    I want to thank you again, Judge Roth, for all the work 
that you've done on behalf of the judiciary. I'm looking 
forward to hearing your testimony.
    I personally believe, Mr. Chairman, that the partnership 
between GSA and the courts is a crucial one, and, to their 
credit, they have both put a lot of effort into making this 
partnership work.
    This cooperation has, over time, restored my confidence, I 
must say, in the courthouse review process. They've come a long 
way.
    I want to stress one thing, though--and I've said this 
before--it is vital to our legal system that we do provide 
proper space, proper security, and proper facilities for judges 
and the courts. And I'm not talking about Italian marble 
corridors or golden chandeliers, but I am talking about the 
proper stature of courthouse buildings that befit our judicial 
system and assist our distinguished judges in their crucial 
constitutional responsibilities.
    I might say to you, Judge Roth, that, frankly, I am sitting 
here as a Senator in large part because of the civil liberties 
courses I took in college. I learned to revere our judicial 
system. I became more cognizant of the impact on our democracy 
that Supreme Court cases produced in the hallmark civil 
liberties trials in our country's history. I have a very high 
regard for the judiciary.
    I am very pleased that the President has included new 
courthouse funding in his fiscal year 2001 budget. It was very 
distressing that the Administration did not include such 
funding for the judiciary in its budget for the past 3 years.
    I understand how distressed and frustrated the courts are 
about this past omission; however, I do not believe that 
proposed legislation that would circumvent the cornerstone of 
the current review process is in order. I have spoken to Judge 
Roth and to Judge Stahl before her about my concerns. I am 
committed to helping them attain their budget goals, but I 
believe we need to work within the current review system, which 
we all spent a lot of time on in this committee. The broader 
the review of courthouse construction, the broader will be the 
support for the program.
    I would say to both Judge Roth and Mr. Peck that the 
courthouse program now has very strong support in this 
committee. Virtually all members of this committee wrote to the 
President last fall supporting funding for priority courthouse 
construction. And, while the Administration did not include 
full funding for the courts' priority list, I hope that this 
committee and the Budget Committee can explore how best to 
accommodate the fiscal year 2001 Judicial Conference requests.
    Thank you, Mr. Chairman.
    Senator Voinovich. Thank you, Senator Baucus.
    Senator Moynihan.

         OPENING STATEMENT OF HON. DANIEL P. MOYNIHAN, 
            U.S. SENATOR FROM THE STATE OF NEW YORK

    Senator Moynihan. Mr. Chairman, thank you.
    Welcome, Major Peck and Judge Roth.
    I would open, sir, with only a general observation, which 
is that for the nearly 24 years I have served on this 
committee, during part of which we had the great services of 
Robert Peck, we have been dealing with this bizarre problem 
that OMB and we impose on ourselves, which is the requirement 
that any Federal building be financed entirely in one budget 
year, and that the building that might have an 80-year use span 
or 180-year is paid for in year one.
    One of the results of that policy has been, over time, is 
that, instead of building new courthouses, we've leased them. 
And at several points I can think--my memory is getting vague--
we tried to set a ratio that we would get occupancy of 60 
percent in owned facilities. Is that about right, sir?
    Mr. Peck. We started at 80, came down to 60.
    Senator Moynihan. Yes, we started at 80 and came down to 
60. But I don't think we ever got to 60. We'll hear, no doubt, 
from Mr. Peck about that. So what you get is rent stubs. It is 
just not logical. I mean, no business would operate this way. 
They would capitalize their capital investments over time.
    Then we came up with the idea of lease to own, and, if I 
can say--and I'm sure that Judge Roth would agree--we have a 
very happy instance of this in the Thurgood Marshall Building 
across the street here, which was the third building in the 
complex that was designed by the McMillan Commission after they 
took the Pennsylvania Railroad Station from the bottom of 
Capitol Hill and moved it down to its present site, and two 
buildings meant to flank it. One was the Post Office, now the 
Postal Museum. Then there was an empty lot on the other flank.
    The Judiciary needed an administrative building, and we 
were able to get a brilliant design, and it was built for us by 
Boston Properties. We have 24 years to go until we own it 
completely. In the meantime, we brought people in from rented 
space at a lower rent in this lease-to-own space, because 
owning the land you get so much of an advantage.
    Then, just as we were beginning to think that was working 
out, the Budget Enforcement Act of 1990 said you have to put 
all lease-to-own costs in one budget. That's bizarre. I don't 
think there would be any real estate business in the world that 
would operate that way. All it does is raise our costs 
needlessly and irrationally, and it has, among other 
consequences, that courthouses don't get built. You can't quite 
rent a courthouse; you have to build it. You may end up renting 
it after it has been built.
    And that's our case, and it is a long history, but I think 
it is central to the concerns you have been showing.
    I thank you.
    Senator Voinovich. Thank you, Senator.
    Senator Graham.

  OPENING STATEMENT OF HON. BOB GRAHAM, U.S. SENATOR FROM THE 
                        STATE OF FLORIDA

    Senator Graham. Thank you very much, Mr. Chairman.
    I won't belabor the point, but I very much appreciate what 
Senator Moynihan has just said about the issue of exercising 
fiscal pragmatism in how we go about financing Federal 
buildings.
    I'm concerned about another pragmatic aspect that relates 
to what goes on inside the buildings--the purpose for which we 
construct them in the first place.
    This year the Office of Management and Budget is 
recommending a new approach to Federal courthouses in terms of 
the relationship of judges to courtrooms. Frankly, this has 
caused a great deal of concern in the rapidly expanding areas 
of my State, where there are unusually heavy caseload demands 
upon the judges, witnessed by the fact that last year the 
Congress expanded by four the number of Federal district judges 
in our State, and there's great concern among the judiciary 
that these changes in the relationship of courtrooms to judges 
will have an adverse effect on the Administration of justice. 
So I am going to be interested in understanding what the 
rationale of the change in the position is and what its 
implications in terms of constructing courthouses, cost to 
construct, and the ultimate use of the courthouses for their 
intended judicial purpose.
    Thank you, Mr. Chairman.
    Senator Voinovich. Thank you, Senator.
    Mr. Peck.

   STATEMENT OF HON. BOB PECK, COMMISSIONER, PUBLIC BUILDING 
            SERVICE, GENERAL SERVICES ADMINISTRATION

    Mr. Peck. Thank you, Mr. Chairman, and thank you, Senator 
Baucus and Senator Moynihan and Senator Graham.
    I would like to summarize my statement, and if I may have 
it placed in the record and, if it is possible--I think GPO can 
do this--including the graphs and charts at the back, because 
they are important to the way we run our business.
    I would also like to say this is the first time I have been 
in front of this committee since Senator John Chafee passed 
away, and I had 4\1/2\ very educational and happy years in this 
committee working for Senator Moynihan, but also working very 
closely with the staff of Senator Chafee, and was also 
fortunate to be here when he was chairman of this committee for 
so long. He was a great Senator, I thought, and a great 
patriot, and I am very sorry he is no longer with us.
    To put our program in perspective--and I think it is 
important to do so, because the committee reviews only our 
major capital projects--I would like to talk a little bit about 
GSA and GSA's building function in the larger context.
    GSA is, in fact, the largest owner/operator of commercial 
real estate in the United States. We manage 350-million square 
feet. I recently saw that the largest real estate investment 
trust is now up to about 100-million square feet. We have about 
185 or 190 million that we own, and the remainder we lease, as 
Senator Moynihan started to talk about.
    We house one million Federal employees, and that's our 
job--to provide them with productive workplaces and places 
where the American public can feel proud of their government 
and can be well-served by those employees.
    Approximately 55 percent of the space we manage is in 
nearly 2,000 government-owned buildings, the remainder is in 
6,400 privately owned buildings in which we lease space.
    Our funding comes principally from the rents we charge to 
the more than 100 Federal agencies we house, and that's the 
important thing about our budget. The thing to know is that, 
unlike so many other Federal agencies, we not only can talk 
about running in a business-like way, we, in fact, are a 
business. We collect rents, we have expenses, and, as I always 
say to our employees, that means we have a bottom line which we 
can track.
    More than 90 percent of the $5.5 billion we will spend in 
this fiscal year is paid out in the form of contracts to the 
private sector, so we are, as they say in business, highly 
leveraged. We are contracted out. Our people, I believe, are 
the best, most competent contract supervisors in the U.S. 
Government. We are fast in contracting and we are very good 
superintendents of work.
    It is important to note, however, that in fiscal year 2000 
and again in fiscal year 2001, more than half of the 
expenditures that we make will simply go in the form of lease 
payments to private buildings.
    When I worked here in the late 1970's and early 1980's, we 
were approaching a $1 billion rent bill. We now have a $3 
billion rent bill. But, as I say, that affects our net income.
    We are operating more like a business than we have before. 
As I mentioned last year, Mr. Chairman, we have established 
nine performance measures, much like those used in the private 
sector, which have quickly become known as the ``Big Nine'' in 
our organization, and they are not just talking points to our 
staff. They have allowed all 11 regions to compete with each 
other, and we have begun giving out awards to our employees. 
Let me be clear--we give out financial bonuses to our employees 
based on whether they are meeting performance improvement goals 
or not.
    I would just note that I have copies of an article that 
appeared in the ``Federal Times'' on March 6. It says, 
``Rewards for Employees Reap Rewards for Agency.'' That's 
exactly the case. Rewarding our employees for doing a better 
job managing our buildings means that we have more net income 
at our disposal for the important things that we have to do.
    In business they say you get what you measure, and we have 
found that. If you will refer to the charts at the end of my 
testimony, you can look for yourself. Our funds from 
operations--a business measure which really means net income--
have increased approximately 38 percent from fiscal year 1998 
to 1999. We did that in about six quarters.
    We reduced non-revenue-producing space in our total 
inventory from 13 percent to 10 percent in just the last fiscal 
year. And if you look at the graph, you will note that the 
number is down actually to 4 percent vacancy in leased space 
where we can, by consolidating vacancy, get out of a lease 
altogether, if we don't need the space.
    In Government space we are having a tougher time that's 
because we need more money for the repairs and alterations that 
make government-owned space--some of it, in old buildings--
ready and available for new tenancies. I'll talk about that a 
little bit more later.
    Our operating costs per square foot in government-owned 
space are approximately 13 percent lower than the private 
industry average. So when people ask me if we should simply 
turn our management operation over to the private sector, I 
say, ``Well, not until they can do it as well as we can.''
    The average rents we pay in our leased buildings across the 
country are at or below the average rate that private sector 
tenants pay, as they should be. We are a great tenant and we 
pay on time and we always pay. We've not gone bankrupt, have no 
prospect of it, and we avoid cost to the Government in the tens 
of millions of dollars for that.
    We've reduced by 38 percent--a magic number for us, it 
looks like--the amount of time it takes us to lease space for 
our client agencies.
    Our customer satisfaction measures, which are important 
because you can save a lot of money at the expense of your 
customers, have actually increased. We started counting in 1993 
in a poll that we take with the Gallup organization, so that we 
are honest--we don't do the numbers, they do. We've increased 
from 74 percent to 80 percent in 1998, and you'll see in the 
chart at the back also that this percentage has gone up 
steadily every year, and it's because our people focus on those 
numbers.
    As I said, the net income that we produce has a direct 
bearing on the capital program we are proposing. By pricing 
more realistically and reducing expenses, we've produced more 
net income, which is our only available source to upgrade our 
buildings. The only money we requested for repairs and 
alterations to existing Government buildings is money that we 
generate ourselves.
    Now, as Senator Moynihan says, no real estate business in 
the world operates this way. Many State and local governments 
don't operate this way. We have unique budget scoring rules in 
the Federal Government which may or may not, depending on whose 
interpretation you believe, prevent us from leveraging the 
value of our real estate.
    To be clear, there are other Federal agencies that have 
been authorized by Congress to engage in public/private 
partnerships in which they are able to leverage a piece of 
Federal ground, have a private sector developer either build or 
renovate buildings, as the military is doing in military 
housing, and then lease them back to the agency. This is 
something which this committee has talked about for a long 
time.
    I will note that we are proposing some new construction 
funding out of our net income this year, and I will talk about 
that later.
    Costs is not the only consideration. As Senator Moynihan 
and Senator Baucus have talked about, we believe that the 
American people deserve quality when we build. Quite honestly, 
we believe that they deserve a quality building when we lease a 
building and cause it to be built for the Government to lease 
for a long time. In fact, that was one of the issues we dealt 
with in Helena, MT, Senator. Approximately 20 years ago we 
built a building, or caused a building to be built which is not 
as high a quality building as the Government or the people of 
Helena deserve. So, we have improved the way we do design.
    Last month, the ``Architectural Records'' magazine had an 
article noting that GSA has really turned itself around and is 
a leader in high-quality design and not lavish design, as 
Senator Moynihan, I believe, once said. There's a difference 
between grand and grandiose, and we believe we have stuck to 
the grand, meaning buildings that reflect the dignity of the 
U.S. Government.
    We have improved the way we integrate our site and design 
decisions with local planning and development needs--by the 
way, something else we learned in Helena, MT, and Billings, as 
well.
    Finally, we have kicked off what we call a ``First 
Impressions Program,'' because many of the experiences that the 
American public has with the Federal Government and the 
impression they have of how well we do our job is the 
impression they gain when they walk into a Federal building. We 
believe that those building lobbies and entryways should be 
clear, crisp, and informative, and not, as they are in too many 
cases, I believe, dark and confusing.
    But, to get to our capital investment and leasing program, 
as you noted, we have a substantial new construction program 
and a substantial repair and alteration program. I'll just note 
for you that here, too, we have brought in business-like 
measures. When we decide how to allocate the money that we are 
permitted to spend in the President's budget, we have set some 
business-like criteria, including the use of a private sector 
method in which we determine a return on investment, which 
basically means if we put a certain amount of money into a 
building to be repaired, we expect to see a certain return in 
the level of rent we charge. This approach is similar to the 
way that private sector people decide whether or not to do a 
project. It's the way we do it, as well.
    We have a particular problem with our owned inventory. More 
than half of our buildings are more than 50 years old. Nearly a 
quarter of the inventory is historic. Although we are proposing 
a very substantial budget this year of $721 million for major 
and minor repairs, an 8 percent increase over the year 2000, I 
will just note that the amount of money we allocate for repairs 
and alterations is about 2 to 2.5 percent of the market value 
of our inventory. The private sector benchmark is to spend 2 to 
4 percent of that value on an inventory.
    When you have an old and aging inventory, you should 
probably be at the high end of that range, rather than at the 
low end, as we are.
    Moreover, if we don't fix up our buildings, when we go to 
set rents, we have to lower them. As a building deteriorates, 
you have to charge lower rents. If you charge lower rents, you 
have less money available to repair, and then, again, you 
charge lower rents and you can get yourself into a real vicious 
cycle.
    Again, we are proposing what we believe is an adequate 
repair and alteration program to keep up with needs, but I note 
that we have a significant backlog, which I don't think we are 
yet addressing, although we are working on it.
    For new construction, we are proposing to fund seven border 
stations through revenues generated by the building fund--in 
other words, out of our net income. We are proposing demolition 
and construction of the new U.S. mission to the United Nations, 
and the acquisition of a site and design for a new FBI 
building.
    And I will note again, this is a bit of a departure. 
Although we had funded border stations out of our net income 
before, we have not, in the past several years, in my memory, 
proposed funding out of our net income for major projects like 
the U.S. mission to the U.N. and the FBI field office. We 
believe that some projects like that which are of urgent 
security needs should be funded immediately out of net income.
    But we do, as we have always said in the past, believe that 
most new construction needs to be funded out of direct 
appropriations. The Congress has acknowledged this over the 
last 10 years or so with several billion dollars worth of 
appropriations for new buildings.
    As you noted, Mr. Chairman, we are requesting funding for 
seven courthouse projects. We are also requesting funding for 
the Food and Drug Administration consolidation in Montgomery 
County, Maryland, and a new building for the Bureau of Alcohol, 
Tobacco, and Firearms in Washington.
    Finally, I'll just note that we have requested 
authorization for a new construction project in Suitland, MD. 
The Department of Commerce last year was provided an 
appropriation for a new building. It is very important for the 
National Oceanic and Atmospheric Administration and it is 
critical to the Nation's weather forecasting. We need an 
authorization to be able to actually spend that money.
    A number of Senators have already talked about our 
courthouse program, and I will note that the Administration's 
view is that courtroom sharing can be a cost-effective means 
for providing space needed by the courts. By going to a 
courtroom sharing model, we have eliminated 22 courtrooms in 
the seven courthouse projects that were proposed in the budget 
from what we had originally studied.
    The savings in fiscal year 2001 budget from the reduction 
in courtrooms is approximately $25 million, and we believe that 
that could save another $33 million in future years.
    Again, in the project that Senator Boxer referred to in Los 
Angeles, we believe we can save about $85 million by 
constructing a companion building to the Roybal Building in Los 
Angeles.
    Courtroom sharing is something that has been discussed for 
many years. The issue is fundamentally this: where there is a 
large courthouse with many judges, we are proposing a separate 
office for each judge. Let me be clear that we are doing that. 
But not every courtroom is in use every time, and I do believe 
that it is possible to share courtrooms in large courthouses. 
In some cases judges do this already, not necessarily because 
they want to, but because we simply don't have enough room.
    Now, I have to be honest with you. We don't have clear and 
convincing evidence, as the lawyers would say, of what the 
right ratio might be once you start talking about sharing. 
However, neither do we have clear and convincing evidence that 
it is necessary to have one courtroom for every active judge. 
There is, however, a tradition that this is the case.
    The courts have undertaken a utilization study--which 
unfortunately is not yet ready--to determine whether sharing is 
feasible. I will say that the Office of Management and Budget 
and GSA have talked for years about what the sharing ratio 
might be.
    This year the Administration proposed a ratio of two-
thirds. I believe--although I was not privy to the final 
decision on what ratio of sharing would be used--that this two-
thirds ratio was based on a GAO study of several years ago 
which suggested that courtrooms are in use about 65 percent of 
the time.
    As I said, we are all new to this issue, and that's the 
ratio we have proposed for this year.
    Finally, we have proposed to you 12 lease prospectuses 
which are over the threshold limit. This is a bit misleading in 
the sense that, although they total approximately $80 million 
in obligations in fiscal year 2001, this is just the tip of the 
iceberg. Once you start leasing you lease for a long time.
    I suspect, although I have not run the numbers on these 
particular leases, we are talking about at least $500 million 
in total Federal cost just on the period of those leases to 
which we are currently obligated.
    We are working to control the growth of our leased 
inventory. We have sort of leveled off at about a 55/45 
government-owned to lease ratio, in part because we are 
building new courthouses.
    Interestingly enough, our focus on net income has forced us 
to look at this issue. When we lease a building we basically 
pass through the cost to our tenants. It generates no net 
income for us. It is not a good fiscal contributor to our 
program, so we have an added incentive to move toward 
government-owned buildings.
    I have only two more points.
    We do believe that it would be useful to take a look at 
raising the threshold limit. We have noted that if we were to 
increase the threshold limit to about $5 million, you would see 
only three fewer construction prospectuses and a few fewer 
lease and repair and alteration prospectuses. The latter two 
tend to be somewhat routine. We believe that you would still be 
able to focus on large construction projects, which have 
traditionally been the concern of this committee and that in 
the House.
    My final point is this: we have, since the Oklahoma City 
bombing, doubled our rate of spending on security. It is a very 
serious topic for us. Our security people, as we discussed last 
fall at a conference that Senator Moynihan was kind enough to 
keynote, we have a very difficult mission in the Public 
Building Service. Our job is to protect the people who work in 
the building, the people who visit it, and, at the same time, 
to keep our buildings from becoming fortresses that are 
foreboding, forbidding, and unwelcoming to the American public 
for whom they are built.
    In order to do that, we have, in the past several years, 
refocused the mission of the Federal Protective Service. We 
have increased cross-training so that eventually every 
uniformed officer will also be an expert in physical security. 
We have intensified our intelligence efforts. We have 
intensified training of every part of the organization, and we 
have just upgraded the contracts for the private security 
guards.
    I have to tell you, I am very concerned that a bill that 
was just approved by the House Transportation and 
Infrastructure Committee would jeopardize security by making 
the Federal Protective Service, which is currently an arm of 
the Public Building Service, a separate agency within GSA.
    Here is my concern in a nutshell: security is not something 
you can do in a vacuum. The design and management of our 
buildings need to be welded with the security force. They need 
to be fused and seamless, not polarized; I believe a separate 
security service would be a huge mistake. It is a solution to a 
problem that does not exist.
    Some in the ranks in the Federal Protective Service 
possibly would like to see a separate service. I think those 
are some of the members who are still going on a model which 
should have gone out the window when Oklahoma City happened.
    I need your support if this bill comes to the Senate. I 
hope I can talk to you further about this very serious issue.
    That concludes my prepared statement, and I will be happy, 
obviously, to answer any questions you might have.
    Senator Voinovich. Thank you, Mr. Peck.
    At the request of the members of the committee, we'd like 
to hear from Judge Roth, and then have the two of you, if you 
would, be kind enough to respond to our questions.
    Judge Roth, we are very happy to welcome you again this 
year. As I mentioned to you earlier, we have made some 
progress.

STATEMENT OF HON. JANE R. ROTH, U.S. JUDGE, THIRD CIRCUIT COURT 
OF APPEALS, CHAIRMAN, JUDICIAL CONFERENCE COMMITTEE ON SECURITY 
                         AND FACILITIES

    Judge Roth. Thank you, Mr. Chairman.
    It is a pleasure for me to be here on this very rainy 
morning. I will summarize my statement. I will touch upon 
courtroom sharing, but if there are any additional questions 
from the members of the committee, I will be very happy to 
answer them.
    My name is Jane Roth. I serve as a judge on the Third 
Circuit Court of Appeals and as chairman of the Judicial 
Conference's Committee on Security and Facilities.
    I appreciate the opportunity to appear before the 
subcommittee today to discuss the courthouse projects scheduled 
for fiscal year 2001 under the Judiciary's prioritized 5-year 
plan, and also to summarize the Judiciary's continuous efforts 
to review and improve management of the courthouse construction 
program.
    We appreciate the continued willingness of this 
subcommittee, of the full committee, and of your staff to work 
with us to make improvements. In particular, we hope you will 
authorize projects at the levels originally submitted by GSA to 
the Office of Management and Budget, which will incorporate all 
projects that can be ready for design, site, or construction 
contract award in fiscal year 2001.
    President Clinton's fiscal year 2001 budget request 
includes $488 million for seven new courthouse construction 
projects. This request for courthouse projects is the first 
since fiscal year 1997. The President's request does not, 
however, include all the projects which GSA proposed to OMB.
    We are concerned by the Administration's failure to include 
funds for all the projects which need site, design or 
construction funding in fiscal year 2001.
    We are also concerned by OMB's reduction of the size of the 
projects which were submitted to you. We are informed that the 
funding levels for these seven projects is based on an 
assumption that only two courtrooms will be provided for every 
three active district, senior magistrate and bankruptcy judges.
    We ask that you take action to restore the levels of 
funding for the courthouse program to those proposed by GSA 
prior to OMB's arbitrary action.
    The shortsightedness of OMB's actions is obvious when the 
courts are experiencing an ever-increasing work load.
    Statements from Judge Edwards in Washington, DC.; Judge 
Conway in Las Cruces, NM; and Judge Sretney in Buffalo, NY have 
been provided, and I would also like to present at this time 
statements from Judge Hatter in Los Angeles, CA and Judge Davis 
in Miami, FL. I ask that they be included in the record to help 
you appreciate the impact of OMB's reduction.
    Judge Roth. The Administration chose not to request funding 
for courthouse construction in the budget for the previous 3 
years. Congress was able to appropriate funds for courthouses 
in only one of these years. This lack of funding has created a 
backlog of projects and has placed GSA woefully behind schedule 
in delivering needed space for the courts. The courts, 
therefore, must continue to operate in facilities that are 
unsafe, overcrowded, and substandard.
    The Judicial Conference's fiscal year 2001 request includes 
19 projects which are ready to go. The total cost of these 
projects is about $800 million, based on GSA's September 1999 
estimates. Seventeen of these projects were included in GSA's 
original request to OMB.
    In addition, based on current information, two more 
projects should be ready for construction contract award in 
fiscal year 2001.
    All of these projects are needed and will only fall further 
behind schedule if not funded. A listing of these projects in 
priority order is attached to my statement.
    The work load of the Federal courts has grown tremendously 
over the past 10 to 15 years, largely as a result of 
legislative efforts to wage a Federal war on crime and the 
illegal drug trade.
    The courthouse projects on the list for funding in fiscal 
year 2001 are in areas of the country where there is dynamic 
population growth combined with an increase in law enforcement 
activities.
    I have attached to my written statement fact sheets that 
describe the current situation and the need for the fiscal year 
2001 projects in the Judicial Conference's 5-year courthouse 
project plan.
    In recent years, the judiciary has continually reviewed and 
significantly improved the operation of the courthouse 
construction program. As part of our ongoing commitment to cost 
containment and program assessment and evaluation, we 
contracted with the consulting firm of Ernst & Young to review 
our entire space and facilities program. The study, which is 
close to completion, will address courtroom sharing and 
utilization, our long-range planning process, courthouse design 
assumptions, internal space management policies, business 
practices, funding mechanisms, and resource allocations 
strategies.
    We expect a final report at the end of April for review by 
the Conference's Committee on Security and Facilities. In the 
meantime, however, it is critical that the courthouse 
construction program continue to move forward.
    Ernst & Young has reported to the judiciary that the court 
projects requested by GSA in the fiscal year 2001 budget are 
the result of methodical planning and review processes put in 
place by the Judiciary and GSA.
    On courtroom sharing, for the past few years this topic has 
been in the forefront of congressional and executive branch 
inquiry. It has been suggested that, because most courts are 
not in use 100 percent of the time, Federal judges should be 
able to share courtrooms in order to save the cost of 
construction.
    The GAO report, which estimated 65 percent actual use of 
courtrooms, did not have a recommendation on courtroom sharing. 
The Rand Report did not have a recommendation on courtroom 
sharing. Both reports advised that further study should be 
done. It was for that reason that the Judiciary has contracted 
with Ernst & Young to provide the report that they are 
presently preparing.
    Ernst & Young will recommend that every active district 
judge have a courtroom for that judge's use; that there are 
possibilities for courtroom sharing among senior judges, 
depending upon the work load involved, but that sharing of 
courtrooms by active judges under the circumstances of the 
judiciary is not possible.
    If you conclude that 65 percent use of one courtroom by one 
judge should be upped to 100 percent use of two courtrooms by 
three judges sharing the two courtrooms, you are, in effect, 
saying that a courtroom must be used 100 percent of the time. 
This is an impossibility in the judicial system, where you 
cannot predict the length of a trial, you cannot predict 
whether a trial will take place in the first place, or whether 
a trial will be settled on the courthouse step. If it were, you 
can't plug a new trial into the courtroom for that day. There 
is a certain lead time that is required, there's certain notice 
necessary in order to move one trial up to replace a trial 
which did not take place. You must consider these factors in 
courtroom scheduling. You must consider the cost and expense of 
delays in trial.
    When I was a lawyer practicing in Wilmington, DE, the 
Delaware State courts for a while were unable to provide a 
courtroom for the scheduled trials. I had the experience of 
arriving in the courthouse with my clients to take a case to 
trial to be told at the courthouse door that, ``We're very 
sorry. We don't have a courtroom for you today. Go home. Come 
back again when we can reschedule you.''
    This is not justice. This is not just to the litigants, it 
is not to the system of administration of justice.
    It is factors like this which Ernst & Young are taking into 
account in their recommendation. The Judiciary very strongly 
supports the position that the Judicial Conference took in 1997 
that administration of justice requires one courtroom for every 
active district judge.
    In Federal courts, moreover, the cost of a courtroom, when 
compared over its lifetime to the overall cost of the 
courthouse, is not substantial. In Federal courts where 
courtroom sharing among active judges has occurred out of 
necessity, judges have reported serious difficulties. For 
example, the 3 to 2 ratio of courtrooms to judges suggested by 
OMB is currently in effect in the Federal District Courthouse 
in Brooklyn, NY, while a new facility is under construction.
    Senator Moynihan. Exactly so. That has been a disaster.
    Sorry, Mr. Chairman.
    Senator Voinovich. That's all right.
    Judge Roth. The judges, staff, and others affected have 
struggled to make it through this temporary situation, but, as 
Senator Moynihan said, it has been a disaster. They have 
maintained the operation of their court, but it has been at a 
very serious toll on the stamina and the whole structure of the 
court system in that district to keep the court going.
    The judges in Brooklyn are uniform in concluding that 
courtroom sharing has strained the operational effectiveness of 
the court, and that courtroom sharing, as a permanent policy, 
would be counterproductive.
    A 3 to 2 judge-courtroom ratio causes chaos in a system 
that requires an orderly process in order to be fair and just.
    The judiciary continues to review and update its 
prioritization of courthouse projects using a weighted scoring 
methodology. I am very concerned, however, that continued 
delays in funding courthouses or reductions in the sizes of the 
buildings could result in a breakdown of this prioritization 
process, with individual districts attempting to fulfill their 
needs without regard to the established process.
    We ask that you take action to authorize the new 
construction projects on the attached list in fiscal year 2001 
at the levels originally calculated by GSA in September 1999.
    Thank you for the opportunity to testify before the 
subcommittee. I would be pleased to answer any questions that 
you might have.
    Senator Voinovich. Thank you, Judge Roth.
    If I am not mistaken, this list that I have before me that 
starts with Los Angeles and goes down to Erie, PA--there are 18 
projects on this list--the projects submitted by OMB, but for 
Buffalo, and I think Springfield is left off the list because 
it is not ready--does that reflect your priority list?
    Judge Roth. Yes, it does, Mr. Chairman.
    Senator Voinovich. Which I think is pretty significant. In 
fact, in effect, your process of going through and ranking, and 
you've come back and said these are the priority projects, 
which is comforting.
    Mr. Peck, I want to congratulate you on doing an 
outstanding job. I echo the comments of Senator Moynihan. I had 
an opportunity to observe carefully the job that your folks are 
doing in Cleveland, and also have been impressed with your 
testimony last year in terms of empowerment of your employees 
and incentive systems and your performance standards. It would 
be comforting to know that other Federal agencies did adopt 
performance standards and that they had some meaning in terms 
of their compensation. That would, I think, go a long way to 
improve the delivery of services and the quality of services in 
the country.
    Since this issue of two courtrooms for three judges is on 
the table, the question I have is: did the Office of Management 
and Budget consult with the General Services Administration in 
making their recommendation, or did they make this 
recommendation based on something that someone else had 
submitted to them?
    Mr. Peck. It depends on what the meaning of ``consult'' is.
    Senator Voinovich. Well, they're putting their budget 
together, and ``consult'' means they sat down with you, and 
either you suggested to them, when they put their budget 
together, that they ought to give consideration to this option, 
or, in the alternative, after you submitted it they came back 
to you and said, ``You know, we have a new idea or a good idea, 
and we can cut our costs and get more done.''
    Mr. Peck. That's not exactly the way it happened.
    We had, over the past several years, talked to them about 
the possibility of courtroom sharing. And I have to say, we do 
agree that it must be possible to share courtrooms in some 
instances, and here are the instances. If one were to have a 
courthouse in which there were, say, 44 judges, I think it 
would be safe to assume you could probably do with 40 
courtrooms, perhaps 38. On any given day, some of the judges 
are on vacation or at a conference, for instance.
    If you have four judges in a courthouse, which is the case 
in a number of courthouses, it is not as clear to me, just 
intuitively, that you can make do as well with three. It's 
quite conceivable that all four are there a good measure of the 
time.
    The problem is that none of us quite know what the right 
number would be or where the cutoff would be.
    We had talked to OMB in years past about, at some point, 
sort of forcing the issue by saying we should probably take 
some money off the table in a couple of courthouses, and we 
never quite got to where we might be.
    I will just tell you, quite candidly, this year we 
submitted a project list, as everyone knows, that included 
basically the design guide requirements, which is one courtroom 
per active judge, and actually revised our list a second time, 
when asked by OMB to come back with one that would allow no 
departures from that guideline. In some courthouses, there have 
been requests for even additional courtrooms.
    So we came back with what was called a ``departure list,'' 
and OMB then came back with the list that was based on the two-
thirds sharing.
    As I said, I was not privy to the coming up with that 
number, and it's hard to know what the scientific number would 
be. So I don't want to fault OMB for coming up with a number, 
which one could at least say is something that you might try. 
On the other hand, I can't really say with great confidence 
that I know that this ratio will work in every single instance.
    Senator Voinovich. Well, would you conclude that maybe in 
some instances that system would work and other circumstances 
it wouldn't?
    Mr. Peck. My hunch--and we're all going on hunches--is that 
this system could work on very large courthouse projects--and I 
don't know what ``very large'' means. In my mind, projects 
having more than 25 or 24 courtrooms could accommodate sharing. 
In courthouses smaller than that level, I'm not sure. I suspect 
you could in one with 16 or 12, but I don't know. We don't 
really know enough.
    And I was hoping the Ernst & Young study would be available 
by now, quite honestly, because you need to look at what kinds 
of things judges do in their courtrooms, how often do they need 
a large well, as opposed to not needing it, and all those kinds 
of issues.
    Senator Voinovich. Will the Ernst & Young study come back, 
and was that the question that was asked of them to come back 
with the recommendations?
    Mr. Peck. Yes, sir, and at the urging of the Congress. So 
it has been going on for a while.
    Senator Voinovich. Because I know that, according to--65 
percent of the courtrooms--the courtrooms were utilized 65 
percent of the time, according to this.
    Mr. Peck. I have to say, I mean, Judge Roth said that. It 
is true that, to some extent, a judge having a courtroom 
available for court--I have been a lawyer--the judge saying, 
``I'm ready to go to trial'' does force people to settle, and 
knowing that the courtroom is available is significant. And, as 
she noted, too, sometimes you have it scheduled, and the day of 
the trial everybody says, ``I really don't want to go through 
with this,'' so the courtroom is then vacant for that day or 
several days. It is therefore not quite fair to say that this 
was a total waste of space.
    The other thing to put in perspective, I previously noted 
some numbers. We save about $1.9 million, on average, by 
cutting out a courtroom and its ancillary spaces, such as a 
holding cell. We have to put that in the context of the larger 
projects. When we build a courthouse, we're building space for 
the clerks, often the probation office, the U.S. Attorneys, and 
sometimes the U.S. Marshals, so there are lots of other spaces. 
It is a marginal cost reduction.
    On the one hand, it is not that much per courtroom. In the 
total program, however, significant sharing would generate a 
lot of savings. But whether you can get significant sharing and 
still carry out the functions of the court I still think is an 
open question.
    Senator Voinovich. Well, it is interesting that the GSA 
estimate was $714 million, and then the OMB came back with 
theirs and it was 675. You're talking $39 million. I don't know 
what the percentage is, but that doesn't seem to be such large 
savings as a result of going to this new system.
    One last question, and that is technology. Does that have 
any impact at all, in terms of, let's say, the subject that 
we're talking about now, in terms of courtrooms?
    I know in our county, Cuyahoga, Cleveland, we have some 
really outstanding work being done by judges using technology. 
Does that at all impact on the size of courtrooms or needs or 
anything of that sort?
    Mr. Peck. It has not had an impact on the size of the 
courtrooms. It does, to a certain extent, on the expense. But I 
have to say, most of the expense is not in the cost that you 
are seeing here--the actual cost of construction--although 
we're doing a lot of what are called ``raised floors'' so you 
can easily get to the cabling below. The courts are spending a 
lot of money on technology in the courtroom and on visual 
displays.
    Senator Voinovich. But it has got no impact on space or 
anything of that sort?
    Mr. Peck. It hasn't yet. We have found that there is enough 
space so far in the wells of the courtroom to accommodate the 
equipment, and so it has not. We have a 2,400-square foot 
standard courtroom size, which seems to be adequate to 
accommodate this at the moment.
    And remember, too, we build courtrooms with higher 
ceilings, which are basically a floor-and-a-half or close to a 
two-story space, compared to the normal office floor. So you 
have a little bit of room to play with there, getting your 
cabling underneath the floor without adding any more space.
    Senator Voinovich. Judge Roth, would you like to comment? 
And then I'll ask Senator Baucus if he has any questions.
    Judge Roth. Yes, I would. Thank you, Mr. Chairman.
    I think another factor to take in mind, which you pointed 
out, is that the cost of the extra courtrooms is not that 
significant. Our figures indicate to us that, over the lifetime 
of a courthouse, the cost of a courtroom and its ancillary 
rooms, like holding cells, is $50,000.
    If these courtrooms are not built, it is going to be that 
much sooner that the judiciary is going to have to come back to 
you and say, ``We are busting at the seams of this courthouse. 
We need a new courthouse built.''
    So I think when you balance the cost of the courtroom 
against the greater need we're going to have at a sooner time 
for more courthouses, that is a counter-balance.
    I think there is a cost to the whole litigation process if 
you are attempting to utilize courtrooms 100 percent of the 
time, because, as I said, you can't predict how long a trial is 
going to last. In a criminal trial you can't force the defense 
attorney to commit up front whether his client is going to 
testify or not, so that in scheduling for trials you have to 
estimate the amount of time.
    In civil trials you have a little more control over the 
length of the trial, but even then, with a juror or a witness 
who can't appear as scheduled, you simply cannot say, ``This 
trial will begin at this moment and end at that moment.''
    The GAO study did not include the scheduling of the 
courtrooms that were examined. It did not determine that the 
lights were off in Courtroom A because there was nothing to be 
done or because there had been a scheduled procedure which had 
been canceled at the last minute.
    Ernst & Young has taken all these factors into account, has 
interviewed judges, has interviewed people involved in the 
whole process, and, as I mentioned, we understand that their 
report will support the position that there should be one 
courtroom for every active district judge.
    Senator Voinovich. Thank you, Judge.
    Senator Baucus.
    Senator Baucus. Yes. Thank you very much, Mr. Chairman.
    We'll all be looking at that report when it comes out, 
obviously. I understand, too, that the Appropriations Committee 
has requested a report, and that, too, will be interesting when 
it is available.
    I'm just wondering, Judge, is there any trend over the 
number of either civil or criminal cases that are brought as to 
whether they actually go to trial? Is there a trend? Is it the 
same percent filed go to trial on the civil side as indictments 
on the criminal?
    Judge Roth. Most civil cases get settled, most criminal 
cases result in a plea agreement. The Administrative Office of 
the U.S. Courts keeps statistics on that. I certainly can 
provide the committee with those statistics if you would be 
interested in having them.
    I know that the Federal sentencing guidelines have, I 
believe, resulted in a higher percentage of pleas in criminal 
cases because of the acceptance of responsibility benefits that 
a defendant can receive.
    Frequently, there is no plea until the defendant sees that 
the trial is imminent in a criminal case. There is no 
settlement in a civil case until there is a courtroom where the 
trial will be scheduled, the lawyers know that the scheduling 
is firm, and that on that day they are going to have to appear 
with their client and go to trial. That's when the lawyers 
really sit down and think about what is the likely outcome of 
this case. Am I better off making an offer, accepting an offer? 
Many, many cases, settle within the last week before the trial.
    Senator Baucus. Right. Now, this 65 percent figure, has 
that been static the last 10 years, or is that also an evolving 
figure?
    Judge Roth. That is a one shot, a GAO team saying----
    Senator Baucus. Is that one shot over a year, over a month, 
or----
    Judge Roth. I don't think it was that. I'm not sure of the 
period. It was one shot in 12 courts. Looking at that one shot, 
they said further study is required. Rand said further study is 
required. That's why we contracted with Ernst & Young.
    Senator Baucus. I see. That was just a snapshot taken of 12 
courts?
    Judge Roth. Exactly.
    Mr. Peck. That's my understanding, too. They just walked 
through and saw if the courtroom was in use or not. They didn't 
ask--I don't think--many questions about why.
    Senator Baucus. It was a very comprehensive study.
    [Laughter.]
    Senator Baucus. Nevertheless, Judge Roth, I mean, I do 
think what Mr. Peck said has some ring of truth to it. That is, 
there may be a very large courthouse where it might be 
reasonable to schedule rooms--and whether the ratio is not 2 to 
3, or it may be 44 to 45, or something like that. Who knows? I 
mean, why are you saying that absolutely, categorically in no 
case can there be fewer courtrooms than judges in a courthouse?
    Judge Roth. Senator Baucus, I think we should keep in mind, 
too, that the areas with large courthouses are the very busy 
areas. Los Angeles, CA, and Miami, FL are, for instance, two 
courthouses which are affected on the list this year. They are 
among the busiest courts in the country. The courtrooms there 
are very busy.
    If you cut down on the number of courtrooms in those 
buildings, because of the nature of the business there, the 
large percentage of criminal cases which are being tried there, 
the growing population and the expanding case load, I think 
that you are going to find yourself, in a very short time, 
needing a new building in such an area if you attempt to 
shortchange a large building by one or two or four courtrooms.
    The building is estimated for 10 years out. By the time the 
building gets built, we're already 7 years out, so that we are 
almost at the full capacity of the building. In some areas with 
a high case load, as you have in Florida, and California, when 
you are 7 years out you have already bypassed your 10-year-out 
forecast.
    I think one can say theoretically that it is easier to 
share in a large building, but when you take the practicality 
of where these large buildings are, I don't think it is a wise 
decision to say we should reduce the courtrooms in these 
projects.
    Senator Baucus. You make some very good points. I 
appreciate that.
    I have a couple other questions. No. 1, Mr. Peck, there is 
a discrepancy in the funding of border stations in the north 
compared with the funding of border stations in the south. For 
example, the station in Raven, MT, is $577,000. Well, three 
border stations in Texas cost in the neighborhood of $2 million 
each--four times, roughly. Why?
    Mr. Peck. It is a fair question. Your numbers are about 
right.
    Senator Baucus. I hope so.
    Mr. Peck. Our budgets for the border stations are based on 
the requirements that are given to us by what are collectively 
known as the ``inspection agencies,'' such as Agriculture, 
Immigration, and Customs. Although you should really talk to 
them, the real answer is that the requirements for inspection 
tend to be more onerous on the southern border than on the 
northern border. I don't want to speculate on that, 
particularly, so that I don't cause an international incident.
    There are more-intensive secondary inspections, for 
example, on the southern border than on the northern border 
when you have truck traffic coming through, and that seems to 
be the case when we took a look at it. This seems to be what is 
driving the cost right now, the cost differential right now.
    [The information referred to follows:]

       Response by Robert Peck to a Question from Senator Baucus
    Question. Please explain the discrepancies in funding for the 
Northern border versus the Southern border projects.
    Response. The following projects were proposed in the fiscal year 
2001 budget:

                             Southern Border
------------------------------------------------------------------------

------------------------------------------------------------------------
Eagle Pass, TX, Phase II Expansion.........................  $28,108,000
Del Rio, TX, Phase III Expansion...........................   22,144,000
Fort Hancock, TX...........................................    2,400,000
------------------------------------------------------------------------


                             Northern Border
------------------------------------------------------------------------

------------------------------------------------------------------------
Jackman, ME................................................   $7,053,000
Raymond, MT................................................    6,544,000
Sault Sainte Marie, MI.....................................   12,465,000
Roosville, MT..............................................    7,645,000
------------------------------------------------------------------------

    Border stations are built to meet the needs and requirements of the 
Federal inspection agencies. The higher overall costs of proposed 
facilities along the Southern border is attributed to a number of 
factors:
    <bullet> Inspection of commercial and non-commercial traffic is 
different along the southern border due to required immigration and 
drug interdiction efforts.
    <bullet> Site development costs is substantially more costly at 
southern border stations than northern border stations. This cost 
differential is primarily due to amount of land area needed. Less dock 
space, queuing, and secondary inspection area, for example, are needed 
at the northern border. The average land area at stations on the 
northern border is 7 acres. Along the southern border, this land area 
is 26 acres.
    <bullet> Traffic volumes for commercial and non-commercial 
vehicles, buses, and pedestrians are often substantially higher at 
southern border stations. For instance at Eagle Pass and Del Rio, TX, 
the non-commercial traffic totals nearly 2,000,000 vehicles a year at 
each station, while the traffic count for Jackman, ME, Raymond, MT, and 
Roosville, MT, does not reach 100,000 vehicles a year per station. In 
addition, the commercial traffic at Del Rio and Eagle Pass (59,000 and 
105,000 respectively) exceed the commercial traffic at Raymond and 
Roosville (17,000 and 25,000, respectively). The larger traffic volumes 
are reflected in larger facilities, resulting in a higher project cost.
    There are cases along the southern border where smaller facilities 
are required, such as the Fort Hancock, TX, project. Along the northern 
border, we are developing projects of a larger scope, such as one at 
Ambassador Bridge, Detroit, MI.

    Senator Baucus. OK. I'd appreciate it, though, if you would 
take a look at that. And we will, too.
    I want to thank you, Judge, as the chairman has said, for 
ranking courthouse construction. That has been a matter that we 
have been talking about over the last couple years, and I 
deeply appreciate that Judiciary has ranked.
    A question I have for the Administration is: here I have 
this list of construction projects, courthouse construction 
projects that the Judiciary has ranked, and the Administration 
has agreed with this ranking on No. 1, No. 2, No. 3, No. 4, No. 
5, and then suddenly things change. The Administration slips 
down to--bypasses Buffalo, NY, and it bypasses Springfield, 
which apparently is not ready, and it goes to eight. Then it 
bypasses El Paso, Mobile, Fresno, Norfolk, Las Cruces, and ends 
up at Little Rock, AR. What happened?
    Mr. Peck. I know that last one looks strange. Let me 
explain.
    [Laughter.]
    Mr. Peck. I have an answer. Let me start at the top.
    Eugene and Springfield were simply dropped out because of 
site issues. In one case at least, the site we originally 
thought we were going to get for a courthouse has turned out 
not to be a site we're going to get, for various local 
community reasons. In Springfield, also, we've had trouble 
getting a site, so we're just not ready to go forward with 
construction in fiscal year 2001.
    Miami, which was also funded--you have to remember that OMB 
decided on an overall amount of discretionary spending it was 
prepared to put into this program. This is where I was not 
consulted and, quite honestly, would not expect to be. I mean, 
they moved some mountains internally to make the funding 
available that they did.
    Miami was the next one ready to go as a construction 
project, and it fit within the cap.
    The other projects, starting with Buffalo and running 
through Nashville onsite and design, at least, and some 
additional design for Erie, PA, were just beyond the point. OMB 
decided on what their overall spending limit was going to be 
and knocked out every project beyond that except for Little 
Rock. In Little Rock, we have already done a design, unlike all 
the other projects where we haven't even started a design. The 
scope of the project changed a bit, and so we just needed $1.8 
million more to finish the design and then be ready to move 
forward with construction. I mean, this was the justification 
for Little Rock.
    On Little Rock I have to say, I can't say this is 
categorically the rationale I'm pretty certain that this is the 
answer on Little Rock and not anything that might otherwise 
strike you.
    To be perfectly blunt, I think the President in Little Rock 
is concerned with construction of the Presidential Library and 
not with the renovation of this courthouse.
    But there, too, I have to say there are a couple of other 
projects. Buffalo was the next one onsite and design that was 
in priority order. There was a $3.6 million number, and just, 
whatever the cutoff was, it didn't make the cutoff. We haven't 
started the design process on Buffalo. We all do recognize that 
Buffalo and the others are necessary projects.
    Senator Baucus. Judge, do you have any comments on this 
change in priority from the Judiciary's point of view?
    Judge Roth. No, I don't, Senator Baucus.
    Senator Baucus. OK. I thank the chairman.
    Senator Voinovich. Thank you.
    Senator Moynihan.
    Senator Moynihan. Mr. Chairman, may I just add to the 
comments that Judge Roth has made and volunteer that we've had 
a test of the two courthouses for three judges in Brooklyn, the 
eastern district of New York, which involves lots of the issues 
of war on crime and illegal drugs that you speak of and has 
Kennedy Airport and all those things.
    Sir, the judges--it is beyond us. We have a court. It has 
been financed and not asking for anything. I'm just reporting 
they just found it was very difficult.
    Among other things, as the judge says, the fact that there 
is a courtroom there ready for a trial is a huge inducement to 
settlement, and if you know that, well, OK, the next thing is 
you're going to be sitting in front of a Federal judge and 
think about that, it's just--and part of the dignity of the 
judiciary, a judge has his courtroom.
    The last 15 years, we have been adding two death penalties 
a year to the Federal code, and putting them into these 
courthouses.
    In 1955, we made a certain amount of history by restricting 
habeas corpus so we could get to, you know.
    I think it is fair to say, if you had to pick a country in 
which they had free elections as against a country in which 
they had habeas corpus, pick habeas corpus every time. But we 
got rid of that so there would be more.
    And OMB has advised the President to sign all these bills, 
both kinds of Presidents. It comes with ill grace, it seems to 
me, at this point, to say, ``But we don't want to have enough 
courtrooms to try the cases.''
    But I would like to ask, if I can, Major Peck, what is this 
business of taking the Protective Service out of the Public 
Buildings, which puts up the buildings with those services in 
mind and having another bureaucracy and another--what's going 
on there?
    Mr. Peck. Well, I have to say----
    Senator Moynihan. Surely it is not going to be cost 
effective.
    Mr. Peck. Right. The bill that has passed the House 
Committee actually has some beneficial provisions in it that 
would increase pay for the Federal Protective Service officers 
and clarify their jurisdiction, which is important. This idea, 
however, of separating the Service, I'm not quite sure where it 
came from or why it was considered a good idea. But you are 
right; there would be additional administrative costs.
    But, for me, the fundamental issue is that it is a 
simplistic response. Some sense that if one simply makes an 
agency independent, it will be more effective. In this case, it 
seems that just the opposite is true. For the people who do 
security, this is a service which is not in business to serve 
warrants or to enforce the drug laws in our communities. It is 
in existence solely and its jurisdiction is restricted to 
defending Federal property, and the Federal property under the 
jurisdiction of GSA.
    So it seems quite logical that you would want them to be 
joined at the hip with the people who decide whether the door 
is going to be fixed, whether a security alarm which is broken 
will be made to work.
    That is, in fact, what we have. But, I mean, obviously, 
ideas don't come out of nowhere. I think there has been on the 
part of people in the Federal Protective Service a sense that 
they were somewhat neglected. I think the opposite has now 
happened. Some of the members I believe now believe that they, 
at least from me, are being too closely scrutinized, having 
been left on their own to define the mission, themselves. I do 
know a little bit about security and defining mission from the 
military, and I have defined the mission, and perhaps in a way 
that some don't like.
    The mission is security in the buildings, and some would 
prefer to chase speeders down Interstate 95, a jurisdiction we 
don't have, and shouldn't have, and don't need to be expert in 
because others do it and do it better.
    So, you could say, we have a little internal family 
argument.
    We have devoted, as I've noted, more resources to training 
and to technology, and I believe we are doing a great job; I 
worry that some of the impetus for this separate service is, in 
fact, to get out from under some of these reforms, and I'm 
quite concerned about what the result could be.
    Senator Moynihan. Well, I couldn't more agree. The idea 
that you have put up buildings with security in mind, you run 
them with security in mind, and that security involves the 
specific officers who are assigned it.
    Judge Roth. Excuse me, Senator Moynihan, could I add 
something to what Mr. Peck has said?
    Senator Moynihan. Your Honor?
    Judge Roth. The security of the courts is the 
responsibility of the U.S. Marshals Service, and under them the 
court security officers, and we are very concerned about this 
legislation because it does not define how the Federal 
Protective Service's jurisdiction would line up with the 
Marshals Service.
    Senator Moynihan. Yes.
    Judge Roth. We tried to get an amendment in to clarify that 
this legislation would in no way impinge upon the legislative 
responsibilities of the Marshals Service. We were unable to get 
that amendment in, and for that reason we have very serious 
concerns about this legislation.
    We also feel that the more cooks you have providing 
security--and my committee is involved with court security--the 
more cooks you have, the more problem you're going to have 
getting a good soup out, and for that reason we think we have 
enough chefs.
    Senator Moynihan. I will stop right there, Mr. Chairman, 
and suggest to you that when that bill comes over here we let 
it go nowhere. I just offer that as a thought.
    Thank you very much.
    Senator Voinovich. Senator Graham.
    Senator Graham. Thank you, Mr. Chairman.
    I share what I think is the feeling of this committee that 
the idea of having a policy which restricts the number of 
courtrooms to less than the number of active judges is wrong-
headed, but I would even go beyond that and say the idea of 
having a single policy for every one of the 95 Federal 
districts is also nonsensical.
    If I could use as an example the situation in the southern 
district of Florida, which is one of the districts affected by 
this judgment, of the 95 U.S. Federal districts, last year the 
No. 2 district in terms of jury trials was the southern 
district of Texas, with 293 jury trials. The No. 1 district was 
the southern district of Florida, with 375 jury trials, 
approximately 80 jury trials more than No. 2.
    Second, it has an overall per-judge caseload which is 30 
percent higher than the national average.
    Third, this is a courthouse which started planning in 1993, 
the 10-year window being, therefore, to the year 2003. Under 
the current construction standards, it won't be open until the 
year 2004, and if it has to undergo redesign it might be 2005 
or later, so we are already at least 1 year, and with this at 
least 2 years behind the 10-year window.
    So, for all of those reasons, this seems to me to be a 
peculiarly inept policy, and then to attempt to apply it as if 
all of the 95 Federal court districts were homogenous adds to 
the absurdity.
    You indicated that the Office of Management and Budget, Mr. 
Peck, had not consulted with you before they made this change.
    Judge Roth, was there any consultation with the Judiciary 
before this recommendation was made?
    Judge Roth. There was none at all, Senator.
    Senator Graham. This would also seem to me analogous, if 
you had a school that you were about to build and you felt that 
it might be over cost, to have as the only way to reduce cost 
to cut out the classrooms, as opposed to maybe reconsider 
whether you wanted to put in parquet floors in the gymnasium or 
something maybe less expensive. Was there any consultation--if 
the goal was to reduce the cost of courthouses, was there any 
consideration of what the range of alternatives would be, or 
was the only alternative that was considered by OMB to reduce 
the number of courtrooms?
    Mr. Peck. Senator Graham, I think that the OMB was starting 
from the assumption which is right, that we have a fairly 
sophisticated benchmark system for deciding on the basic costs 
for a courthouse, given the amount of square footage we have. 
It allows for a certain quality level and then adjusts for 
labor markets and construction costs. Once you're there, the 
only way to reduce the cost is to reduce the scope of the 
building, or the size that you are going to build, and I think 
that is where they were going.
    Having said that, I have to say I do fundamentally agree 
with you that on this issue of courtroom sharing, if it is to 
be done at all and done in an intelligent way, you would have 
to do it on a case-by-case basis, and you would have to look at 
the kind of cases that are in a courthouse. Some courts, like 
in Miami, have a lot of multi-defendant cases, which drives you 
also to different decisions about what kinds of courtrooms and 
how many courtrooms you have.
    If one would ask me, that's how I would go about trying to 
decide where I would support sharing.
    Senator Graham. There's one other factor that I would like 
to request to get numbers analogous for those I'm about to give 
for the southern district of Florida. The estimate is that this 
courthouse, which has been under planning and design, as I 
indicated, since 1993, will cost $2.5 million to redesign the 
building that is already just about construction-ready, and if 
there is a 6-month construction delay, the estimate is there 
will be an additional cost of $1.6 million, and, as the chief 
judge feels, there, in fact, will be a 12-month delay, that 
number will double to 3.2 million. So somewhere between a third 
and a half of the projected savings is going to be eaten up in 
the cost of redesign and the additional construction cost 
incident to delay.
    I'd be interested in your evaluation of those numbers for 
the southern district of Florida, as well as the other 
courthouses which are on the list. How much is the real savings 
after you take into account the consequences of redesign and 
delay?
    Mr. Peck. I can't vouch for those numbers. We could provide 
you with an estimate.
    There are a couple of projects on the list that were far 
enough into design and approvals--the Washington Courthouse 
comes to mind, too--that there will be both a time and fiscal 
cost to going back and redesigning. Whether that eats up the 
savings you'd have otherwise, I don't know. We'll have to take 
a look at that. We could provide that if you want.
    [The information referred to follows:]
 Response by Robert Peck to an Additional Question from Senator Graham
    Question. What is the ``real'' savings for the projects on the 
priority list?
    Response. The real savings from the fiscal year 2001 courthouse 
construction program will be $140 million. Of the seven projects in the 
President's budget, Los Angeles and Richmond are new design starts, and 
Little Rock is the continuation of an on-going design project. 
Consequently, there will be no redesign cost impact on these projects. 
The courtroom sharing policy has no impact on the Gulfport, MS, 
project. The policy has a minimal effect on the Seattle project; the 
elimination of one courtroom will not affect the construction schedule 
for the courthouse.
    The Miami and Washington, DC courthouse projects will require 
significant redesign to accomplish courtroom sharing, and the following 
describes the cost impact on each project.

           COURTROOM SHARING IMPACT ON THE MIAMI, FL, PROJECT

    The Miami project was suspended at about 40 percent of the total 
design effort for a 16-courtroom courthouse during the month of March 
2000. GSA's redesign strategy assumes a simple scope reduction by 
removing 1 of the 4 courtroom floors and adapting another courtroom 
floor to accept additional chambers. The building reduction redesign 
will cost approximately $1,000,000 and take an estimated 3 months to 
accomplish. The construction cost savings achieved by removing 
departures from the U.S. Courts Design Guide and sharing courtrooms is 
approximately $12,000,000. Therefore, the total net savings to the 
project will be approximately $11,000,000.
    Any delay in issuing clear direction beyond August 2000 will 
translate into higher costs than reported in the fiscal year 2001 
construction prospectus, regardless of the pursued option, including 
the full 16 courtroom courthouse. Depending on which option is 
exercised, 16 or 8 courtrooms, construction costs due to inflation are 
estimated to be up to $260,000/month. Additionally, delay beyond this 
date will also slip the construction award into fiscal year 2002.

        COURTROOM SHARING IMPACT ON THE WASHINGTON, DC, PROJECT

    GSA estimates that the redesign (including management fees) of the 
DC Courthouse will cost approximately $1,200,000 and can be completed 
within 11 months. The construction cost savings achieved by sharing 
courtrooms is approximately $6,700,000. Therefore, the total net 
savings to the project will be approximately $5,500,000. Any delay in 
issuing clear direction beyond June 2000 will translate into higher 
costs than reported in the fiscal year 2001 construction prospectus. 
Additionally, delay beyond this date will also slip the construction 
award into fiscal year 2002.
    The concept for the redesign proposes the elimination of the 
northern portion of the building above the loading dock. The loading 
dock, chambers and offices within this space would be reprogrammed 
within the remaining annex, from space made available from the 
reduction of four courtrooms. In the future, the northern portion of 
the building can be constructed and the building concept completed.

    Senator Graham. I'd like to move to a different topic with 
my remaining time, if I've got some remaining time, Mr. 
Chairman, and that is the issue of security that you referred 
to, Mr. Peck.
    I recently visited Jacksonville, FL, where there is a 
Federal building under construction, and the comments that were 
made to me were that the security standards that GSA is 
requiring are making it very difficult to build Federal 
buildings inner city, that they are almost forcing construction 
to go to suburban locations in order to be able to get the 
amount of setbacks and other security requirements.
    In the case of Jacksonville, where they are building a 
building downtown, because of security reasons they were 
disallowed the request to connect to a light rail system which 
serves downtown Jacksonville so that people could go directly 
off the light rail into the Federal courthouse.
    It seems to me that we have one Federal policy of security 
that is undercutting important Federal interest in terms of 
enhancing the quality of our inner cities and older downtowns 
and effectively using public transportation.
    Mr. Peck. I know the Jacksonville project and I know of its 
potential connection with the light rail system. I didn't know 
that in the last design I had seen, there was a connection. 
I'll have to go back and take a look.
    [The information referred to follows:]

 Response by Robert Peck to an Additional Question from Senator Graham
    Question. Please followup on the connection between the light rail 
system and the new courthouse under construction in Jacksonville, FL.
    Response. GSA and local civic leaders from Jacksonville did discuss 
creating a secondary entry directly from the public transit station 
early in the design process. However, we decided that a connection 
would be inappropriate for the following reasons:
    <bullet> Aesthetics.--The building is set back from the station to 
create a public plaza in front of the courthouse. This provides a 
sequence of urban space starting at the transit station, then 
proceeding through a public plaza, and ending, finally, in the Federal 
Courthouse. GSA felt strongly that this would provide a more pleasing 
effect to the pedestrian than a direct entry--elevated above the 
courthouse plaza--into the building. Moreover, the pedestrian traffic 
to and from the transit station and the courthouse animates the public 
plaza, which would be missing with a direct, elevated connection.
    <bullet> Security.--U.S. Marshals and the local court considered a 
second entry unacceptable because it would have increased security 
risks.
    <bullet> Expense.--A second entry would have required an additional 
U.S. Marshals entry station--fully equipped and manned with its costly 
personnel.
    We believe the single entry design in Jacksonville is an example of 
GSA's commitment to creating urban spaces that are both inviting to the 
public and secure for the building tenants.

    You have put your finger on a very important issue for us.
    One, some happy news: in Miami, the courthouse we have 
designed does have a significant setback on all sides. We are 
trying to turn that into an amenity for the city, a pleasant 
place, by turning the area into a park. We've even talked to 
the judges with some support about having a little cafe, a 
place that you can actually attract people.
    I have to say, some of the security folks, both in the 
Marshals Service and I think some of my own, are aghast at the 
suggestion that you might actually have people in their 
security setback. But one of the lessons of security is the 
more people there are, the more good people you attract to an 
area, the harder it is for the bad people to have their way.
    This is a real difficult issue. I mean, we have done the 
following things: we are re-evaluating our security criteria 
and rewriting them. There has been a tendency, since Oklahoma 
City--and, in fact, with respect to the embassy program, as 
well--again to have a one-size-fits-all policy that, for 
instance, a 100-foot setback is absolutely necessary. Well, 
without getting into the real numbers, we know if 100 feet is 
good, 200 feet is probably better and 500 feet is better still, 
and you wonder where that number quite comes from.
    There are other ways to provide security. Some of them, 
however, are expensive. If we really believe that there is, as 
there is in some cases, a risk of an explosion near a building, 
you either need a setback, or you need to strengthen the 
structure of the building, which adds expense. But at least 
there is that alternative.
    We are quite concerned, because we are pushing hard on the 
downtown policy. As I think you know, we have an Executive 
order from two Presidents, Carter and Clinton, that we are 
abiding by, and we are concerned that we might not be able to 
get sites.
    With respect to the courthouse program, it is almost a 
given that you have to be downtown. Very few courthouses have 
strayed out to the suburbs, and we don't see that happening.
    We also believe there are lots of ways you can be creative 
and provide security and do it in downtown areas. Some of it, I 
have to say, is going to take some leadership on the part of 
all of us in recognizing that there are some risks, no matter 
what you do, that you do the best you can to deal with the 
most-likely risks, and that all of us in the public service 
have to live with perhaps a little bit more than people in the 
private sector do.
    Senator Graham. If I could just close, Mr. Chairman, I 
think at some appropriate time a hearing on this specific 
subject of the effect of GSA policies, including security 
policies, on the desire to have the Federal Government with a 
presence in our major downtown areas, would be a valuable 
contribution to this dialog.
    Senator Voinovich. A good suggestion.
    It would be interesting if you could give us some 
information about where they are being built and if there is a 
movement toward moving things toward the suburbs. Just take the 
last 3 years. That would be interesting just to see what the 
statistics are.
    [The information referred to follows:]

      Response by Robert Peck to a Question from Senator Voinovich
    Question. Please provide information related to the courthouse 
construction program for those that are being built in downtown areas 
and those that are moving toward the suburbs.
    Response. GSA has reviewed the locations for the courthouse 
projects that are currently under construction. Of the 14 projects that 
will be completed in Fiscal Years 2000, 2001, and 2002, 13 courthouses 
are in their city's Central Business Districts: St. Louis, MO; Tucson, 
AZ; Hammond, IN; Omaha, NE; Montgomery, AL; Phoenix, AZ; Albany, GA; 
Las Vegas, NV; Cleveland, OH; Corpus Christi, TX; Greeneville, TN; 
Jacksonville, FL; and Brooklyn, NY.
    One courthouse project is in a suburban location on Long Island, 
Central Islip, NY. The courthouse is being built on a donated site 
adjacent to a county courthouse to form a judicial center in the 
community. Congress amended Title 28 of the U.S. Code to designate 
Central Islip, NY, as a place for holding court.

    Mr. Peck. Interestingly, I believe we are connecting the 
Cleveland Courthouse with a pedestrian walkway to Tower City, 
aren't we?
    Senator Voinovich. Yes, you are. Yes. And that's a public/
private partnership, and I congratulate----
    Mr. Peck. We may have an inconsistency going on here. We'll 
take a look.
    Senator Voinovich. OK.
    I've got a couple more questions.
    First of all, if we continue to Federalize crime in this 
country, which seems to be the tendency, you won't have enough 
courtrooms. You're going to be squashing judges in because 
you're just not going to have the space. This is not a good 
idea because you're going to need more space. By the time you 
build the new ones, they will be obsolete. So that's one 
argument, logical one, common-sense one.
    The other is I'm pleased that you are finding that your 
employees in the Federal service can do a good job of 
maintaining your buildings, which I have contended. There's 
always a tendency to think that the only way to get anything 
done properly is to privatize. I think you are finding that 
you've got good employees in the Federal Service, and if they 
are given the training and the empowerment, that they can get a 
job done. I think this needs to be said more often, because 
there is a feeling about that the only way you can get anything 
done is to send it out to someone else. I think that our 
Federal employees can do a darned good job if they are given 
the training and the tools and the empowerment to get the job 
done.
    And the last thing is that--maybe Senator Moynihan might be 
interested in this--you're asking for money for authorization 
to build the U.S. mission to the United Nations. It is my 
understanding that we haven't been able to even appropriate 
enough money to tear the building down. I wonder if we ought 
not wait for that to happen before we authorize the 
construction of the building.
    Senator Moynihan. Mr. Chairman, if I could interject, the 
building is falling down, so there really won't be----
    [Laughter.]
    Senator Baucus. While we're on foreign buildings, Mr. 
Chairman, what is the status of their embassy in Beijing?
    Mr. Peck. Fortunately, I don't have to do the embassies. 
The State Department does those. I can find out.
    Senator Baucus. I can tell you it is a mess.
    Mr. Peck. Interestingly, there is a security issue that we 
can't build a building in Berlin because our security standards 
don't mesh with the city plan for Berlin. They gave us one of 
their great sites. In Beijing I know it is an old building and 
also great security concerns, probably made all the stronger by 
Ambassador Sasser's having been nearly held captive in his 
building.
    Senator Baucus. To say it is an old building is an 
understatement. It was given to us many, many years ago by 
Pakistan. It is an embarrassment to America.
    Mr. Peck. A great legacy.
    Senator Voinovich. Can you comment on that U.N. question, 
please?
    Mr. Peck. Yes, sir, on the U.S. mission, it is true that I 
believe the appropriators last year did not appropriate. We 
have a design. We are ready to go. Obviously, we are not going 
to demolish without approval.
    I mean, we could get stuck in this who goes first issue, 
and, obviously, we urge the committee to approve this project 
in full and let us go ahead as we get the funding.
    It really is necessary. The building is old. You can hear 
from my comments, I am not an alarmist on security, but this is 
a building that really has no security. It is not adequate to 
the size of the U.S. mission.
    No matter how one feels about the United Nations, we 
clearly have a presence there. We are the host country. The 
U.S. mission building is across from the U.N. Building. It is 
just in a terrible state, and we think the project is needed.
    I'd suggest going--obviously, it is your call. I'd suggest 
going ahead and approving it and letting us go and talk to the 
appropriators and see if we can get the funding.
    Senator Voinovich. OK. Are there any other questions?
    [No response.]
    Senator Voinovich. Well, we'd like to thank you very much 
for being here.
    Mr. Peck. Thank you.
    Senator Voinovich. The meeting is adjourned.
    [Whereupon, at 11:40 a.m., the subcommittee was adjourned, 
to reconvene at the call of the chair.]
    [Additional statements submitted for the record follow:]

STATEMENT OF HON. JOHN W. WARNER, U.S. SENATOR FROM THE COMMONWEALTH OF 
                                VIRGINIA

    Thank you, Mr. Chairman, for holding this hearing on GSA's fiscal 
year 2001 Capital Investment and Leasing Program including the 
courthouse construction program.
    I am pleased that the President's fiscal year 2001 budget request 
includes seven new courthouse construction projects, the first such 
request since fiscal year 1997. Congress has recognized the need to 
provide the judiciary with adequate, secure space for courts and I am 
happy that the Administration has followed suit to acknowledge this 
need.
    The absence of courthouse funding in the budget for 3 years, with 
Congress only able to appropriate funds in one of those years, has 
placed GSA behind schedule in delivering needed space for the courts 
and created a lengthy backlog of projects. Although, the 
Administration's fiscal year 2001 proposal still falls short of funding 
the courthouse projects which this committee has already authorized, it 
is a good first step.
    There are two courthouse projects which I would like to bring to 
the committee's attention.
    First, the current space and security situation at the Richmond, 
Virginia, courthouse facility is inadequate and warrants action. The 
court complex is operating at full capacity and most court and court- 
related components are experiencing operational difficulties. There is 
no room within the existing facility to accommodate any growth. Any 
further delay of the project would impede greatly the court's ability 
to accomplish its work. Thankfully, the site and design for the 
Richmond Courthouse, housing the entire District Court and Bankruptcy 
Court, is among the seven courthouse projects in the budget proposal.
    Second, I am concerned that the existing courthouse at Norfolk has 
run out of space and presents serious security concerns. It is one of 
the 18 projects which this committee has authorized and identified by 
the judiciary as one of the most crucial needs. Prisoners, litigants, 
jurors, public and judges share the same elevators and hallways. 
Funding for the annex project is needed to remedy the existing problems 
and provide for the 10-year needs of the court. The current problems 
and inadequacies have reached a critical level and immediate funding is 
needed for construction of the annex project, which will allow the 
courts to meet their mission in the Eastern District of Virginia. 
Unfortunately, the present budget does not include funding for this 
necessary project.
    I also have two concerns over the present courthouse proposal.
    My first concern is over the ranked priorities for courthouse 
construction in the President's budget. After much deliberation this 
committee recognized that a priority order established by the judiciary 
would be the most fair solution in ranking which of the many courthouse 
projects would begin site, design or construction work. Although the 
Administration budget does provide funds for six of the top seven 
projects identified by the judiciary, it does not strictly follow the 
order prescribed and deviates in one case. I suspect my colleagues from 
New York will bring this issue up in greater detail but I wanted to 
register my concern as I do not wish there to be precedent established 
that would delay projects identified as necessary in my state or in my 
colleague's districts.
    Lastly, I wanted to bring attention to the courtroom sharing issue. 
A number of Federal judges in the Commonwealth of Virginia have brought 
to my attention the decision by OMB to have all judges share courtrooms 
contrary to established Judicial branch policies. Although no 
representative of OMB is here to explain their rationale, I wanted to 
let the committee know that I am concerned with this decision on many 
fronts and am eager to understand the rationale.
    Thank you, Mr. Chairman.
                               __________

 STATEMENT OF ROBERT A. PECK, COMMISSIONER, PUBLIC BUILDINGS SERVICE, 
                    GENERAL SERVICES ADMINISTRATION

    Good morning, Mr. Chairman and Members of the Subcommittee, my name 
is Robert A. Peck and I am the Commissioner of the Public Buildings 
Service. Thank you for inviting me here today to discuss the Fiscal 
Year 2001 Capital Investment and Leasing Program. Before I discuss the 
specifics of our program, I would first like to give you an overview of 
our overall responsibilities and highlight a number of Public Buildings 
Service initiatives that are improving the way we do business.

                               BACKGROUND

    GSA's Public Buildings Service is the largest owner/operator of 
commercial-style real estate in the United States, managing 350-million 
square feet of space in office buildings, courthouses, laboratories and 
border stations, and housing one million Federal employees. 
Approximately 55 percent of that space is in 1,993 government-owned 
buildings, housing nearly 500,000 employees. The remainder of the space 
and employees is housed in approximately 6,400 privately owned leased 
buildings. Our customers include all Federal departments, independent 
agencies and commissions, the Judiciary, and Members of Congress.
    Our funding comes principally--in fiscal year 2000 it is coming 
exclusively from the rents that we charge to the more than 100 Federal 
agencies. The rent revenues, expected to amount to approximately $5.5 
billion in fiscal year 2000, are deposited into the Federal Buildings 
Fund (FBF) and are used to operate the government's buildings, pay rent 
to the private sector for our leased space, provide security, and fund 
our administrative costs. More than 90 percent of the $5.5 billion we 
plan to spend in fiscal year 2000 will be paid out in the form of 
contracts with the private sector. More than half of the fiscal year 
2000 expenditures, $3 billion, will go toward lease payments in private 
buildings.
    Since the Oklahoma City bombing, we have doubled our rate of 
spending on building security, doubled the size of our uniformed force, 
and improved our security organization to upgrade its capabilities and 
focus it on the violent threats we face.

Improved Performance through Businesslike Measures
    While we carry out the public buildings program in accordance with 
government contracting procedures and socio-economic preferences, we 
are now operating more like a business. Our performance measurements 
link our budgeting process to performance in tangible ways. We have 
established nine performance measures, which have quickly become known 
as the ``Big Nine'' in our organization. These measures have allowed 
our 11 regions to compete among each other to do our business in the 
cheapest, best, and fastest manner possible. Regional budget 
allocations and even individual bonuses are tied directly to a region's 
ability to meet specific performance improvement targets.
    In business, they say you get what you measure and we have found 
that, too. Since we began our ``Linking Budget to Performance'' 
program, we have had the following results:
    <bullet> Our funds from operations have increased approximately 38 
percent from fiscal year 1998 to 1999.
    <bullet> We have reduced the non-revenue producing space in our 
total inventory from 13 percent to 10 percent in just the last fiscal 
year.
    <bullet> Our operating costs per square foot in government-owned 
space are approximately 13 percent below the private industry average; 
in the past 3 years, our cleaning costs per square foot have actually 
gone down, while the private industry average has gone up.
    <bullet> The average rents we have paid in our leased buildings 
across the country have been at or below the average rate that private 
sector tenants pay, with a cost avoidance to the government in the tens 
of millions of dollars.
    <bullet> The average time it takes us to negotiate new leases for 
client agencies is down from 244 days in 1996 to 152 days in 1999, a 
decrease of 38 percent.
    <bullet> Our energy consumption was reduced 17.3 percent from 1985 
to 1999. Our goal is to further reduce this another 2.7 percent by the 
end of fiscal year 2000 and an additional 10 percent by the end of 
fiscal year 2005.
    <bullet> Our customer satisfaction scores, measured in hundreds of 
buildings by the Gallup organization, have improved steadily from 74 
percent in 1993 to 80 percent in 1998. Our long-term customer 
satisfaction goal is 85 percent.
    These results are depicted graphically in an attachment to my 
statement.
    This improved financial performance has a direct bearing on the 
capital program we are proposing. By pricing more realistically and 
reducing expenses, we have 
produced more net income, which for us is the only available source of 
funding to upgrade our aging buildings, and thus provide Federal 
workers the productive workspace they need. Increased net income allows 
us to propose more capital improvement projects. We are proposing some 
new construction funding from the FBF, as well. We consider this to be 
a secondary priority for FBF net income and are recommending it for 
some urgent security and law enforcement projects only.
Improving the Public Quality of Public Buildings
    In addition to focusing on our bottom line, the Public Buildings 
Service has a broader goal of improving the benefits that Federal 
buildings bring to local communities across the country, recapturing 
the tradition of quality and vitality in Federal buildings that was 
begun by Washington and Jefferson.
    <bullet> We are designing and constructing landmark public 
buildings that are efficient and dignified, sources of community pride, 
and positive government investments in their localities.
    <bullet> Our urban livability program has improved the way we 
integrate our site and design decisions with local planning and 
development needs. We are making public building plazas centers of 
downtown activity, in the tradition of the American courthouse square.
    <bullet> We have kicked off a First Impressions program to redesign 
the entry and lobby areas of our Federal buildings, making them more 
welcoming and functional as well as secure for the public and 
employees.

               THE CAPITAL INVESTMENT AND LEASING PROGRAM

    This month we submitted to Congress the GSA Fiscal Year 2001 
Capital Investment and Leasing Program, which you have before you 
today. We are pleased to note our proposed budget request this year 
includes a substantial new construction program as well as an increase 
in the amount proposed for critical repair and alteration projects.
    The highlights of the program include:
Projects Funded from the FBF
    <bullet> 9 prospectus-level (non-courts) design and new 
construction projects estimated at $82,351,000;
    <bullet> 14 prospectus-level repair and alteration projects 
budgeted at $349,278,000;
    <bullet> 12 prospectus-level repair and alteration designs for 
future projects at $21,915,000;
    <bullet> An ongoing chlorofluorocarbon reduction and energy-saving 
programs budgeted at $10,000,000 and $20,000,000, respectively; and
    <bullet> A glass fragmentation program budgeted at $30,000,000.
Projects Funded from a Direct Appropriation to the FBF
    <bullet> 2 new construction projects--the FDA consolidation in 
Montgomery County, MD, for $101,239,000 and ATF Headquarters project in 
Washington, DC, for $83,000,000; and
    <bullet> 7 new courthouse construction projects totaling a budget 
request of $488,464,000.

Capital Planning
    Our Capital Investment and Leasing Program plays a key role in 
providing the necessary resources to maintain the current real property 
assets and acquire new or replacement assets. Our proposed projects are 
evaluated in the context of the entire national portfolio. We consider 
three options when evaluating our client agency requirements: 
construction and acquisition, repair and alteration, or leasing space 
from the private sector. When evaluating and prioritizing our capital 
program, we consider a number of factors:
    <bullet> Economic justification in terms of financial return and 
present value cost;
    <bullet> Project timing and execution;
    <bullet> Physical urgency based on building conditions;
    <bullet> Customer urgency; and
    <bullet> Historic preservation and community considerations.

Repair and Alteration Program
    More than half of our government-owned buildings are older than 50 
years and nearly a quarter of the inventory bears historic designation, 
so we have a particularly significant need for funds to maintain and 
renovate our existing inventory. Our first capital program priority 
therefore must be repair and alteration of our existing inventory to 
ensure that its value and condition do not decline. For fiscal year 
2001, we are proposing a budget of $721.2 million, an 8 percent 
increase over $665.6 million received in fiscal year 2000. Our annual 
repair and alteration program is approximately 2.5 percent of the 
inventory's replacement value, which falls within the range (2-4 
percent) of private sector practice. However, given the age of the 
inventory, we are currently studying what is an appropriate level of 
funding.
    To help allocate the limited resources of the FBF for repair and 
alteration projects, we use a Return on Investment (ROI) methodology--
in addition to the criteria highlighted above. ROI determines if a 
project adds or detracts from the net income the building contributes 
to the FBF after project completion. Simply stated, if we invest 
dollars in a building, we want to make sure that the investment will 
bring increased revenues. Using a ROI approach in evaluating projects 
assists our efforts in strengthening the long-term fiscal health of the 
FBF.

New Construction and Acquisition
    Through revenues generated by the FBF, we are proposing to fund 7 
border stations; demolition and construction of a new U.S. Mission to 
the United Nations; and the acquisition of a site and design of a new 
Federal Bureau of Investigation (FBI) Field Office. By increasing our 
net income--through new pricing policies and our focus on performance 
measures--we have released some of that net income for modest, yet 
urgent, security-related new construction projects. Nonetheless, we 
continue to have unmet needs in our existing buildings and our first 
priority for the use of net income is for building repairs and 
alterations.
    Through a direct appropriation, we are requesting funding and 
authority for 7 courthouse projects across the nation, the FDA 
consolidation in Montgomery County, MD, and the ATF Headquarters 
project in Washington, DC. You will also notice a request for your 
Committee to authorize the Suitland, MD, NOAA project. Design funds for 
this urgently needed facility, which will house some of the nation's 
most important weather satellite technology, was provided in the 
Department of Commerce's fiscal year 2000 appropriation. Our request 
for authorization, along with an advance appropriation requested in the 
Fiscal Year 2001 President's Budget, will allow GSA to proceed 
expeditiously with the design and construction of this important 
facility. Our fiscal year 2001 budget request also includes advance 
appropriations in fiscal years 2002, 2003, and 2004, which will 
complete funding of the FDA consolidation in Montgomery County, MD.
    As you know, this is the first year the Administration has 
requested a courthouse program since 1997. The fiscal year 2001 funding 
request for new courthouse construction reflects the Administration's 
view that courtroom sharing is a cost effective means for providing the 
space needed by the courts. This has resulted in the elimination of 22 
courtrooms in the 7 new courthouse projects proposed in the budget. 
Although some redesign will be required, GSA's fiscal year 2001 budget 
request was reduced by approximately $25 million as a result. Our 
projections indicate that the expenditure of almost $33 million will be 
avoided in future years as these projects move from the design phase 
into construction. Additional significant cost savings of approximately 
$85 million will result, for instance, from the construction of a 
companion courthouse to the Roybal Building in Los Angeles, as opposed 
to a new stand-alone courthouse.
    The following table summarizes the status of the courthouse 
construction program:


------------------------------------------------------------------------
          Project Stage           Number of Projects
------------------------------------------------------------------------
Completed.......................                 25   9 completed in
                                                       1999
Construction Funded:
  Under Construction............                 15   9 to be completed
                                                       in fiscal year
                                                       2000*
  Construction Pending..........                  6   Fully funded and
                                                       authorized
Partially Funded:
  Site Acquisition..............                  3   Received only site
                                                       funding/
                                                       authorization
  Design........................                  1   Received only
                                                       design funding/
                                                       authorization
  Site and Design**.............                 12   Received only site
                                                       and design
                                                       funding/
                                                       authorization
                                 ---------------------
  Total Projects................                 62
                                 ---------------------
  Total Dollars.................      $3.5 Billion
------------------------------------------------------------------------
*Albany, GA; Central Islip, NY; Hammond, IN; Las Vegas, NV; Montgomery,
  AL; Omaha, NE; Phoenix, AZ; St. Louis, MO; Tucson, AZ
**The Seattle, WA, Courthouse project is an example where GSA is in the
  site acquisition and design process. GSA will not proceed with
  construction until such funding and authorization are obtained.

    The 25 projects that have already been completed provide 244 
courtrooms for the Judiciary's use. The 9 projects that will be 
completed this fiscal year will add 123 courtrooms to the inventory.
    The remainder of the new courthouse construction program is 
projected to cost approximately $4.5 billion. This amount includes 
construction funding for the 16 projects that have received only 
partial funding and also includes full funding for the 97 projects that 
have received no funding to date.

Leasing Program
    This year we have also submitted for your consideration 12 lease 
prospectuses. These 12 leases total approximately $80 million in 
obligations in fiscal year 2001. These prospectus-level leases 
represent a small percentage of our $2.94 billion rental of space 
budget request for fiscal year 2001.
    By managing ourselves in a more business-like manner, we are 
working to control the growth of our leased inventory. As mentioned 
previously, one of our performance measures is the amount of vacant 
space in our inventory. We focus on reducing vacancy in both owned and 
leased space by renovating and backfilling vacant-owned space, 
realigning space assignments to consolidate vacant space, and where 
possible, buying out leases and moving tenants from leased to vacant-
available space in Government-owned buildings. We believe our efforts 
have been successful. The proposed $721.2 million repair and alteration 
program, for instance, will allow us to backfill more than 1.1 million 
square feet of vacant space in our owned inventory, which in many cases 
involves moving client agencies back into government-owned buildings 
from leased space.

                               CONCLUSION

    While the FBF can support maintaining our existing inventory and a 
modest new construction program to fund border station needs and 
specialized law enforcement needs, such as the occasional FBI building, 
it cannot support a large-scale new construction program, such as that 
needed by the U.S. courts. This is evidenced by the $3 billion Congress 
has appropriated to the FBF between fiscal years 1990-2000.
    To propose a large new construction program as we have this year, 
it is necessary for us to ask for an appropriation to the FBF. We have 
found, however, that our business-like approach has helped us maximize 
the net income from our portfolio, and in turn, invest more in our 
existing inventory. The higher our net income, the higher the number of 
prospectus-level repair and alteration projects we are able to submit 
to Congress. A higher net income also allows us to fund more new 
construction projects within the FBF, which is evidenced by the 
$102,194,000 we submitted in the fiscal year 2000 budget and the 
$107,085,000 we are proposing for fiscal year 2001.
    Last year marked the 50th anniversary of the founding of the 
General Services Administration. We were created as an outgrowth of the 
Hoover Commission in 1949. Over the past year we have been evaluating 
the impact that additional asset management tools would have on the 
Government's management of real estate. We are working closely with the 
Administration, and hope in the near future to submit a proposal that 
Congress agrees will allow us to operate our real property inventory 
even more effectively. Finally, we are also evaluating the need to 
increase the prospectus threshold above the fiscal year 2001 level of 
$1.99 million. We believe a higher threshold would enable us to meet 
agencies' space needs--such as replacing a single building systems or 
backfilling vacant space--more rapidly than the current threshold 
allows, and would still provide for the Committee's review the 
significant capital improvement and construction projects that Congress 
has traditionally been concerned about.
    Mr. Chairman, this concludes my formal statement. I would be glad 
to answer any questions that you may have about our proposed Fiscal 
Year 2001 Capital Investment and Leasing Program, or any other aspects 
of the public buildings program.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      Responses by Robert Peck to Questions from Senator Voinovich
    Question 1. If you would please explain for the committee the 
current status of the U.S. Mission lo the United Nations. (NOTE: There 
was no funding available for the demolition of this building in the 
fiscal year 2000 Treasury, Postal Appropriations bill.)
    Response. The U.S. Mission to the United Nations project requires 
demolition of the existing U.S. Mission building and the construction 
of a new U.S. Mission building on the existing, government-owned site. 
Congress authorized $3.163 million for design and $4.3 million for 
demolition. P.L. 105-277 (FY 1999 appropriations) including $3,163,000 
for design of the new building.
    The project's architectural design contract was awarded in June 
1999; design will be completed in December 2000. GSA requested $4.022 
million for demolition in fiscal year 2000, and as you note, we did not 
receive that appropriation. The GSA fiscal year 2001 budget includes a 
request for $58.3 million for the demolition and construction phase of 
the project.
    As we testified, to correct serious security and functional 
inadequacies in the existing building, we need the new U.S. Mission 
building. With design nearing completion, it becomes more critical that 
we proceed to demolition and construction. Delaying construction once 
design is complete always increases cost. We are preparing to move U.S. 
Mission staff to temporary leased space during the demolition and 
construction. GSA is currently conducting a solicitation for this 
leased space.

    Question 2.  What are your views regarding S. 1564, the Cochran, 
Federal Courts Budget Protection Act?
    Response. S. 1564 would require the Administrative Office of the 
U.S. Courts to submit the Judiciary's annual budget request directly to 
Congress, bypassing the regular Federal budget review process. The 
Judiciary's submission would include funding requests for new 
construction, site acquisition, and repair and alteration activities 
for courthouses and other space occupied by Judicial branch agencies.
    GSA opposes S. 1564 for the following reasons:
    <bullet> A primary role that GSA serves within the Government is to 
consider the total housing needs of all Federal agencies within a 
community. This bill would allow the Judiciary in isolation, i.e., 
without considering the needs of other agencies, such as the U.S. 
Marshals Service and U.S. Attorneys office, or even non-court-related 
agencies that may have a housing need, to develop courthouse projects. 
When looking at the space requirements of the Federal community, we 
also survey the existing GSA inventory for vacant or underutilized 
space. Under S. 1564, the Judiciary could potentially request 
construction funds for new court space even if we have available space 
in existing Federal facilities. This is clearly not the most 
financially prudent way to obtain maximum value from the Federal real 
estate portfolio.
    <bullet> GSA's benchmarking system allows us to set an appropriate, 
objectively determined budget for each proposed courthouse project. 
This benchmark takes into account the unique needs of the courts and is 
adjusted for the variation in construction costs in different parts of 
the country, Although S. 1564 would have GSA provide estimates to the 
courts, the process contemplated by the bill would compromise the 
independence and credibility of our benchmark estimates.
    <bullet> S. 1564 also complicates funding for courthouse 
construction, site acquisition, and renovation projects. For instance, 
GSA performs many preliminary studies and analyses, such as 
environmental impact studies, prospectus development studies, and site 
acquisition analyses, before requesting funding for capital projects. 
GSA funds these studies from an account within the Federal Buildings 
Fund that is separate from the construction account to which the 
Judiciary's appropriated funds would be deposited. It is unclear in S. 
1564 how such studies would be funded.
    <bullet> GSA would also lose reprogramming flexibility, including 
(1) reprogramming funds among other GSA new construction projects and 
court new construction projects; and (2) reprogramming from other 
budget activities within the Federal Buildings Fund. Our ability to 
shift funds to compensate for up to 10 percent escalations in 
construction costs--funds which have to come out of economies in our 
other projects or programs--is key to the effective and timely 
completion of projects.
    In summary, we believe the current system is one that is highly 
objective and allows for the necessary checks and balances against 
which the courts' assessment of its space needs are evaluated.

    Question 3. Could you please explain the model that OMB used to 
determine courtroom sharing at a ratio of 2 courtrooms for every 3 
judges? Do you agree that in some instances, like in the case of Miami 
and DC, that changes to the design may increase the total cost of 
construction of these projects?
    Response. OMB asked GSA to identify the total number of resident 
district judges, including senior judges, who would sit in each of the 
seven courthouse locations. OMB then calculated two-thirds of that 
number, and rounded up, if necessary, to the next highest whole number 
to determine the number of district courtrooms to be provided. For 
example, if there would be 8 district judges in a location, 6 district 
courtrooms would be constructed: (8 x \2/3\ = 5\1/3\, rounded to 6). 
The number of magistrate courtrooms and bankruptcy courtrooms to be 
constructed in each location was calculated in the same way.
    With regard to Miami and Washington, DC, both projects would 
require redesign to accomplish the necessary reductions in project 
scope. However, the total cost of the projects, including redesign 
costs, will be reduced by eliminating departures from the U.S. Courts 
Design Guide and following the courtroom sharing model. The total 
estimated project cost for Miami will be reduced from $148,068,000 to 
$137,072,000. This reduction is a result of eliminating 4 courtrooms 
that are departures from the U.S. Courts Design Guide and 4 courtrooms 
as a result of the sharing policy. The total estimated project cost for 
Washington, DC will be reduced from $115,201,000 to $109,153,000 due to 
courtroom sharing. We estimate the costs of redesigning to be $1.5 
million in Miami and $1.2 million in Washington. The additional design 
costs for both courthouse projects are included in the above estimated 
project costs.

         Response of Robert Peck to Question from Senator Smith
    Question. I am interested in the development of the Southeast 
Federal Center property next to the Washington Navy Yard. This is 
property owned by GSA, and I would like to know what plans if any, GSA 
is considering for its future use?
    Response. The Southeast Federal Center (SEFC) comprising 55 acres 
on the Anacostia waterfront, is the largest federally owned tract in 
Washington, DC, suitable for development. The site is a historic 
district eligible to be listed on the National Register of Historic 
Places. GSA has included a $5 million request in its fiscal year 2001 
budget to complete construction of the SEFC seawall and to accomplish 
additional environmental assessments. The total remediation cost for 
the SEFC is $35 million.
    GSA has had various plans in the past to develop the property. In 
fiscal year 1991 and fiscal year 1993, Congress appropriated $198 
million to construct new headquarters buildings at the SEFC for GSA and 
for the Army Corps of Engineers. In fiscal year 1994 and fiscal year 
1995, Congress rescinded that appropriation. In fiscal year 1999, GSA 
proposed an appropriation of $14 million for design of a $294 million 
DOT headquarters on the site. In conjunction with the request for 
design funds, a prospectus requesting authorization of the DOT 
headquarters as a new construction project was submitted to the House 
Committee on Transportation and Infrastructure and the Senate Committee 
on Environment and Public Works. The Committees declined to approve the 
prospectus for a construction project, and instead authorized GSA to 
lease space for DOT.
    We are investigating alternatives to develop the SEFC and are 
reviewing authorities proposed in the House legislation regarding the 
site's development. Because of past development funding constraints and 
recent rethinking of planning objectives for the area, and because GSA 
has become more knowledgeable about urban redevelopment strategies that 
have worked around the country, GSA favors mixed-use development (i.e., 
a mix of office, retail, housing and possibly other uses) for the site, 
rather than the exclusive Federal office construction envisioned in 
earlier GSA plans. Moreover, the move of some 6,000 personnel of the 
Naval Sea System Command into the Navy Yard next door, bringing 
employment at the Navy Yard to more than 11,000, increases the 
desirability of the SEFC as a mixed-use location.
    Last fall, GSA retained a real estate consulting firm to evaluate 
mixed-use development opportunities at the SEFC. The consulting firm 
has determined that there are a number of development opportunities, 
which include office space, approximately 500 housing units, a 200-room 
hotel, and limited retail.
    One potential development opportunity for a portion of the SEFC 
remains the headquarters for the Department of Transportation (DOT). 
Currently, GSA is procuring 1.35-million square feet of leased space to 
consolidate DOT in downtown Washington, DC. We are employing a two-step 
procurement to consolidate DOT. As part of the procurement, GSA is 
offering for sale at fair market value an 11.7-acre parcel at the SEFC. 
Two developers who took us up on the offer to use that site to 
construct a DOT headquarters, were invited to participate in phase 2 of 
the procurement; two offerors proposed building onsites elsewhere in 
the city, and one offeror is proposing to retain DOT at its current 
location. GSA plans to make an award for the DOT headquarters project 
in September 2000.
    GSA also believes that the SEFC and the Anacostia waterfront area 
in general would be a likely place for and would benefit from having on 
the site what developers refer to as a ``destination'' use: a cultural 
or entertainment facility that draws large numbers of people, both 
residents of the city and tourists. One such destination use that has 
been suggested might be an expanded Navy Museum, relocated from its 
current building in the Navy Yard, and possibly a separate Navy Museum, 
with display areas and a parade ground, as well. We believe these uses 
would stimulate development of the SEFC and surrounding area, as well 
as fulfilling an important public purpose.

        Response of Robert Peck to Question from Senator Baucus
    Question. The courts and OMB seem to be at opposite ends of the 
spectrum on this issue. What factors should be considered in an 
effective courtroom sharing model?
    Response. Ideally, a courtroom sharing model should analyze the 
local court's current and projected workload and courtroom utilization 
as well as the current and projected numbers of judgeships, including 
senior and visiting judges, for that location. OMB requested this 
information and similar data from the Administrative Office of the U.S. 
Courts as long ago as the fall of 1998, but it was not provided.
        Responses by Robert Peck to Questions from Senator Reid
    I was very disappointed to learn that the Office of Management and 
Budget did not include in the President's budget request funds in the 
amount of $24 million for repairs and alterations to the Foley Federal 
Building and United States Courthouse in Las Vegas, Nevada. I have been 
informed that the General Services Administration did, in fact, request 
OMB to include this funding in the President's budget request, but that 
OMB failed to act upon this request. I was even more disappointed to 
learn that the repairs and alterations request for the Foley Federal 
Building and Courthouse was the only GSA courthouse R&A not included by 
OMB in the President's budget request.
    Question 1. What reason or reasons did OMB provide as to why this 
R&A request in the amount of $24 million was not included in the 
President's budget request?
    Response. OMB's overall framework for developing the fiscal year 
2001 program is that capital projects not scheduled for award until 
late fiscal year 2001 or early fiscal year 2002 are not proposed for 
funding. This project's design is scheduled for a late fiscal year 2001 
design completion and a construction award for December 2001. 
Consequently, this project was not included in our fiscal year 2001 
program.

    Question 2. What reason or reasons did OMB provide as why this was 
the only R&A courthouse request not included in the President's budget 
request?
    Response. OMB did not single out this project. As explained above, 
the proposed renovation has a fare estimated design completion and a 
construction award date of early fiscal year 2002. Given this late 
construction award date, this project was not included in the 
President's budget request.

    Question 3. Why, in the opinion of GSA, was this funding not 
included in the President's budget request?
    Response. As previously explained, OMB's framework for developing 
the capital program is that projects not scheduled for award until late 
in the fiscal year, or early in the following fiscal years are not 
proposed for funding. Because the project is not scheduled for 
construction award until December 2001, this project was not included 
in the President's budget request.

    Question 4. Why, in the opinion of GSA, was this the only R&A 
courthouse request not included in the President' budget request?
    Response. The Foley FB-CT project has a late estimated design 
completion and an estimated construction award that slips into early 
fiscal year 2002. The schedule was the reason this project was not 
included in the President's budget request.

    Question 5. Upon examining the 13 projects, which were included for 
Repairs and Alterations, OMB is requesting funds greater than $24 
million for eight of those projects (an additional request is for $23 
million). Clearly Las Vegas was not excluded because it is the most 
expensive project. Would you please address this discrepancy?
    Response. The schedule, not the cost of this project relative to 
other renovation projects, was the reason this project was not 
included.

    Question 6. I would also like to remind you that the district court 
will be moving into the George (new) Federal Building and Courthouse in 
just a few months. What will happen with the Foley Building if funds 
are not appropriated until Fiscal Year 2002? Will we have an unusable 
building for more than a year? What additional costs would this incur? 
Please address these concerns as well.
    Response. The U.S. Bankruptcy Court, the Small Business 
Administration, and other executive agencies will remain in the 
building. Vacant space in the building will either be altered first or 
used as swing space for building tenants to facilitate the renovation 
of their current space. Vacant space not required by current building 
tenants will be backfilled by executive agencies relocated from leased 
space.
    Since The project is not scheduled to begin until fiscal year 2002, 
delaying the appropriation of construction funds until fiscal year 2002 
will not impact the project costs.
                                 ______
                                 
                [From the Federal Times, March 6, 2000]

             REWARDS FOR EMPLOYEES REAP REWARDS FOR AGENCY
                          (BY RENEE MCELVEEN)

    You will not find the agency's stock listed on the New York Stock 
Exchange.
    But that does not stop managers and employees at the General 
Services Administration's Public Buildings Service from sharing in the 
agency's financial gains.
    Last June, 518 employees of PBS' Northeast/Caribbean region 
received cash awards totaling $538,000 for improving their region's 
performance.
    And in mid-February, 201 employees of the New England region won 
cash awards totaling $322,000.
    PBS executives say a 2-year-old bonus program that rewards high 
performers is paying off. In short, they say, the culture of the Public 
Buildings Service is changing: Employees are thinking more creatively 
about their jobs, trying innovative ideas to better their performance 
at the agency, which is charged with buying, leasing and maintaining 
office space across the country for Federal agencies.
    Satisfaction among PBS customers has risen from 74 percent in 1994 
to 80 percent in 1998. Vacant rental space has decreased from 12.3 
percent in 1998 to 9 percent in 1999. The time it takes to sign a lease 
has been reduced from 250 days in 1996 to 150 days in 1999.
    For PBS Commissioner Robert Peck, the bonus program he helped 
create in 1998 has not only improved performance at his agency but also 
has generated millions of dollars in savings that he has plowed back 
into PBS operations. ``We are rewarding people for the right things,'' 
Peck said.
    And this is reflected in the agency's bottom line.
    In fiscal 1999, PBS generated $5.4 billion in rent revenues and is 
projected to top that with $5.6 billion in 2000. Peck estimates rent 
revenues will reach $5.8 billion in 2001.
    Under the program, called ``Linking Budget to Performance,'' 
employees and regional bureaus are rewarded for exceeding performance 
goals. Peck said employees refer to the program as the ``Big Nine,'' 
after the nine performance areas that employees from GSA's 11 
geographic regions strive to exceed by the end of the year, in 
competition with each other.
    Agency employees can earn performance awards--and regional offices 
can earn bigger shares of the PBS budget--by increasing net income, 
improving customer satisfaction, decreasing administrative costs, 
decreasing the amount of vacant space, reducing the cleaning costs of 
buildings, reducing building maintenance costs, reducing lease costs 
and keeping construction costs within budget and keeping construction 
projects on schedule.
    When Peck joined PBS in 1995 there were 38 performance measures in 
place for the agency's employees.

               Streamlined Performance Goals Get Results

    ``You can't manage to 38 performance measures,'' he said. ``You 
can't even remember 38 performance measures.''
    Jan Ziegler, then-acting assistant commissioner for PBS' Office of 
Business Performance, was charged with building the program. To develop 
a smaller, more effective set of performance measures, Ziegler looked 
to the private-sector real estate industry, studying its best business 
practices in 60 markets across the country.
    One key national goal of the PBS program is achieving an 85 percent 
customer satisfaction rate. To qualify for an award, a region must 
exceed the national goal.
    For fiscal 1995, the Northwest/Arctic Region had scored 83 percent 
on its customer satisfaction survey, conducted by the Gallup 
Organization. The 1998 survey results indicated a score of 87 percent--
two percentage points over the national goal--making it eligible for a 
bonus.
    Another performance measure is financial performance, which is 
measured by such criteria as cleaning costs of buildings per square 
foot.
    In 1998, the Northeast/Caribbean Region achieved building cleaning 
costs averaging $2.01 per square foot, compared with the industry 
average of $2.22. By the end of the performance period, the region had 
reduced cleaning costs to $1.98 per square foot, beating the industry 
average by 24 cents. For 1999, those costs increased six cents in the 
same region, compared with an industry increase of four cents, but the 
region still beat the industry average by 22 cents. On order to be 
effective, a measure has to be something that the people who get 
measured have some influence over,'' Peck said.
    Although the PBS awards program is only 2 years old, top agency 
managers are excited about the results and the changes they see in 
employee performance.
    ``It's really profoundly changed behavior out in the field,'' said 
Paul Lynch, assistant commissioner for the agency's Office of Business 
Performance.
    He said he sees employees working together to meet the performance 
goals. They view the buildings they are responsible for as assets, 
Lynch said.
    Tony Costa, assistant regional administrator for public buildings 
in the National Capital Region, is responsible for 1,700 employees. 
Since the awards program was instituted, he has seen significant 
changes in the way business is conducted on a daily basis.
    He said employees are now focused on how their performance 
contributes to the achievement of regional goals. During his weekly 
business meetings with staff, discussions center on the numbers--why 
performance is improving or declining in a particular area, and how 
they can fix problem areas.
    ``The employees recognize that the things they do every day have an 
impact on the department,'' Costa said.
    In addition to changing employee behavior, the awards program has 
brought out a sense of competition among the Public Buildings Service's 
11 regions, Peck said.
    The region achieving best overall performance in the nine 
categories wins custody of a traveling trophy until the next winner is 
announced.
    The first overall winner in 1998 was the Northeast/Caribbean 
Region. With that honor, the region--which includes New York, New 
Jersey, Puerto Rico and the U.S. Virgin Islands--received a $6.2 
million award. Of that, $5.7 million was available to be reinvested in 
repairs and upgrades to the 560 buildings overseen by the region. The 
remaining $538,000 was distributed as awards to 518 employees.
    On Feb. 14, the New England Region won PBS' best overall 
performance award for 1999. The region, which includes Connecticut, 
Maine, Massachusetts, New Hampshire, Rhode Island and Vermont, was 
awarded $2 million. Of that, $1.68 million can be reinvested in the 388 
buildings the region oversees. The remaining $322,000 was distributed 
among 201 employees as cash awards ranging from $360 to $2,400.
    Peck plans to present the awards later this month.
    ``If you want to change the culture of an organization, you don't 
do it by putting up glitzy posters and conducting teleconferences,'' 
Peck said.
    Instead, he said, motivate employees to think how they will 
accomplish the agency's mission from the moment they leave home in the 
morning. This bonus program has done that, he said.
                               __________

    STATEMENT OF JUDGE JANE R. ROTH, U.S. COURT OF APPEALS FOR THE 
                             THIRD CIRCUIT

    Mr. Chairman and Members of the Subcommittee: My name is Jane Roth. 
I serve as a judge on the Third Circuit Court of Appeals and as 
chairman of the Judicial Conference's Committee on Security and 
Facilities.\1\ I appreciate the opportunity to appear before the 
Subcommittee today to discuss the courthouse projects scheduled for 
fiscal year 2001 under the judiciary's prioritized Five-Year Plan and 
also to summarize the judiciary's continuous efforts to review and 
improve management of the courthouse construction program.
---------------------------------------------------------------------------
    \1\ The Judicial Conference of the United States is the judiciary's 
policymaking body.
---------------------------------------------------------------------------
    For the past several years we have worked closely with the Congress 
and the General Services Administration (GSA) on the courthouse 
construction program. We appreciate the continued willingness of this 
Subcommittee, of the full Committee, and of your staff to work with us 
to make improvements. We look forward to working with you on the 
projects for fiscal year 2001. In particular, we hope that you will 
authorize all projects that can be ready for design, site or 
construction contract award in fiscal year 2001 at the levels 
originally submitted by GSA to the Office of Management and Budget 
(OMB).
    President Clinton's fiscal year 2001 budget request includes $488 
million for seven new courthouse construction projects. This request 
for courthouse projects is the first since fiscal year 1997. The 
judiciary appreciates the fact that the Administration has acknowledged 
the need to provide adequate, secure space for courts. The President's 
request does not, however, include all the projects which GSA proposed 
to OMB. We are concerned by the Administration's failure to include 
funds for all the projects which need site, design or construction 
funding in fiscal year 2001. We are also concerned about actions taken 
by OMB to reduce the size of the projects. We are informed that the 
funding levels for these seven projects are based on an assumption that 
only two courtrooms will be provided for every three active district, 
senior, magistrate, and bankruptcy judges.
    The Judicial Conference, at its March 14, 2000 meeting, considered 
the unilateral efforts of the Office of Management and Budget to impose 
a courtroom sharing policy on the judicial branch, and the Conference 
condemned these efforts as an unwarranted and inappropriate intrusion 
into the constitutionally mandated independence of the judiciary. By 
statute, the judicial councils of the circuits have the authority to 
determine the need for court accommodations. (See 28 USC 462 (b)). Once 
the need for accommodations is approved by the council, the Director of 
the Administrative Office of the United States Courts requests the GSA 
Administrator to provide them. The Administrator is directed by law to 
do so. Any action, taken by the Office of Management and Budget (OMB) 
to reduce the scope and size of the projects, as approved by the 
councils and GSA, would appear to violate the governing statutes. We 
ask that you take action to restore the levels of funding for the 
courthouse program to those proposed by GSA prior to OMB's arbitrary 
action.
    The shortsightedness of OMB's actions is obvious. The courts are 
experiencing an ever-increasing workload. To delete courtrooms from 
buildings that should last for decades will only cause the judiciary to 
come back to this Subcommittee shortly after a building is occupied in 
order to seek funding for expansion or major alterations to a brand-new 
facility. I will further address the actions taken by OMB and the 
concept of ``courtroom sharing'' later in my testimony.

                     CURRENT STATUS OF THE PROGRAM

    The Administration chose not to request funding for courthouse 
construction in the budget for the previous 3 years. Congress was able 
to appropriate funds for courthouses in only one of those years. This 
lack of funding has created a backlog of projects and has placed GSA 
woefully behind schedule in delivering needed space for the courts. The 
courts, therefore, must continue to operate in facilities that are 
unsafe, overcrowded, and substandard. The Judicial Conference's fiscal 
year 2001 request includes 19 projects which are ready to go. Eighteen 
of the projects require authorization by this Subcommittee. The 
Environment and Public Works Committee previously authorized 
construction of the Savannah project. The total cost of these projects 
requiring authorization is about $750 million, based on GSA's September 
1999 estimates. Seventeen of these projects were included in GSA's 
original request to OMB. In addition, based on current information, one 
more project (in Fresno, California) should be ready for construction 
contract award in fiscal year 2001. All of these projects are needed 
and will only fall further behind schedule if not funded. A listing of 
these projects in priority order is attached to this statement.
    Our prioritized list of courthouse projects was established with 
the goal of requesting approximately $500 million for site, design and 
construction in each fiscal year. The judiciary would have kept to such 
a schedule if our construction budget requests had been recognized by 
the Administration in the fiscal years in which they were presented. In 
fact, if our projects had received funding in this manner, the cost of 
the fiscal year 2001 projects would have been closer to $500 million 
than the $800 million that we are asking for.
    In addition to creating backlogs, delayed funding of scheduled 
courthouse projects can result in significant cost increases. Although 
at one point GSA estimated that construction costs were increasing an 
average of 3-4 percent for each year of delay, there have been several 
situations where the escalation factors have been significantly higher. 
For example, in Seattle it appears that costs increased in 1 year by 
about 8 percent due to the rising construction market costs--not 
because of any change in the project.
    The workload of the Federal courts has grown tremendously over the 
past 10 to 15 years, largely as a result of legislative efforts to wage 
a Federal war on crime and the illegal drug trade. The courthouse 
projects on the list for funding in fiscal year 2001 are in areas of 
the country where there is dynamic population growth, combined with an 
increase in law enforcement activities. Moreover, as the criminal 
caseload has grown in number and complexity, the civil jurisdiction of 
the Federal courts has also broadened and the number of bankruptcy 
filings has risen substantially. Finally, we have seen major growth in 
probation and pretrial services, with a staff of over 7,000 supervising 
about 30,000 pretrial defendants and 100,000 released offenders a 
number roughly equal to the inmate population of the Federal prison 
system.
    Court facilities must keep pace with the need for additional judges 
and court employees to handle these increased workloads. The same 
Administration that proposes shrinking courthouses is also asking for 
increased funding this year for additional border patrol agents and 
U.S. Attorneys and for the construction of Federal prisons. Such law 
enforcement activities inevitably result in an increase in the judicial 
actions that must be handled in the Federal courts.
    Many of the existing court facilities were built over 50 years ago 
and have not been or cannot be altered to meet the needs of a modern 
day justice system. Generally, older courthouse structures cannot 
accommodate the technological advances necessary for a modern court. 
Security for jurors, witnesses, court employees, judges, and the public 
is compromised as they use the same hallways and elevators through 
which the Marshals bring individuals who have been charged with or 
convicted of serious crimes. In addition, problems with deteriorating 
heating and cooling systems as well as other building infrastructure 
problems will persist unless action is taken to fund the projects. 
Without the necessary funding, the Federal judiciary will continue to 
face serious space and security concerns. We have provided subcommittee 
staff with a fact sheet on each courthouse project that describes the 
current housing situation and the need for a project at that location.
    As I noted earlier, this is the first time in the past 4 years that 
funding has been included in the President's budget request for 
courthouse projects. The fact that a request was submitted to the 
Congress this year is a result of efforts made by this Committee, other 
Members of Congress and the judiciary to impress the importance of a 
courthouse construction program upon key White House decisionmakers. 
The Committee's letter last year to the President was undoubtedly very 
helpful. We also met with the White House Chief of Staff during the 
fall of 1999, and he assured us that consideration would be given to a 
program in fiscal year 2001. As I noted earlier, however, the Office of 
Management and Budget unfortunately chose to reduce the number of 
courtrooms in each of the projects. OMB in fact developed its own 
courtroom sharing policy which is contrary to the policy approved by 
the Judicial Conference in 1997. This was done without any study, 
analysis, or understanding of the judicial system.

      THE JUDICIARY'S EFFORTS TO STRENGTHEN THE COURTHOUSE PROGRAM

Independent Review of the Judiciary's Space and Facilities Program
    In recent years the judiciary has continually reviewed and 
significantly improved the operation of the courthouse construction 
program. Workforce growth and 
changing security and operational requirements pose significant 
challenges for this important program. It has been nearly 12 years 
since the judiciary last conducted an independent management review of 
its facilities program. As part of our on-going commitment to cost 
containment and program assessment and evaluation, we contracted with 
the consulting firm of Ernst and Young to review our entire space and 
facilities program. The study, which is close to completion, will 
address courtroom sharing and ``utilization,'' our long-range planning 
process, courthouse design assumptions, internal space management 
policies, business practices, funding mechanisms, and resource 
allocation strategies. A critical dimension of the study involves 
having Ernst and Young solicit the views of interested parties such as 
the relevant congressional committees and others in the Congress, GSA, 
OMB, the General Accounting Office, judges, attorneys, the United 
States Marshals Service, and other court users. Ernst and Young is 
using teams of experts in architecture, construction, economics, and 
other areas to explore the issues raised and to develop 
recommendations.
    We expect a final report at the end of April for review by the 
Conference's Committee on Security and Facilities. After our Committee 
considers the consultant's recommendations, we will have to seek 
approval of any policy changes from the Judicial Conference. In the 
meantime, however, it is critical that the courthouse construction 
program continue to move forward. It makes no sense to delay action on 
the courthouse program because of an ongoing study--such a policy would 
hamper innovation throughout the government. Moreover, Ernst and Young 
has reported to the judiciary that the court projects requested by GSA 
in the fiscal year 2001 budget are the result of methodical planning 
and review processes put in place by the judiciary and GSA.

Courtroom Sharing
    For the past few years, the topic of courtroom sharing has been in 
the forefront of Congressional and executive branch inquiry and media 
speculation. It has been suggested that because most courtrooms are not 
in use 100 percent of the time, Federal judges should be able to share 
courtrooms in order to save the cost of constructing courtrooms. 
Recognizing these concerns, in 1997 the Judicial Conference thoroughly 
reviewed the matter and adopted a policy on courtroom sharing. This 
policy balances the essential need for judges to have an available 
courtroom to fulfill their responsibilities with the economic reality 
of limited resources. It provides one courtroom for each active 
district judge and for each senior judge who maintains a substantial 
caseload. For senior judges, who do not carry a caseload requiring 
substantial use of a courtroom, and for visiting judges, the policy 
sets forth a non-exclusive list of factors for circuit councils to 
consider when determining the number of courtrooms needed at a 
facility. Each of the projects on the attached list incorporates this 
policy.
    Notwithstanding the Conference's policy, I would like to emphasize 
that there is no research which supports courtroom sharing. In 
addition, the doctrine of separation of powers creates serious 
constitutional concerns if the executive branch should attempt to 
establish courtroom usage policy. Finally, it should be noted that none 
of the 50 state-court systems has ever adopted a policy of sharing 
courtrooms.
    Simplistic approaches to the assessment of courtroom needs, such as 
the use of queuing theory, might suggest that one can simply add up the 
average number of hours that judges spend in courtrooms and then 
calculate the number of courtrooms that would be needed if all of those 
courtroom hours were perfectly distributed. There are many fundamental 
flaws with this notion, the foremost of which is the assumption that a 
court is akin to a post office or bank, where litigants, witnesses, 
jurors, probation officers, interpreters, court reporters, prisoners, 
and others are lined up and waiting outside the courthouse door for the 
next available courtroom. Under these conditions, due process, public 
openness, security, and notification requirements would be essentially 
abandoned.
    Additional costs and delays for litigants, including the largest 
litigant in the Federal courts--the Federal Government itself, would 
also be significant. Delays in criminal proceedings will cause 
potential problems with the Speedy Trial Act and increase expenses for 
the Department of Justice's U.S. Attorneys and U.S. Marshals and for 
Federal public defenders. The last-minute cancellation of even one 
civil jury trial due to the lack of a courtroom can result in many 
thousands of dollars in legal fees and expert witness costs for the 
litigants.
    The actual cost of a courtroom is an extremely small portion of the 
construction budget for a courthouse. The courtroom, however, is the 
essential tool used by the judge to accomplish his or her work, which 
is the timely disposition of cases pending before the court. Certainly, 
the minimal savings that might be realized from deleting one courtroom 
from a courthouse is not worth the resulting loss of efficiency in the 
judicial process. Moreover, when compared over its lifetime to the 
overall cost of the courthouse, the courtroom cost is insignificant. 
The General Services Administration has estimated that it costs about 
$1.5 million to construct a courtroom and its associated spaces 
(including jury rooms, attorney conference rooms, public waiting areas, 
and prisoner holding cells). With use of these facilities expected for 
at least 30 years, this equates to a construction cost for the 
courtroom of $50,000 per year.
    In Federal courts where courtroom sharing among active judges has 
occurred out of necessity, judges have reported serious difficulties. 
For example, the 3 to 2 ratio of judges to courtrooms suggested by OMB 
is currently in effect in the Federal district courthouse in Brooklyn, 
New York, while a new facility is under construction. The judges, 
staff, and others affected have struggled to make it through the 
temporary situation. Last minute changes, events that go over schedule, 
and other difficulties have resulted in wasted time for judges and 
other participants. Recently, a magistrate judge canceled a civil jury 
trial the week before its scheduled start because the court could not 
guarantee an available courtroom and the attorneys did not want to 
incur the potentially exorbitant expert witnesses' fees. The earliest 
date for rescheduling the trial was 2 months later. In another 
situation, a defendant seeking a hearing to determine whether he should 
remain in custody spent longer in detention than necessary because a 
courtroom was not available for his hearing. One judge, frustrated by 
his inability to obtain a courtroom, held a proceeding in a public park 
outside the courthouse. These actual experiences demonstrate the 
problems associated with courtroom sharing.
    According to Ernst and Young, the judges in Brooklyn are uniform in 
concluding that courtroom sharing has strained the operational 
effectiveness of the court and that courtroom sharing as a permanent 
policy would be counterproductive. A 3-to 2 ratio causes chaos in a 
system that requires orderly process in order to be fair and just.

Prioritizing Courthouse Projects
    The judiciary continues to review and update its prioritization of 
projects using a weighted scoring methodology. By continuously 
reviewing our priorities, we are able to ensure that changing 
circumstances at a particular location are taken into account so that 
necessary adjustments can be made. I am pleased to report that the 
process we established in response to Congress's suggestion that all 
projects be ranked in order of priority has worked quite well. I am 
very concerned, however, that continued delays in funding courthouses 
or reductions in the sizes of the buildings could result in a breakdown 
of this prioritization process with individual districts attempting to 
fulfill their needs without regard to the established process.
    A courthouse project is not proposed for consideration unless the 
district's long-range facility plan indicates that there is no more 
room for district judges in the existing facility. In virtually every 
proposed project, this determination is made after all executive branch 
agencies and court-related units (probation, pretrial services, the 
bankruptcy court) have been moved from the existing building. In this 
sense, the expansion capacity of the building is the primary 
consideration in determining the need to take some action.
    The lack of sufficient space can cause great waste and inefficiency 
in court operations. In worst case scenarios, trial courts are split 
into separate facilities causing the dual management of records, 
prisoners, and duplicate security screening. In addition, security 
risks are a grave concern in all public buildings, including Federal 
courthouses. Tragic events in Oklahoma City, Oklahoma, shootings in 
courthouses in Topeka, Kansas, and Chicago, Illinois, and serious 
threats on the lives of judges who are trying international terrorists 
underscore the need for proper security arrangements.

                                SUMMARY

    A number of new courthouses have been occupied over the past few 
years. Public reaction has been very favorable. The courthouses being 
delivered by GSA today are high quality, operationally efficient 
buildings that should last well into this century.
    Many lessons have been learned as the Congress, GSA and the 
judiciary have worked together over the past several years on the 
courthouse program. We have incorporated many of the recommendations 
made by this Committee into our planning process and design standards 
in order to improve management of the program. We will be studying 
whether there are additional ways to control costs and make the program 
even more effective in the months ahead. Security considerations 
continue to be a major concern. The judiciary hopes the Committee will 
recognize the actions taken by the Judicial Conference as evidence of 
the judiciary's commitment to a productive and cooperative working 
relationship. It is imperative that the integrity of the judiciary's 
rightful role in determining courtroom usage remains intact; the 
constitutional rights to trial and due process are too important to be 
risked on whim. Nor should the guarantees of these constitutional 
rights, which rest upon the presumption of adequate, dedicated 
courtroom space, be held hostage to such uncertain, untested, and 
untried cost-saving schemes. We ask that you take action to authorize 
the new courthouse projects on the attached list in fiscal year 2001 at 
the levels originally calculated by GSA in September 1999. We are also 
committed to working with you on adopting appropriate recommendations 
from Ernst and Young's final report.
    Thank you for the opportunity to testify before the Subcommittee. I 
would be pleased to answer any questions you might have at this time.

  FY 2001 Courthouse Construction Projects--Judiciary Prioritized Plan
                        [In Millions of Dollars]
------------------------------------------------------------------------
                                                          President's
                                       GSA Estimate      Budget Request
------------------------------------------------------------------------
1. Los Angeles, CA--S&D...........            $36.203            $31.523
2. Seattle, WA--C.................            179.365             177.93
3. Richmond, VA--S&D..............             19.581             19.476
4. Gulfport, MS--C................             42.715             42.715
5. Washington, DC--C..............            109.498            104.050
6. Buffalo, NY--S&D...............             $3.599
7. Springfield, MA--C.............             41.378
8. Miami, FL--C...................            121.946           $110.950
9. El Paso, TX--S&D...............              7.208
10. Mobile, AL--S&D...............              8.123
11. Fresno, CA--C.................            111.783
12. Norfolk, VA--S&D..............              9.593
13. Las Cruces, NM--D.............              1.900
14. Little Rock, AR--D (addtl.                  5.428               1.82
 design funds)....................
15. Rockford, IL--S&D.............              2.837
16. Cedar Rapids--S&D.............             13.606
17. Nashville, TN--S&D............             13.784
18. Erie, PA--C...................             27.013
19. Savannah, GA--C...............             46.462
                                   -------------------------------------
  Total...........................           $801.239           $488.464
------------------------------------------------------------------------

                                 ______
                                 
 Responses of Judge Roth to Additional Questions from Senator Voinovich
    Question. The courts and OMB seem to be at opposite ends of the 
spectrum on this issue. What factors should be considered in an 
effective courtroom sharing model?
    Response. The judiciary has taken definitive steps to respond to 
the issues raised by the Congress about the number of courtrooms needed 
in new facilities. At its March 1997 session, the Judicial Conference 
adopted a policy on courtroom sharing that balances the essential need 
for judges to have an available courtroom to fulfill their 
responsibilities with the economic reality of limited resources. The 
policy is based on a judge's need for a courtroom rather than the 
particular status of the judge. It continues the standard of providing 
one courtroom for each active district court judge. In addition, with 
regard to senior judges who do not carry a caseload requiring 
substantial use of a courtroom and visiting judges, the policy sets 
forth a non-exclusive list of factors for circuit councils to consider 
when determining the number of courtrooms needed at a facility. Such 
factors include an assessment of workload anticipated to be carried by 
a senior judge and the number of years a senior judge is likely to 
carry such a caseload, as well as evaluation of the complement of 
courtrooms throughout the entire district. Courts are encouraged to 
provide for flexible and varied use of courtrooms.
    Moreover, the Conference asked the judicial councils, which have 
the statutory authority to determine the need for court accommodations 
(28 U.S.C. sec. 462(b)), to develop a policy on sharing courtrooms by 
senior judges when a senior judge does not draw a caseload requiring 
substantial use of a courtroom, and for visiting judges. These circuit-
wide policies assist the judiciary with containing the costs of court 
facilities, while assuring the appropriate number of courtrooms 
necessary to fulfill its constitutional mission.
    The judiciary's policy of providing a courtroom for every active 
judge is well supported by scholars and others in the legal community. 
A 1996 study by an expert consultant, entitled Courtroom Sharing 
Practices Among State and Local Trial Courts, found that it was the 
policy in all 50 states to provide one trial courtroom for each judge. 
Studies, reports and standards produced by the Rand Institute for Civil 
Justice, the Brookings Institution, the National Center for State 
Courts, and the American Bar Association support the idea that reducing 
the number of courtrooms would result in trial delays and increased 
costs.
    Any short-term savings to be achieved by building too few 
courtrooms will not be worth it in the long run. In addition to the 
grave risks to our system of justice, when all of the attendant costs 
are considered, it is doubtful that building fewer courtrooms will 
bring a long-term economic benefit to the government and the public. 
Given the expected continued growth of Federal cases in most districts, 
it will shorten the useful life of a courthouse and simply escalate 
future costs for needed expansion of courthouses that would be under-
built for today's needs, much less the needs of the future.
    Determining the number of courtrooms needed in a facility or 
whether a facility is needed at all are complex issues which defy 
simplistic answers. Courtroom time measurement studies do not provide 
the complete picture of courtroom utilization. Courtroom usage cannot 
be adequately addressed by simply counting the hours that the lights 
are ``on'' or ``off'' in the courtroom. Cases are assigned to judges, 
not courtrooms. Having an available courtroom is necessary to assure 
firm trial dates and a coherent approach to scheduling. This approach 
to courtroom usage appropriately takes into account the scheduled use 
of the courtroom or the ``latent'' use \1\ of the courtroom. Firm trial 
dates promote settlement in civil cases and pleas in criminal cases, 
thereby avoiding the need for and cost of trials. An available 
courtroom also permits timely handling of unanticipated emergency 
matters, such as requests for injunctions, grand jury problems, 
contempt hearings, and detention and bail appeals. Moreover, providing 
each active district judge a courtroom accommodates unscheduled 
opportunities to settle large multi-party cases, opportunities that may 
be lost without the immediate access to a courtroom. This practice also 
ensures that cases that go to trial are handled expeditiously, as 
encouraged by the Speedy Trial Act of 1974 and the Civil Justice Reform 
Act of 1990.
---------------------------------------------------------------------------
    \1\ The fact that a courtroom is readily available facilitates 
settlement because parties then seriously consider the risks and 
benefits of going to trial. This is known as ``latent'' use of a 
courtroom.
---------------------------------------------------------------------------
    Courtrooms are scheduled for trial long before the actual trial 
date. If a case settles on the eve of trial, that courtroom is suddenly 
empty and cannot be rescheduled immediately due to basic due process 
noticing requirements. The empty courtroom is a sign that the judiciary 
is working (not that the courtroom is unnecessary), that trial has been 
avoided, and moneys have been saved by the courts, the litigants, and 
the public.
    Courtroom scheduling is a dynamic part of a judge's case management 
activities to control hundreds of cases. In our judicial system, 
individual judges are accountable for the management of cases assigned 
to them and for the movement of their dockets. Research and practice 
have demonstrated the importance of setting a certain trial date to the 
expeditious disposition of cases. Many courtroom events are scheduled 
months in advance, and it is common to schedule more than one event to 
occur at the same time because of the uncertainties of the adversarial 
process. Taking the risk of conflicting dates is a close matter, even 
for a judge with an assigned courtroom, because cases and related 
events do not always play out as envisioned. With no guarantee of a 
courtroom, the risk is considerably higher.
    Simply stated, courtroom-sharing is too important to be implemented 
based on a whim or speculation. In Federal courts where courtroom 
sharing among active judges has occurred out of necessity, the judges 
have reported serious difficulties. For example, the 3/2 ratio of 
courtrooms to judges suggested by OMB is currently in effect in the 
Federal district courthouse in Brooklyn, NY, while a new facility is 
under construction. The judges, staff, and others affected have 
struggled to make it through the temporary situation. Last minute 
changes, events that go over schedule and other difficulties have 
resulted in wasted time for judges and other participants. Recently, a 
magistrate judge canceled a civil jury trial the week before its 
scheduled date because the court could not guarantee an available 
courtroom and the attorneys did not want to incur the potentially 
exorbitant expert witnesses' fees. The earliest date for rescheduling 
the trial was 2 months later. In another situation, a defendant seeking 
a hearing to determine whether he should remain in custody spent longer 
in detention than necessary because a courtroom was not available. One 
judge held a proceeding in a public park outside the courthouse. These 
actual experiences demonstrate the practical effects of courtroom 
sharing. According to notes from Ernst & Young, the Brooklyn judges are 
uniform in concluding that courtroom sharing has placed a constraint on 
the operational effectiveness of the court and that courtroom sharing 
as a permanent policy would be counterproductive.
    The judiciary strongly objects to OMB's recent action of applying 
its courtroom sharing policy. At its March session, the Judicial 
Conference took a position strongly condemning the unilateral efforts 
of the Of flee of Management and Budget to impose a courtroom sharing 
policy on the judicial branch, as an unwarranted and inappropriate 
intrusion into the constitutionally mandated independence of the 
judiciary. The judiciary was neither consulted nor informed by the 
President's budget of lice of its actions which impinge on the 
independence of the judiciary and raise serious questions of both the 
constitutional separation of powers and statutory law.
                               __________

 STATEMENT OF HARRY T. EDWARDS, CHIEF JUDGE, U.S. COURT OF APPEALS FOR 
                            THE D.C. CIRCUIT

    For the past 7 years, the courts of the District of Columbia 
Circuit have worked diligently with the General Services Administration 
to develop plans for annex construction and renovation of the E. 
Barrett Prettyman U.S. Courthouse. Michael Graves/SHG, Inc. will 
complete the architectural drawings on May 15, 2000. As of that date, 
the project will be ready for the construction bid process. Several 
independent studies have verified that the annex project is the most 
efficient and cost-effective way to solve the serious safety, security, 
and space problems endemic to the existing courthouse.
    In short, there is no dispute over the justifications supporting 
the annex project. The United States Judicial Conference, the Office of 
Management and Budget, the General Services Administration, the 
Administrative Office of the U.S. Courts, and the courts of the D.C. 
Circuit all agree that an annex should be constructed and the 
courthouse renovated. The only question is whether the annex project 
should be funded as presently designed or whether funding should be cut 
pursuant to an astonishingly misguided budget submission from OMB.

I. OMB'S PROPOSAL WOULD ACTUALLY INCREASE THE COST OF THE ANNEX PROJECT 
      WHILE DECREASING THE SIZE AND FUNCTIONALITY OF THE BUILDING

    The courts of the D.C. Circuit, with endorsements from the Judicial 
Conference of the United States, and the Administrative Office of the 
U.S. Courts, are seeking $109,498,000 to complete the annex 
construction project. OMB, on the other hand, has submitted a budget 
proposal to Congress seeking only $104,050,000 for the annex project. 
OMB's budget figure is premised on the assumption that $5.4 million 
would be saved by the application of a new ``courtroom sharing'' policy 
that would eliminate four courtrooms from the project design. OMB is 
wrong. In fact, if the courts were required to redesign the annex 
project to satisfy OMB's specious courtroom sharing policy, the 
construction project would end up costing $4.3 million more than the 
current design.
    In other words, OMB's proposal would result in the government 
paying substantially more for a smaller, less functional building. 
Paying more for less normally defies good business judgment and common 
sense; and it is completely inexcusable when, as with OMB's proposal, 
it will result in a waste of taxpayer dollars.

A. OMB's Proposal Would Add $3 Million, Not $940 Thousand, to Design 
        Costs
    As currently designed, $109,498,000 is needed to construct the 
annex and renovate the courthouse. OMB, however, has requested only 
$104,050,000 for the annex project, on the erroneous assumption that 
the elimination of four courtrooms would save $5.4 million. OMB has 
estimated that $924,000 would cover the total amount required for the 
redesign effort. This figure reflects an unfathomable miscalculation. 
Indeed, according to GSA officials at the regional office responsible 
for managing the annex project, architectural redesign costs, alone, 
will exceed $3,000,000 if OMB's design is adopted. OMB officials 
obviously do not understand what is at stake with the annex project.
    The $109 million annex project for which construction funding is 
being sought is the product of 7 years of exhaustive effort by 
countless people in numerous institutions. It is preposterous for OMB 
to suggest that the courts of the D.C. Circuit abandon the architect's 
work at this late date, especially when the construction of a 
redesigned (and less functional) building will cost more than the 
current design. The simple truth that escapes OMB is that a redesign 
effort would be a massive and costly undertaking, and to no good end.
    First, the redesign effort would affect virtually every aspect of 
the completed Graves/SHG architectural design. This is so because the 
number and location of the courtrooms dictate the building massing and 
the exterior design. Furthermore, chambers, office, support, and 
mechanical space are inextricably linked to the location and placement 
of the courtrooms. There is simply no easy way to extricate four 
courtrooms from the project. OMB's proposal would necessitate a costly 
reconsideration and redesign of almost all annex floor plates, as well 
as the basic organization of the building.
    Second, because the courthouse is situated on the Pennsylvania 
Avenue corridor in Washington, D.C., the exterior design and massing 
are subject to review and approval by the Commission on Fine Arts and 
the National Capital Planning Commission. These review processes are 
lengthy. Preliminary approval of the current design took more than a 
year to secure. If the exterior is reduced or reconfigured, as it 
necessarily must be under the OMB proposal, the approval processes must 
start anew. This adds additional time and cost to the redesign effort.

B. OMB's Proposal Would Produce $7 Million in Escalated Costs
    OMB's proposal, if implemented, would result in an extremely costly 
two and a half year delay. Currently, construction costs are estimated 
to escalate by 3 percent per year. For a project this size, the 
escalation costs alone are estimated to be $7,000,000.
    The Graves/SHG design was completed months ago and, under the 
current schedule, the construction documents will be finalized in May. 
If construction funds are approved by October 2000, a construction 
contract will be awarded shortly thereafter and groundbreaking will 
take place in January 2001. On this timetable, the annex will be 
completed in June 2003, and the renovations to the existing building 
will be completed by July 2004.
    If the proposed OMB redesign is mandated, the entire schedule would 
be pushed back by more than two and a half years. The redesign effort 
could not start until January 2001, when redesign funds would become 
available. It would then take a minimum of 2 years to complete the 
revised design; thereafter, it would take at least four to 5 months to 
procure a construction contract. At best, construction would begin in 
June 2003 and would be concluded in December 2006.

C. OMB's Proposal Involves Hidden Expenses of More Than $681,000
    In addition to the redesign and escalation costs, there are hidden 
expenses not reflected in the OMB calculations. There would be 
additional personnel costs associated with the government's management 
of the project during the two and a half year delay. The GSA regional 
office estimates that its share of the personnel costs would be at 
least $390,000. And, this does not account for the time that would be 
contributed by judges and court staff members. For more than 2 years, 
the courts have spent thousands of hours working with the architects to 
ensure that the current design met the Circuit's operational 
requirements and complied with every national standard applicable to 
courthouse construction projects. This time and cost factor would be 
doubled if a redesign is required.
    Finally, there would be increased costs for management and 
inspection services performed by consultants. These costs are estimated 
by the GSA regional office to be $291,500.
    Overall, implementation of the OMB proposal would cost the 
government and the taxpayers $9,757,500 more than the $104,050,000 OMB 
has estimated would be needed to construct the annex with four fewer 
courtrooms. In return, the taxpayers and the government would receive a 
smaller and less functional building that would not adequately address 
the Circuit's future space needs.

    II. OMB'S PROPOSAL FAILS TO ADDRESS LONG-TERM PLANNING CONCERNS

A. The OMB Proposal Would Eventually Necessitate a Costly and 
        Inefficient Dispersal of Circuit Operations
    Quite apart from its faulty financial assumptions, OMB's proposal 
ignores the unique composition of the D.C. Circuit that, of necessity, 
must drive any responsible long-term building plan. In contrast to 
other Federal circuits, all courts of the D.C. Circuit--including the 
Court of Appeals, the District Court, the Bankruptcy Court, and the 
Magistrate Judges--together with their associated support units--the 
Circuit Executive's Office, Circuit Library, Clerks' Offices, Probation 
Office, Court Reporters' Office, as well as the U.S. Marshals Service 
and the Court Security Officers--are all housed in a single courthouse. 
This facilitates efficient court operations and convenient access for 
the bar and public.
    The annex project, as currently designed, is the only viable means 
of maintaining all of these entities in one facility; it is also the 
only fiscally responsible option for accommodating the Circuit's future 
growth. The Circuit's growth projections are very conservative and they 
have been studied continuously throughout the life of the annex 
project. The project has been carefully designed to meet these needs. 
If the size of the annex is reduced pursuant to the OMB proposal, 
future growth cannot be accommodated on the current site. And court 
entities eventually would have to move from the existing courthouse 
site.
    As demonstrated by the Feasibility and Prospectus Development 
Studies for the project, alternative housing options, including moving 
the various units to leased space and/or the construction of a new 
building on a separate site, are far too costly to be seriously 
considered. The studies found that by renovating and expanding the 
existing courthouse, the annex project provided the most cost-effective 
solution and the only one that would allow all Circuit operations to 
remain together for the long term.

B. The OMB Proposal Invites a Fiscally Unsound Use of the Limited Space 
        Available for Long-Term Development
    The Graves/SHG design makes maximum use of a very small but 
extremely valuable site. Given the physical limitations of the property 
and the height restrictions imposed on all Washington buildings, it is 
critical that the size of the annex shell, as originally authorized by 
Congress, remain unchanged. As currently designed, the project utilizes 
all of the remaining space on the site of the current courthouse. The 
intention is to build once and only once to meet all of the Circuit's 
needs well into the future. To do otherwise, as OMB proposes, would be 
fiscally irresponsible. Once construction is completed on the annex 
site, it would be virtually impossible to add to the site. And even if 
some design could be conceived to build out the annex, the redundant 
costs would be extraordinary. Thus, even if the redesign resulted in 
short-term savings, which it does not, it would make no fiscal sense in 
the long term. The annex project, as currently designed, is the 
Circuit's single best opportunity to address its current and future 
needs on the site of the E. Barrett Prettyman U.S. Courthouse.
    Furthermore, maximizing use of this particular property, which is 
the last buildable site available on the Pennsylvania Avenue corridor, 
is consistent with good real estate management practices. As the land 
owner, the government is responsible for developing the property to its 
``highest and best use.'' The annex project, if executed as currently 
planned, will result in the best use of this unique site and will 
provide the highest return on the investment.

C. OMB's Proposal Will Delay the Remedy of Existing Security and Safety 
        Problems
    If the OMB proposal is implemented, the security and safety 
problems that the annex project is designed to remedy will go 
unanswered for 6 years due to the extended timetable. These problems 
have grown worse in the time that has elapsed since the planning and 
design process began and will only be exacerbated by continuing delays. 
These serious deficiencies demand immediate action. Failure to act in a 
timely fashion on this particular project could prove dangerous for 
those who must occupy and visit the building.

                            III. CONCLUSION

    We strongly urge Congress to approve the $109 million that the 
courts of the D.C. Circuit are seeking to construct a new annex and 
renovate the existing courthouse. OMB's proposal to redesign the annex 
project should be rejected. As already shown, the application of OMB's 
courtroom sharing policy to the annex project would produce absurd 
results, requiring taxpayers to pay more for a smaller, less functional 
building. The annex project is well beyond the point at which 
significant changes to the core design can be justified.
    Throughout all phases of the annex project, the judges of the D.C. 
Circuit have made a concerted effort to ensure that the project yields 
a functional, cost-effective facility appropriate for modern court 
operations for many years to come. We have been purposely modest in our 
expectations and have required that the architects create a no-frills 
design which adheres strictly to every national standard, requirement, 
and policy adopted by the U.S. Judicial Conference.
    The only responsible way to conclude the annex project is to 
proceed with the construction as currently planned. To do otherwise 
would result in a terrible misuse of government funds. We therefore 
look for the annex project to continue as originally authorized by 
Congress; and, to this end, we respectfully request that the full 
amount of funding needed to complete the construction--$109,489,000--be 
provided.
                               __________

   STATEMENT OF EDWARD B. DAVIS, CHIEF U.S. DISTRICT JUDGE, SOUTHERN 
                          DISTRICT OF FLORIDA

    I appreciate the opportunity to submit to the Subcommittee this 
statement relative to the construction of a new Federal courthouse for 
the Southern District of Florida in Miami.
    The Miami courthouse was one of the seven courthouse projects 
included in the President's budget submittal for fiscal year 2001. GSA 
estimated the cost to complete the Miami project would be approximately 
$122 million. However, OMB reduced the funding estimates requested by 
GSA to approximately $111 million. According to the notes in the budget 
documents, these reductions assume courtroom sharing by all judges. As 
far as we are aware, no one in the Judiciary has ever discussed, much 
less consented to, the development of such a policy for this project, 
and its inclusion in the budget comes as a complete surprise. It is 
contrary to the Judiciary's current policy for courtroom sharing 
involving active and senior district judges. The effect of this sharing 
on the Miami courthouse will reduce the number of courtrooms planned by 
half, from 16 to 8.
    Our Court urges the Subcommittee to overturn OMB'S decision for the 
following reasons:
    1. Our needs for courtrooms and chambers have been consistently 
underestimated.--We have been the country's leader in trying criminal 
cases involving drugs since the mid-1970's. Our ability to dispose of 
drug cases, while maintaining a reasonably current calendar with civil 
cases, has been hindered by a lack of proper facilities.
    As an example of this shortsightedness, when an Annex to our 
original Courthouse (the Tower annex) was finally erected in 1983 with 
9 courtrooms and chambers, we had 10 United States District Judges 
residing in Miami. The chief judge volunteered to stay in the old Post 
Office facilities while the rest of us moved into the Tower Building. 
This courthouse was inadequate to serve our then current needs, much 
less the 30-year requirements projected by GSA at that time.
    We realized that additional space would be needed as projected by 
extremely high population growth, no letdown in the drug trade coming 
through South Florida, and an ever-increasing civil caseload. 
Ultimately, GSA suggested that two new 11-story buildings be erected on 
the block north of the current courthouses: one for the District Court 
containing 16 chambers and courtrooms, an Eleventh Circuit courtroom, 
and chambers for 5 United States Court of Appeals Judges; and another 
11-story building to house the U.S. Attorney and his staff. The Bureau 
of Prisons, however, purchased one-half of the full city block, which 
the Courts had intended to use, for a much needed metropolitan 
correctional center. That facility is the largest in the United States.
    Since both buildings could not be constructed side by side as 
originally planned, and as a stopgap measure, we agreed with GSA in 
1993 to use the top four floors of the first building then under 
construction, the Federal Justice Building (subsequently renamed the 
James Lawrence King Federal Justice Building). It was originally 
intended to be an office building housing the U.S. Attorney and his 
staff. This allowed the 12th floor for the Eleventh Circuit Court of 
Appeals, the 10th and 11th floors for our United States District 
Court's courtroom functions, and a jury assembly room and Grand Jury 
facilities on the 9th floor of the building. The balance of the 
building (8 floors reduced from the 11 floors needed by the U.S. 
Attorney) was assigned to the Department of Justice for U.S. Attorney 
use. Although this has been an extremely helpful interim measure, since 
we had six new District courtrooms filled with judges taking full 
caseloads, we have already been requested to release space as soon as 
possible to the U.S. Attorney who has an overcrowding problem, and to 
consider giving certain space to the Eleventh Circuit Court of Appeals 
which is outgrowing its own space.
    2. The Southern District of Florida is the busiest trial court in 
the Federal System [continuing]. The effort to reduce courtrooms 
obviously has a greater impact on a trial court burdened with extremely 
heavy trial schedules compared to courts that are not located in this 
sensitive part of the country where the drug trade imports so much of 
its illegal substances for further distribution. For example, this 
Court has tried more criminal jury trials than any court in the 
country, regardless of size, in each of the last 6 years. In addition, 
over that same period it has tried more combined civil and criminal 
jury trials per judge than any metropolitan court in the country. When 
you compare its trial activity to those of other busy Federal Courts in 
other large metropolitan areas, our Court more than doubles the 
criminal jury trial activity.
    3. The need for two large courtrooms.--We have also requested two 
special proceeding courtrooms for judges to try multiple defendant 
cases. We try more long, multi-defendant criminal trials by far than 
any other court in the country. GSA's 1992 prospectus provided for six 
oversize courtrooms. We only requested two. OMB, without explanation, 
decided this second courtroom was not necessary.
    4. Savings by backfilling.--We agreed that the old Post Office and 
Tower buildings be backfilled with Magistrate Judges and the Bankruptcy 
Court and the Federal Public Defender's Office taking over the old Post 
Office building, thereby saving substantial funds from currently leased 
facilities. Without sufficient courtrooms in the new courthouse, these 
savings will not be realized.
    5. The reduction is not cost effective.--The design for our new 
courthouse has already been approved; is over 50 percent complete; and 
was scheduled to be 100 percent complete by mid-March, 2000. The absurd 
cost of redesign is certainly fiscally irresponsible. GSA estimates the 
cost of a complete redesign to be approximately $2,300,000, and a 1-
year delay could result in additional costs of over $4 million. We are 
currently on schedule to break ground in March of 2001, and any delay 
will simply drive up costs and put scarce resources into the hands of 
contractors, suppliers and architects instead of much needed 
courtrooms.
    6. No space available for visiting judges.--We have judges residing 
in Fort Lauderdale and West Palm Beach that receive Miami cases under 
our blind random filing system. Although this represents a limited 
number of cases, all judges have agreed to try cases where venue lies. 
These judges would have no space available to try the cases if this 
limitation on space occurred.
    7. The concept of locating all active judges in one building.--
Housing all active district judges and senior judges carrying large 
caseloads in the same building will lead to better performance and more 
efficiency. New judges will be able to seek immediate advice from more 
experienced judges. It will ease the transfer of hearings and other 
legal matters on short notice.
    The inefficiency and cost of continuing to move judges, staff, 
jurors, prisoners and the public between two or three buildings are 
substantial.
    Our studies, which we believe to be conservative, project 14 active 
district judges and 5 senior judges when the courthouse becomes 
available for occupancy in 2004. Our estimate is for 21 judges in 2015. 
By 2022, the projections show 31 judges (active and senior) located in 
Miami.
    I believe no active district judge would move into a building where 
he or she would not be able to carry out his or her constitutional 
responsibilities of professionally disposing of caseloads that are 
overwhelming. Our courtroom is our office. Its lack of availability 
greatly impacts not only trials, but settlements as well.
    8. We believe that this action by OMB is impermissible as both a 
violation of constitutional separation of powers and statutory law.--
Under the current statutory scheme adopted by Congress, 28 U.S.C. 
Sec. 462 provides that the Director of the Administrative Office shall 
provide accommodations, including chambers and courtrooms for the 
judiciary, but only if the Circuit's Judicial Council has approved the 
accommodations as necessary. GSA is authorized and directed to provide 
the accommodations requested by the Director.
    The Court recognizes that Congress also has the exclusive power of 
the purse and the power to regulate property owned by the United 
States. In our case, the reduction of courtrooms does not involve an 
Executive agency carrying out the will of Congress, but rather an 
Executive agency performing a unilateral act that directly intrudes in 
the internal affairs of the Judiciary. We believe that to allow the 
executive branch to arbitrarily limit present and future courthouses to 
three judges for every two courtrooms would violate the separation of 
powers provisions of the Constitution as the Executive has no role in 
the provision of accommodations to the Judiciary beyond that provided 
by Congress.
    In addition, the executive branch's actions in this instance has 
intruded not only on the Judicial Branch, but on the legislative branch 
prerogative whose 1993 prospectus called for the construction of 16 
District courtrooms.
    Mr. Chairman, I thank you for giving the Southern District of 
Florida the opportunity to express our views on this very important 
matter and urge that the full $122 million be authorized for 
construction of the Miami courthouse.

  STATEMENT OF JOHN E. CONWAY, CHIEF U.S. DISTRICT JUDGE, DISTRICT OF 
                               NEW MEXICO

    Thank you, Mr. Chairman and members of the Subcommittee, for the 
opportunity to submit for the hearing record this statement regarding 
the Las Cruces, New Mexico courthouse construction project. In its 
fiscal year 2001 submittal to the Office of Management and Budget, the 
General Services Administration (GSA) requested $1.9 million to design 
an annex to the Harold L. Runnels Federal Building and United States 
Courthouse, located at 200 East Griggs in Las Cruces. Unfortunately, 
the final budget did not include any funding for the Las Cruces 
project. I would like to explain to the Subcommittee today the current 
plans and need for space in the Las Cruces Division of the District of 
New Mexico.

                                 DESIGN

    As I just stated, the original request by GSA this year was for 
funding to design an annex to our existing facility. In March 2000, 
however, GSA conducted a feasibility study to determine the best 
alternatives to satisfy the 10-year projected space needs for the 
Runnels Building. Four alternatives were considered, and a preliminary 
decision has been made in the region that the preferred alternative is 
now to build a free-standing new courthouse, instead of an annex. I 
want to make you aware of this today, although a final decision at GSA 
headquarters has not yet been made. Under this plan, the new courthouse 
would be constructed just south of the existing Runnels building on 
land which is already federally owned and currently serves as an 
employee parking lot. The existing courthouse then would be backfilled 
with non-court agencies and serve as a Federal building for Las Cruces 
until such time as it would be needed for overflow from the newly 
constructed building.

       DESCRIPTION OF THE EXISTING AND PROPOSED SPACE SITUATIONS

    The existing Runnels Federal Building (Runnels Building), built in 
1974, presently provides space for the U.S. District Court which 
includes district and magistrate judge functions, the Clerk's Office, 
the U.S. Marshals Service and the U.S. Probation Office. A further 
delay in the building project would require the U.S. Probation Office 
to move out of the Runnels Building into leased space and possibly even 
into modular facilities. U.S. Pretrial Services, the Federal Public 
Defender and the U.S. Attorney's offices have already been moved out 
and are housed in leased space apart from the Runnels Building. The 
Runnels Building has 2 district judge courtrooms, 2 magistrate judge 
courtrooms, 1 small courtroom and 1 very small hearing room. Currently 
this space is utilized by:
    <bullet> 5 district judges and 2 circuit judges (they will be 
assisting the district court with our caseload) who rotate from 
Albuquerque, Santa Fe and Roswell on a monthly basis;
    <bullet> 2 magistrate judges, 1 recalled magistrate judge and 
magistrate judges who rotate from Albuquerque twice a month for 2-3 
days;
    <bullet> 2 bankruptcy judges, who take turns visiting from 
Albuquerque every 4-6 weeks, usually for a week at a time. (In 
addition, a bankruptcy trustee holds hearings in the Runnels Building 
if space is available, but the trustee often has had to use space in a 
nearby hotel for court proceedings).
    <bullet> Various visiting senior district judges from districts 
outside the District of New Mexico (Judges from the Eastern District of 
Louisiana, the Western District of Michigan, the Western District of 
Texas and the Districts of Connecticut and Nebraska have held court 
recently at the Runnels Building).
    <bullet> Numerous Federal agencies who use court space for 
administrative hearings and other official meetings include The Office 
of Hearings and Appeals (Social Security Administration), the Railroad 
Retirement Board, the Equal Employment Opportunity Commission, the 
Department of Energy, and the Immigration and Naturalization Service. 
This saves rental moneys for these agencies.
    <bullet> Upon completion of the new courthouse, the current Runnels 
Building would be backfilled with non-court Federal agencies as 
previously stated. This will fill space needs for these agencies, as 
adequate office facilities in Las Cruces do not currently exist.
    The new courthouse would have 6 courtrooms and 8 chambers for 2 
district judges, 3 magistrate judges, 1 senior judge, the rotating 
judges and 1 bankruptcy judge. The building will house the grand jury 
room, a petit jury assembly area, the Clerk's Office, U.S. Probation 
and U.S. Pretrial offices. The U.S. Marshal's Service, sally port, 
holding cells and secure parking will also be part of the facilities.

      SECURITY AND SPACE ISSUES UNIQUE TO THE LAS CRUCES DIVISION

    Many of the space and security problems of the existing facility 
are related to the fact that the Runnels Building was not designed or 
intended to be used primarily as a courthouse. The Las Cruces Division 
of the District of New Mexico currently operates under substandard 
conditions and serious security deficiencies. The original occupants in 
the Runnels Building included the Federal Bureau of Investigation, the 
Internal Revenue Service, the Social Security Administration, the 
Department of Labor, the Bureau of Land Management, U.S. Soil 
Conservation, and congressional staffs, all of which have moved out to 
accommodate the court's dramatically increased space needs. The Runnels 
Building originally had a single courtroom which was used infrequently 
because there was no district judge residing in Las Cruces when the 
Runnels Building opened and only a part-time magistrate judge who 
operated out of his law office which was not located in the Runnels 
Building.
    As a consequence, the Runnels Building does not have separate 
entrances and vertical circulation (stairs and elevators) for prisoners 
and judges and the public. Moreover, there has never been any secured 
parking. The U.S. Marshals Service does not have a secured sallyport 
for the delivery and intake of prisoners. Prisoners are driven into and 
unloaded in the small outdoor surface parking lot used by the judges 
and court personnel (see attached photos). This often results in 
judges, staff members, and other court personnel encountering prisoners 
being loaded or unloaded in the parking lot or awaiting entry at the 
same courthouse entrance used by both prisoners and judges. Also, the 
U.S. Marshal's Service does not have adequate holding cells inside the 
Runnels Building. This situation severely limits the ability of the 
U.S. Marshal's Service to safely process prisoners and to provide 
security to the judges, their staff, other building occupants and the 
public. There is a single elevator that is used by the judges, jurors, 
court personnel, criminal defendants, witnesses and the general public. 
This elevator is also used for building services, including deliveries 
and freight. Due to the lack of adequate space in the Runnels Building, 
defendants, their family members, and witnesses are forced to stand 
next to each other in the hallway awaiting the commencement of 
proceedings, often creating hostile and potentially dangerous 
situations.
    The Runnels Building is set close to three public streets and has 
been subjected to a number of acts of vandalism including broken 
windows in a magistrate judge's chambers suite and the grand jury room. 
Judges' chambers on the 2nd and 3rd floors lack adequate security 
measures such as protective window glazing. The security of this 
facility was recently reclassified by the Tenth Circuit Council to a 
``highly critical'' level.
    Due to the shortage of adequate space in the Runnels Building the 
magistrate judge who was appointed in 1995 has been using the grand 
jury suite as his chambers and a converted conference room as a 
courtroom for almost 4 years. Two of the three courtrooms with full-
sized jury boxes were constructed in space designed for office use and 
have columns that obstruct views. The petit jury assembly room, which 
is also used for other purposes such a training, meetings, etc., is 
severely undersized at 700 square feet. The heating and air 
conditioning system has been ``piece-meal'' in design and installation. 
This results in annoying temperature differences and uneven airflow 
throughout the entire building. Las Cruces experiences temperature 
extremes with many summer days having highs in excess of 100 degrees. 
At least two times during the past 6 months the roof has leaked above 
one of the courtrooms, causing significant water damage. GSA had 
indicated in 1994 that major systems in the Runnels Building were near 
the end of their useful lives. Since that time, modernization of the 
Runnels Building's systems has been on hold awaiting the pending 
building project.

                                CASELOAD

    The District of New Mexico is ranked fourth nationally among the 94 
Federal districts in criminal felony filings per judgeship. As of 
December 1999, about 65 percent of the district's criminal caseload was 
originating at the Runnels Building in the Las Cruces divisional 
office. The criminal caseload greatly increased over the prior year; 
i.e., 47 percent, and has almost doubled since 1995. In 1999 a total of 
3,197 hearings were conducted before Article III judges in the entire 
district. Of those, 1,557 (49 percent) were held at the Runnels 
Building in the Las Cruces division. To accommodate the high number of 
hearings at the Runnels Building, judges have, on occasion, been forced 
to ask permission to use State court facilities when all of the 
courtrooms at the Runnels Building were occupied. During 1999 the 
magistrate judges of the district reported 8,048 preliminary felony 
proceedings (including initial appearances, attorney appointment 
hearings, detention hearings, bail reviews, preliminary examinations 
and arraignments). The two resident magistrate judges in Las Cruces 
handled 5,287 cases or 63 percent of this workload. The district is 
also currently ranked fifth in the Nation for trials completed per 
judgeship.
    Las Cruces is the second largest city in New Mexico and is located 
225 miles south of Albuquerque and just 45 miles north of the border of 
The Republic of Mexico. The population at Las Cruces has increased 
significantly over the past 5 years; Las Cruces is the ninth fastest 
growing city in the United States. Recently Congress funded substantial 
increases in the personnel of law enforcement agencies operating along 
the Mexican border. This soon will result in a rapid and even larger 
increase in the number of criminal cases that must be handled in the 
Las Cruces division. Based on the court's caseload projection, it is 
anticipated that within the next 10 years accommodations will be needed 
at the Las Cruces Division for 2 new district judges, 1 new bankruptcy 
judge, and 2 new magistrate judges in order to handle the anticipated 
caseload growth.

                          BANKRUPTCY CONCERNS

    The bankruptcy judges routinely rotate to Las Cruces to hear cases. 
In addition, meetings of creditors convened by the bankruptcy trustees 
are also held in Las Cruces. Las Cruces and the southern end of the 
State are drawing a large influx of retirees which spawns service 
businesses, and due to low commodity prices, the copper industry is 
laying off large numbers of people. Las Cruces is the site of 20-50 
percent of the creditors' meetings and a great deal of judicial 
workload originates in the southern part of the State as indicated by 
county code. There is a high emotional factor related to bankruptcy 
cases, but there is no security presence at the creditors' meetings 
when held in Las Cruces. Bankruptcy caseload filings for Albuquerque 
from 1995 through 1999 have increased by approximately 90 percent 
throughout this 5-year period. Bankruptcy reform legislation, which is 
currently pending in Congress, could have an impact on the future 
workload for the bankruptcy court.

                               CONCLUSION

    If this project does not proceed as planned, the court will be 
forced to move judicial officers to leased buildings outside the 
existing facility. This will result in high costs to the government for 
leased space and will multiply security costs. Moreover, by leaving 
unaddressed the immediate space and security problems, the court 
operations at the Runnels Building would be further compromised. In 
closing, the court requests that the Subcommittee authorize the funds 
for this courthouse project.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

 STATEMENT OF WILLIAM M. SKRETNY, JUDGE, U.S. DISTRICT COURT, WESTERN 
                          DISTRICT OF NEW YORK

    I appreciate the opportunity to submit a statement to the 
subcommittee for the hearing record to explain the need for a new Annex 
to the United States Courthouse Building in Buffalo, New York.
    My name is Bill Skretny and for the last 6 years I have been a 
member of the Judicial Conference's Security and Facilities Committee, 
now chaired by Judge Roth whom you heard from earlier, and additionally 
I am Chairman of its Subcommittee on Space Management and Planning. In 
part, it has been our job to assess needy courthouse construction 
projects. It is from this experience that I make the following 
comments.
    The Buffalo Courthouse Annex project, for which the General 
Services Administration (GSA) has asked $3.599 million to purchase a 
site and to hire an architect, now is No. 6 on the Federal judiciary's 
list of prioritized projects for fiscal year 2001.
    Initially, we were very pleased to hear that after a 3-year hiatus, 
the President this year chose to include a funding request for the 
GSA's courthouse construction program in his budget submittal to 
Congress. That was short-lived, however, because we soon learned that 
the President's Budget skipped over the Buffalo Annex project, while 
funding other projects further down on the list.
    More specifically, the President's budget included funding for 
construction projects numbered one through five (LA, Seattle, Richmond, 
Gulfport & DC) from the judiciary's prioritized list. But then, it 
skipped Buffalo at No. 6 and went on to No. 8 (Miami). It also added 
some design money for No. 14, Little Rock, Arkansas. To assist you, I 
have included a copy of the list of prioritized projects with my 
statement for your reference.
    Frankly, this hasn't been all that good a year for Buffalo. If you 
are a sports fan, you probably know about the no-goal goal that cost 
the Sabres a chance for the Stanley Cup, and the miracle forward-pass 
lateral that eliminated the Bills from the playoffs. It's kind of like 
falling victim to Gaffuso's extension to Murphy's Law, that is, 
``nothing can be so bad that it can't get worse''. Now this!
    Honestly though, I am not discouraged because I truly believe 
justice is on our side and that with your enlightened intervention, it 
will come to fruition. For your edification, let me briefly explain 
``why'' and three brief reasons for my optimism:
    (1) Putting aside for the moment that additional delays inevitably 
will increase the cost of the Annex project, GSA is asking for a very 
modest $3.599 million for site and design.
    When the Buffalo Courthouse project first made the priority list 
approximately 4 years ago, it initially was for an entire new 
courthouse. At that time, the projected construction cost was 
approximately $85 million. Today, ours is an Annex project which we 
expect to come in at a cost of approximately $44 million.
    From the outset we have been well aware of Congress' concern with 
fiscal responsibility and the reality that available dollars for 
national construction projects are finite. In a sense, we went back to 
the drawing boards with GSA, and after some serious soul searching and 
creativity, we ttled upon an Annex, rather than an entire new 
courthouse building. This should result in the dramatic cost savings 
that I just mentioned. And importantly, it will still adequately meet 
our court and security needs. Thus, a very modest $3.599 million is 
critically needed for site and design.
    (2) The Annex design contemplates an over-the-street link from the 
main courthouse to the Annex. This is what makes our proposed Annex 
structure suitable, and obviates the need for an entire new courthouse. 
As I speak, there is one site and only one site that makes this project 
possible. It presently is available, but if the opportunity to acquire 
it now is lost, it may be irreparable.
    (3) Finally, the Western New York community and the judiciary truly 
need this Annex project. For one thing, it will result in the 
preservation and full utilization of the present historic courthouse 
building in downtown Buffalo where it has served since 1938. For 
another, the Annex will remedy presently existing dangerous conditions 
that affect both the public and courthouse employees on almost a daily 
basis.
    Specifically, the Dillon Courthouse is a historical building which 
cannot be altered to any major degree. As such, it has no separate 
elevators for transportation of prisoners, judges and the public. All 
users of the building must mingle, to some degree, on elevators and in 
hallways. This puts a great strain on the United States Marshals 
Service and others charged with providing security not only for the 
judiciary but also for litigants, witnesses, jurors, court staff and 
the public generally.
    More to the point is a condition that involves my own courtroom. 
Virtually every time there are multiple-arrest roundups, prisoners are 
detained in holding cells immediately adjacent to the entrance ways to 
my courtroom and chambers. This often requires that courtroom 
proceedings be interrupted and staff alerted to warn of the presence 
and transporting of prisoners. The inherent problems with this are self 
evident. Realistically, in a sense, we are on borrowed time. Something 
has to be done and the Annex is the answer.
    I have attached a fact sheet which provides greater detail on the 
Buffalo Annex Project. On behalf of my Chief Judge, David Larimer and 
the other members of the bench in the Western District of New York, I 
want to thank the subcommittee for considering these comments and urge 
that $3.599 million be authorized for site and design of the Buffalo 
Annex Project.

  FY 2001 Courthouse Construction Projects--Judiciary Prioritized Plan
                        [In Millions of Dollars]
------------------------------------------------------------------------
                                                          President's
                                       GSA Estimate      Budget Request
------------------------------------------------------------------------
1. Los Angeles, CA--S&D...........            $36.203            $31.523
2. Seattle, WA--C.................            179.365             177.93
3. Richmond, VA--S&D..............             19.581             19.476
4. Gulfport, MS--C................             42.715             42.715
5. Washington, DC--C..............            109.498            104.050
6. Buffalo, NY--S&D...............              3.599
7. Springfield, MA--C.............             41.378
8. Miami, FL--C...................            121.946            110.950
9. El Paso, TX--S&D...............              7.208
10. Mobile, AL--S&D...............              8.123
11. Fresno, CA--C.................            111.783
12. Norfolk, VA--S&D..............              9.593
13. Las Cruces, NM--D.............              1.900
14. Little Rock, AR--D (addtl.                  5.428               1.82
 design funds)....................
15. Rockford, IL--S&D.............              2.837
16. Cedar Rapids--S&D.............             13.606
17. Nashville, TN--S&D............             13.784
18. Erie, PA--C...................             27.013
19. Savannah, GA--C...............             46.462
                                   -------------------------------------
  Total...........................           $801.239           $488.464
------------------------------------------------------------------------

                 United States Courthouse, Buffalo, NY

                            SITE AND DESIGN

    The proposed project is for the site acquisition and design of an 
annex to the Michael J. Dillon U.S. Courthouse (Dillon Courthouse) in 
Buffalo, New York. Following completion of the annex construction, the 
entire District Court and most court-related functions will be housed 
in the Dillon Courthouse and armex. The Judiciary's Five-Year Plan for 
2000-2004 included site acquisition and design of a new courthouse 
annex in Buffalo, in fiscal year 2000. However, the President's fiscal 
year 2000 budget did not include funds for any courthouse projects. 
While the President's fiscal year 2001 budget does include funding for 
some courthouses, it does not include funds for the Buffalo site and 
design project.
    The Judicial Conference's policy on courtroom sharing, which 
balances the essential need for judges to have an available courtroom 
to fulfill their responsibilities with the economic reality of limited 
resources, was incorporated in the initial planning stages for this 
project. That policy provides one courtroom for each active district 
judge and for each senior judge who maintains a substantial caseload. 
For senior judges who do not carry a caseload requiring substantial use 
of a courtroom and visiting judges, the policy sets forth a non-
exclusive list of factors for circuit councils to consider when 
determining the number of courtrooms needed at a facility.
Description of the Existing and Proposed Housing Situation
    The Dillon Courthouse was constructed in the mid-1930's and has 
been at full capacity since 1993. The historic facility is unable to 
satisfy the current and projected space and technology requirements of 
the court. To accommodate the immediate need for space, the District 
Court has expanded into former bankruptcy courtrooms, pending 
completion of the annex. The Bankruptcy Court has been relocated to 
leased space. Other court-related functions, such as the U.S. Trustee 
and the U.S. Attorney, are also housed in leased space.
    The annex will provide courtrooms and chambers for the District 
Court and Magistrate judge functions, the Court of Appeals, and part of 
the U.S. Marshals Service. It will also provide much needed grand jury 
space, prisoner processing and holding areas. Upon completion of the 
project, the Dillon Courthouse will be used for the Bankruptcy Court, 
jury assembly, the District clerk, the Probation Office, the U.S. 
Marshals Service, the U.S. Trustee's Office and other court-related 
functions. The following chart displays the current and proposed 
complement of courtrooms and judges for the Buffalo project.


----------------------------------------------------------------------------------------------------------------
                                                     Current                          Prosposed
----------------------------------------------------------------------------------------------------------------
                                                 Courtrooms and                 Courtrooms and Judges
                                                     Judges        ---------------------------------------------
                                             ----------------------    Judges                 Ctrms
                   Judges                                  Ctrms   ---------------------------------------------
                                                Judges  -----------
                                                          Dillion                 Dillion     Annex      Total
----------------------------------------------------------------------------------------------------------------
District....................................         2         2*           4           0          4          4
Senior......................................         2         2*           3           1          0          1
Magistrate..................................         4        3**           4           0          4          4
Bankruptcy..................................         0       2***           2           2          0          2
Circuit.....................................         0          0           1           0          0          0
  Total.....................................         8          9          14           3          8        11
----------------------------------------------------------------------------------------------------------------
*Most of the courtrooms in the Dillon Courthouse are significantly undersized and functionally inefficient.
**One of the magistrate judges requires chambers only.
***Bankruptcy court is currently in leased space. The courtrooms vacated by the Bankruptcy Court are too small
  and inefficient. These rooms will be converted to office space for use of the District Court.

    In addition to addressing the immediate and projected space needs 
of the court, completion of the annex will allow the government to 
relinquish the leased location resulting in significant savings in 
lease payments. The chart below shows the current housing for the court 
and court-related activities located in leased facilities in Buffalo. 
These functions will be consolidated in the Dillon courthouse complex 
avoiding the expenditure of approximately $693,886 annually.


------------------------------------------------------------------------
                                                   Government's Annual
        Current Leases         Current Occupant            Rent
------------------------------------------------------------------------
Delaware Avenue..............  Truestee........                  $81,894
Olympic Towers...............  Bankruptcy......                  611,992
                              ------------------------------------------
                                 Total Rent....                 $693,886
------------------------------------------------------------------------

                       SECURITY AND SPACE ISSUES

    The completion of the annex project will resolve significant 
security and space problems currently with the Dillon Courthouse. 
Security is a major concern for the court in Buffalo. There is no 
secure parking area for judges; they must park either on the street or 
in an unsecured public parking ramp across the street from the 
courthouse. There is no secure circulation in the courthouse; the 
public, judges, staff, jurors, and prisoners all use the same corridors 
throughout the courthouse. There are no secure elevators for the 
movement of judges or prisoners. There is no sallyport for the movement 
of prisoners; therefore, the U.S. Marshals must bring prisoners into 
the courthouse from the street and escort them through the public lobby 
and onto the public elevators for transport to courtrooms located on 
five different floors of the Dillon Courthouse. The U.S. Marshals 
Service, in a recent survey of prisoner handling facilities nationwide, 
gave the Dillon Courthouse a score that is sigruficantly below the 
minimally acceptable security and safety standards.
    Due to these security problems, judges frequently have been 
approached by criminal defendants and their families and friends on the 
way to court appearances. These contacts are inappropriate and create a 
serious risk to the judges involved. Juror movement within the building 
is another concern. Although courtrooms are located on five of the 
seven floors, the jury deliberation rooms are all located on the fifth 
floor. Jurors, therefore, must use the public elevators when moving 
from the courtroom to the jury deliberation rooms. In addition to 
creating a risk for mistrial, this situation leaves the jurors 
vulnerable to contact by criminal defendants and their associates, the 
public and the media. On several occasions, jurors themselves have 
expressed concern regarding such exposure. These security threats for 
jurors as well as the threat to the integrity of the judicial process 
occur almost daily; however, the current housing situation precludes 
virtually all mitigating measures.
    The current facility also has functional problems that have a 
negative effect on court operations. For example, some of the 
courtrooms have visual obstructions such as structural columns that 
interfere with the jurors' ability to view litigants, attorneys or 
physical evidence introduced throughout a trial. Due to the age of the 
Dillon Courthouse, much work has been done on a piecemeal basis to 
maintain the building systems, including improvements to the heating 
and air-conditioning systems, installation of modern aluminum windows, 
and other necessary modifications. Also, a significant amount of 
asbestos abatement work has been required to ensure the building's 
safety. The building does not have the infrastructure necessary to 
support the introduction of new technologies; costly building upgrades 
would be needed to support the required technologies used by courts 
nationwide.

                                CASELOAD

    The Buffalo Division serves as the headquarters location for the 
Western District of New York. The latest available statistics 
demonstrate the significance of the pending civil and criminal caseload 
in the Western District of New York and the growth of filings overall. 
The District has the 3rd highest rate of civil filings per judgeship of 
the entire 2nd Circuit. The District ranks 1st in the Circuit and 26th 
nationally with regard to the rate of criminal filings per judgeship. 
The pending caseload (both civil and criminal) renders the District 6th 
per judgeship out of the 94 district courts nationwide. A significant 
portion of the criminal caseload growth may be attributed to the 
ongoing drug enforcement initiatives by the U.S. Attorney's Office. In 
order to manage this growth, the court routinely assigns almost all 
felony and pretrial matters to the Magistrate judges. In addition, the 
Magistrate judges are responsible for a significant number of felony 
preliminary proceedings, civil pretrial matters and settlement 
conferences.
    The following chart illustrates the civil, criminal and bankruptcy 
case filings for the Buffalo Division from 1995 to 1999. As shown in 
the chart, bankruptcy filings have grown remarkably from 4,292 in 1995 
to 7,492 in 1999. This reflects a growth of nearly 74 percent. After 
experiencing a slight decrease between 1995 and 1996, civil filings 
grew substantially from 955 in 1996 to 1,022 in 1999. The court expects 
this steady rise in filings to continue. Total criminal and civil 
filings in the district increased 15 percent from 1998 to 1999.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               CONCLUSION

    The court's housing situation in Buffalo has become critical due to 
security concerns and operational difficulties arising from the split 
facilities and the age of the building. In addition, there is no room 
within the existing courthouse facility to accommodate the projected 
growth of the court. Due to these factors, construction of an annex to 
the existing Dillon Courthouse has become essential. Completion of the 
annex project will centralize all of the court functions in one 
efficiently organized court structure eliminating many of the current 
security and space concerns in the Buffalo Division.
                               __________

      STATEMENT OF ROBERT E. COYLE, U.S. DISTRICT JUDGE, EASTERN 
                         DISTRICT OF CALIFORNIA

    I appreciate the opportunity to submit to the Subcommittee the 
following statement regarding the need for a new courthouse in Fresno, 
California and ask that it be included in the hearing record.

                    1. STATUS OF CURRENT COURTHOUSE

    The present courthouse was originally constructed as an office 
building, with the courts occupying two courtrooms and a small amount 
of support space. Since that time, the court-related agencies have 
expanded to occupy 95 percent of the 137,000 sq. ft. building. The 
court-related agencies are literally scattered throughout the building, 
with portions of the Clerk's Office located on four separate floors and 
the basement. There is no further expansion space for either the court 
or the agencies presently located in the building.
    The court currently occupies three full-sized courtrooms and five 
under-sized courtrooms built from what originally was office space. The 
five small courtrooms have low ceilings, obstructing columns, 
inadequate sightlines, security and acoustical problems. In the 
magistrates' courtrooms, prisoners must be taken down public hallways 
to get to two of their three courtrooms.
    There are presently two active district judges, two senior judges, 
three magistrate judges, two bankruptcy judges and a visiting 
magistrate judge from Yosemite who assists us with the caseload in 
Fresno every other week. Current caseload statistics show that two 
additional judges should be authorized for the District, both destined 
for the Fresno Division. The Judicial Conference of the United States 
has approved these two judgeships and they are currently before 
Congress. However, there is no room for the two additional judges in 
our current location nor is there any space for additional magistrate 
and bankruptcy judges that are anticipated in the near future. We are 
also finding that the growth of the Fresno Division's weighted caseload 
is growing far beyond the projections or expectations in our long-range 
plan.
    Listed below are the ten top districts in the United States for 
weighted caseload per judge for the calendar year 1999:
    1. CA (S) 1,018
    2. TX (W) 911
    3. NM 764
    4. NC (W) 686
    5. AZ 655
    6. CA (E) 619
    7. FL (S) 609
    8. TX (S) 603
    9. NY (E) 597
    10. VA (E) 590
    You will note that the Eastern District of California is sixth on 
the list at 619. The weighted caseload per judge in the Fresno Division 
of the Eastern District of California is 862 and continues to increase 
dramatically each year. There is nothing to indicate that the rapid 
increase in caseload and filings will abate. During the first 2 months 
of the year 2000, we were 151 civil cases and 53 criminal cases ahead 
of the filings for the same period of time in 1999.

A. Security
    The physical design of the current building creates security 
concerns as well as the inability for expansion. The building does not 
meet minimum security requirements as the building was designed 
primarily to house office space and not function as a courthouse. The 
circulation paths of the public, judges and prisoners are not only in 
violation of the Marshal's security procedures and the judiciary's 
design requirements, but are also in violation of all the rules of 
common sense.
    In order for members of the court to reach their courtrooms each 
day, the judges enter and park in their own sallyport, but then must 
pass through the prisoner sallyport in order to enter the building at 
the basement level. They must then travel the same route used to 
transport prisoners, past the maintenance office and storage area, the 
maintenance shops, down a long hall and ultimately into what is 
commonly called the freight elevator. This elevator is also used by the 
prisoners, construction workers, and the GSA maintenance and janitorial 
staff and is therefore not available much of the day. This means the 
judges often ride with the public and the prisoners must be transported 
in the public elevators. When exiting the building, the judges leave 
their chambers, pass through the public hallways and the public waiting 
area for the courtrooms in order to enter the freight elevator and then 
pass through the same circuitous route to reach the basement level 
exit. Attached to my statement are pictures of the prisoner sallyport 
area, first showing the prisoners going through in shackles and then 
our clerk walking through the same area on the way to her car. Also 
attached is a picture of prisoners being jammed into the freight 
elevator for transport to the fourth floor to the Marshal's main 
holding cells.
    As a matter of interest, recently Judge Sandra Snyder exited the 
prisoner elevator in the basement to go to her car and promptly ran 
into a string of shackled prisoners being brought into the building for 
court appearances. The Marshals quickly lined the prisoners up against 
and facing the wall while she passed through the area. I have 
personally found myself, while entering or exiting the elevator and 
while in the sallyport, staring into the face of hardened criminals 
whom I have either just sentenced or had appeared before me.
    The present prisoner population of the Fresno Division of the 
Eastern District is 495. Many times there are 30 to 80 prisoners 
delivered at a time to the courthouse, depending upon the size of the 
bus and the institution from which the prisoners are being transported. 
They must be brought into the building in groups and then placed in the 
main holding cells. The Marshals have no way of bringing them from the 
main holding cells on the fourth floor up to the fifth floor courtrooms 
except by going up a narrow, steep stairway from the Marshal's office. 
The prisoners are shackled while in the stairwell as if it were, in 
essence, a holding cell which creates a danger and a disturbance at the 
same time. At times as many as a dozen prisoners will have to be moved 
at a time to the temporary holding cells adjacent to the courtrooms. 
These holding cells were built to hold only two prisoners. Sometimes 
the prisoners intentionally provoke each other or are just noisy, 
causing disruption of the proceedings in the courtrooms on either side 
of the holding cells. On a law and motion day, there can be over 200 
prisoners to be delivered for various motions, trials, etc. Many times 
the holding cells are so full that the Marshals have to place prisoners 
in the jury box in the courtroom, mixing male and female prisoners, who 
are supposed to be separated.

B. Condition of the Building
    A seismic evaluation was performed on the building and a 
determination was made that the building was seismically unsound and 
that retrofit was necessary. It was determined that the cost of seismic 
retrofit would result in expenditures greater than the value of the 
building and the court would have to be located elsewhere during such 
retrofit. In addition, the court spaces are not up to code in fire 
safety. On the exterior of the building, the windows are actually 
covered by metal grates and therefore not accessible for ingress or 
egress in the case of fire or other disaster.

                2. THE PROPOSED NEW FRESNO COURT PROJECT

    As a result of the need for additional space and adequate security, 
GSA conducted a feasibility study which determined the necessity of a 
new courthouse and developed a prospectus which has been accepted by 
GSA with the approval of the Central Office and OMB. The city of Fresno 
demonstrated its strong support for the new courthouse by donating 
four-plus acres of land for the site on which the courthouse will be 
constructed. The city of Fresno has also agreed to build a 500-car 
parking structure for the new courthouse, as well as building a 
``people park'' on one square block within walking distance of the new 
courthouse. Attached to my statement is an editorial which appeared in 
yesterday's Fresno Bee, describing the widespread local support for the 
project. An Environmental Impact Study has been completed and accepted. 
The architect, Moore Ruble Yudell, has completed Final Concepts which 
were presented to the General Services Administration on December 10, 
with approval given to proceed with final design and construction 
documents. Groundbreaking is anticipated in mid to late Fall of 2000.

                        3. BUSINESS OF THE COURT

    Of the 94 districts, the Eastern District of California, Fresno 
Division, stands as follows in those statistics that are important 
concerning caseloads:
    A. Weighted filings--862 weighted filings per judgeship in the 
Fresno Division. This would be the third highest in the United States 
and twice the national average.
    B. The district-wide filings have increased an average of 18 
percent per year, considerably higher in the Fresno Division. The 
district is the third fastest growing district in the Ninth Circuit and 
the eighth fastest growing district in the United States. Population 
statistics show that the San Joaquin Valley is the fastest growing area 
in the State with the assumption that one-fifth of California's 
population will be located in the Valley in a short period of time.


------------------------------------------------------------------------
                                                        Ranking
                District Wide                ---------------------------
                                                National       Circuit
------------------------------------------------------------------------
Filings per judge: 717......................            3             2
Weighted filings: 619*......................            6             3
Pending per judge: 770......................            4            1
------------------------------------------------------------------------
*Weighted filings per judge for Fresno is 862. Compared to other
  districts nationally, the Fresno Division ranks third in weighted
  filings per judge.

    C. Number of pending cases--4th.
    D. Total filings--3rd.
    Unfortunately, the Fresno area is known as ``the meth capital of 
the world'' because of the many isolated locations in the area 
available to those persons who wish to manufacture methamphetamine. The 
Eastern District has the eleventh worst crime rate of the 94 districts, 
worse even than the Central and Northern Districts of California as set 
forth in the FBI Crime Rates by Districts, 1994.
    As you can see, there is an urgent need for a new facility for the 
Fresno court. I urge the Subcommittee to authorize $112 million for the 
construction of the Fresno courthouse. The $112 million will permit GSA 
to build the project as planned and designed. Thank you for your 
consideration of this important construction project.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

               STATEMENT OF BERNARD H. BERNE, MD., PH.D.

    I am a resident of Arlington, Virginia. I serve the Food and Drug 
Administration (FDA) as a Medical Officer and as a reviewer medical 
device approval applications. I am submitting this statement as a 
private individual and not as a representative of FDA or of any other 
organization.
    I ask you to reject a proposal in the Fiscal Year 2001 Capital 
Investment Program for the U.S. General Services Administration (GSA) 
that would make a total of $544,640,000 available to GSA's Federal 
Buildings Fund for an FDA consolidation. GSA proposes to receive these 
funds through four appropriations in the Treasury and General 
Government Appropriations Act, 2001. GSA would use these funds to award 
contracts to design and construct an FDA consolidation at the former 
White Oak Naval Surface Warfare Center in suburban Montgomery County, 
Maryland.
    No legislation authorizes the requested appropriations. GSA has 
never transmitted a prospectus to Congress that describes this project. 
Your Committee has never approved any such prospectus.
    The Capital Investment Program proposes that, of the above total, 
$101,239,000 would be made available to GSA in Fiscal Year 2001. The 
remainder would become available to GSA in Fiscal Years 2002, 2003, and 
2004. The Capital Investment Program does not provide the estimated 
maximum cost of this costly and unjustified project.
    In 1999, Congress appropriated $35,000,000 to GSA in the Treasury 
and General Government Appropriations Act, 2000 (Pub. L. 106-58, Sept. 
29, 1999) for an FDA consolidation in Montgomery County, Maryland. GSA 
is now illegally using these funds to construct this wasteful and 
environmentally unsound project at White Oak.
    Pub. L. 106-58 contains a provision that specifically restricts 
GSA's use of any of the appropriated funds to the ``development of a 
proposed prospectus'' for any construction project that had lacked an 
approved prospectus when Pub. L. 106-58 became law. Despite this 
provision and the fact that GSA has never even transmitted a prospectus 
to Congress, GSA is now using these funds to enter into contracts for 
the design and construction of the White Oak facility.
    White Oak is a very poor location for the FDA consolidation. Your 
Committee should not permit FDA to consolidate at that site.
    The following points summarize the reasons to oppose the White Oak 
FDA consolidation. They also provide the reasons for your Committee to 
give immediate and intensive oversight to GSA's activities relating to 
the FDA's consolidation:
    Congress has not approved a prospectus for any part of the FDA 
consolidation. GSA is using the funds appropriated in Pub. L. 106-58 
for construction purposes without ever submitting a prospectus to 
Congress.
    GSA's actions are violating a provision in Pub. L. 106-58 that 
prohibits the use of these funds for construction purposes in the 
absence of an approved prospectus. These actions are illegal and 
constitute a misuse of Federal funds.
    FDA does not need to consolidate its facilities.
    <bullet> The FDA consolidated facility at White Oak will be a white 
elephant that will cost at least $600,000,000. It will be a country 
club that will have a golf course adjacent to FDA's offices.
    <bullet> The FDA consolidation is nothing more than a pork barrel 
project for Maryland.
    <bullet> Nearly all current FDA buildings are in good condition. 
Few are unsatisfactory. GSA often misleads readers by describing these 
buildings as being unsatisfactory. It does this by selectively quoting 
parts of sentences in various documents without providing the entire 
sentence.
    <bullet> FDA offices that work together are already close to each 
other. Few FDA employees need to travel long distances between work 
sites. There is now no clear need to expend Federal funds to 
consolidate FDA.
    <bullet> Many FDA employees work at home part of the time. Few 
travel between work sites. An FDA consolidation will not increase FDA's 
ability to approve new drugs and medical devices in a timely manner.
    <bullet> The Government does not save money by building a new 
Federal facility rather than by leasing. The Federal Government gains 
income tax revenues from owners of leased buildings. It receives 
nothing from federally owned buildings.
    An FDA consolidation at White Oak is environmentally unsound.
    <bullet> White Oak is outside of the Beltway and is three miles 
from the nearest Metrorail station.
    <bullet> Many FDA buildings, including the largest ones, are now 
near Metro stations. Metro will lose riders if FDA consolidates at 
White Oak.
    <bullet> Public transportation to White Oak is and will be 
inadequate. Few FDA workers will take buses to White Oak. For economic 
reasons, buses will be infrequent.
    <bullet> Roads and highways near White Oak are already heavily 
congested. They don't need more traffic and air pollution. Nearly all 
FDA workers would drive to work at White Oak.
    <bullet> Many FDA workers would drive to White Oak on the congested 
Capital Beltway during rush hour.
    <bullet> An FDA consolidation at White Oak would replace over 125 
acres of open space with a sprawling campus filled with buildings and 
large paved parking lots.
    <bullet> An FDA consolidation at White Oak will accelerate urban 
sprawl. If FDA consolidates at White Oak, other Federal agencies will 
follow. This will eventually fill a 750-acre Federal property.
    <bullet> GSA's White Oak property is heavily forested. An FDA 
consolidation at White Oak would begin the destruction of this 
woodland, which could otherwise be a national, regional, or local park.
    <bullet> There are a number of federally owned sites near Metro 
stations that are available for the FDA consolidation. These include 
the Southeast Federal Center and the west campus of St. Elizabeth's 
Hospital in D.C. and the Suitland Federal Center in Prince George's 
County, Maryland. GSA has refused to evaluate any of these.
    <bullet> GSA is planning to construct some of FDA's buildings at 
White Oak on top of a former Navy dump site. This site is contaminated 
with PCBs, which cause cancer, and with mercury, which causes birth 
defects. Navy contractors have stated that the site is too contaminated 
for residential use. There is no assurance that GSA or the Navy can 
decontaminate the site sufficiently to protect the health of FDA 
employees.
    An FDA consolidation at White Oak would hurt the District of 
Columbia.
    <bullet> The Council of the District of Columbia has approved a 
resolution that objects to GSA's selection of the White Oak site and 
that asks GSA to work with D.C. officials to identify a suitable site 
in D.C., consistent with Federal laws and executive orders.
    <bullet> The White Oak facility is one of two FDA facilities that 
would consolidate in Maryland. The two facilities would together remove 
over 900 Federal jobs from D.C.
    <bullet> D.C. has lost many Federal jobs in recent years. This 
project will accelerate such losses. Further, it will encourage other 
Federal agencies to locate outside of D.C.
    <bullet> Many FDA workers now live in D.C. and take Metro to work. 
These will leave D.C. if FDA consolidates at White Oak.
    GSA violated Federal laws and policies when it selected the White 
Oak site.
    <bullet> President Carter's Executive Order 12072, which President 
Clinton has reaffirmed in Executive Order 13006, requires Federal 
agencies to locate their facilities in cities (with preference to large 
central cities) when locating their facilities in urban areas, such as 
the Washington Metropolitan Area. Federal courts have found that 
Executive Order 12072 has the full force and effect of law. White Oak 
is not in or near any city.
    <bullet> GSA refused to evaluate any potential sites in any city.
    <bullet> GSA has refused to consult with District of Columbia 
officials regarding the availability of suitable sites within the 
District. This violated Executive Order 12072 and the Federal Buildings 
Cooperative Use Act, which require such consultation with local city 
officials.
    <bullet> Washington, D.C. has a number of suitable vacant federally 
owned sites, such as the Southeast Federal Center and the campus of St. 
Elizabeth's Hospital. Unlike White Oak, these sites are near Metro 
stations. GSA has refused to evaluate any of these sites.
    <bullet> GSA informed D.C. officials that the Southeast Federal 
Center can not accommodate the FDA consolidation. This is untrue. GSA's 
plans for The Southeast Federal Center anticipate the construction of 
nearly twice the amount of occupiable space than FDA needs.
    <bullet> GSA incorrectly informed the D.C. officials and the public 
that Congress had mandated FDA to consolidate in Montgomery County. 
This was a misrepresentation of fact. There is no such mandate.
    <bullet> Federal laws promote development in economically 
distressed areas, such as Southeast D.C. However, White Oak is an 
affluent residential suburb in one of the richest Counties in the 
Nation. White Oak does not need or deserve Federal assistance to help 
its economy.
    <bullet> The Environmental Protection Agency has formally informed 
GSA that GSA did not adequately evaluate alternative sites on public 
and private lands when it prepared its Environmental Impact Statement 
for FDA consolidation. GSA violated the National Environmental Policy 
Act (NEPA) when it selected the White Oak site.
    <bullet> GSA did not attempt to acquire properties in D.C. by 
donation. The FDA Revitalization Act (Pub. L. 101-635) requires such 
attempts, since it is more cost-
effective for the government to acquire properties by donation than by 
using existing Federal property.

                         EXPLANATION OF POINTS

    Suburban White Oak is a very poor site for this massive 
``consolidated'' Federal administrative and laboratory facility. 
Metrorail is three miles away.
    White Oak is located a mile outside of the Capital Beltway. Nearby 
highways and roads, including the Beltway, are already heavily 
congested.
    An FDA facility at White Oak would increase the Washington 
Metropolitan Area's traffic congestion, air pollution and urban sprawl. 
Further, the new construction would require Congress to appropriate 
additional funds to ``improve'' the highways and roads that serve the 
White Oak area.
    GSA is planning to construct some FDA's buildings on top of a 
contaminated Navy dump site. Toxic wastes on the FDA site include PCBs, 
which cause cancer, and mercury, which causes birth defects. GSA and 
Navy contractors have found the FDA site to be unfit for residential 
uses.
    The FDA Revitalization Act (P.L. 101-635; 21 U.S.C. 379(b)), (see 
Exhibit 1) which amended Chapter VII of Federal Food, Drug, and 
Cosmetic Act by adding a new Section 710 (21 U.S.C. 379(b)), only 
authorizes appropriations that the Secretary of Health and Human 
Services (HHS) can use to enter into contracts to design, construct, 
and operate a consolidated FDA laboratory and administrative facility.
    P.L. 101-635 does not authorize any appropriations that GSA can use 
to enter into any contracts of any kind. P.L. 101-635 clearly and 
specifically restricts the role of GSA in the FDA consolidation to 
``consultation'' with the Secretary of HHS.
    Specifically, Section 101(d) of P.L. 101-635 authorizes 
appropriations only to ``carry out this section''. ``This section'' 
(Section 710 of the Federal Food, Drug, and Cosmetic Act) states ``(a) 
Authority.--The Secretary, in consultation with the Administrator of 
the General Services Administration, shall enter into contracts for the 
design, construction, and operation of a consolidated Food and Drug 
Administration administrative and laboratory facility.'' ``This 
section'' does not authorize GSA to take any actions.
    Congress cannot presently appropriate any funds to GSA under the 
authorization of appropriations specified in P.L. 101-635.
    Further, the FDA Revitalization Act authorizes appropriations for 
only one FDA consolidated facility. Despite this, GSA has used funds 
appropriated for an ``FDA Consolidation'' to design and construct three 
separate FDA administrative and laboratory facilities in Beltsville, 
College Park, and White Oak, Maryland.
    GSA's actions have contradicted the intent and language of the FDA 
Revitalization Act. GSA will not use the proposed appropriation to 
consolidate all FDA headquarters facilities in a single location. 
Therefore, the FDA Revitalization Act is irrelevant to the proposed 
appropriation.
    GSA has claimed in reports to Congress that the FDA Revitalization 
Act authorizes appropriations to both the Secretary of HHS and to the 
Administrator of GSA to design and construct the FDA consolidation. 
This self-serving claim is incorrect.
    I am not aware of any law that authorizes two separate government 
officials (such as the Secretary of HHS and the Administrator of GSA) 
to perform the same activities and to receive appropriations for such 
identical activities. Any such law could produce duplications of 
efforts and the endless shifting of blame for irresponsible actions. 
For this reason, when it wrote P.L. 101-635, Congress assured that the 
FDA Revitalization Act would only authorize appropriations to HHS and 
would not authorize any appropriations to GSA.
    According to Section 7(a) of the Public Buildings Act of 1959 (see 
Exhibit 2), as amended, Congress can only legally appropriate funds to 
GSA to construct any public building whose cost exceeds $1.5 million if 
the GSA Administrator transmits a prospectus to Congress and if the 
Committee on Transportation and Infrastructure of the House of 
Representatives and the Committee on Environment and Public Works of 
the Senate (GSA's Senate authorizing committee) both pass resolutions 
that approve this prospectus.
    On March 7, 2000, GSA submitted a report on the FDA consolidation 
to the Committee on Transportation and Infrastructure of the U.S. House 
of Representatives in response to a resolution that the House Committee 
had approved more than 3 years ago in accordance with Section 11(b) of 
the Public Buildings Act of 1959, as amended. GSA's 11(b) report 
contains a substantial amount of misinformation. Your own Committee may 
have received a copy of this report.
    Rule 7(c)(2) of your Committee's Rules of Procedure prohibits your 
Committee from considering an 11(b) report as being a prospectus 
subject to approval by committee resolution in accordance with section 
7(a) of the Public Buildings Act. Your Committee should not therefore 
consider GSA's 11(b) report to be a prospectus.
    Your Committee needs to assure that Congress does not appropriate 
any funds for this or any other GSA construction project until your 
Committee approves a prospectus that describes the particular project. 
If GSA repeats its past practices, GSA will misuse the funds from any 
appropriation for the FDA consolidation that Congress may provide to 
GSA without an approved prospectus.
    GSA has illegally used $55,000,000 appropriated in the Treasury, 
Postal Services, and General Government Appropriations Act, 1996 (P.L. 
104-52, 109 Stat. 482), to award contracts to construct a so-called FDA 
``consolidation'' in College Park, Prince George's County, Maryland.
    GSA is further now illegally using $35,000,000 appropriated in the 
Treasury and General Government Appropriations Act, 2000 (P.L. 106-58, 
113 Stat. 450) (See Exhibit 3) to award contracts to design and 
construct another so-called ``FDA consolidation'' at White Oak in 
Montgomery County, Maryland.
    Provisions in both appropriations acts (P.L. 104-52 and P.L. 106-
58) specifically prohibited GSA from expending any funds appropriated 
therein for the design and construction of any project for which a 
prospectus, if required by the Public Buildings Act, had not been 
approved. The Public Buildings Act requires the approval of a 
prospectus because, (1) the FDA ``consolidations'' will cost more than 
$1.5 million, and, (2) the FDA Revitalization Act does not authorize 
any appropriations that GSA can use to award design or construction 
contracts.
    GSA is therefore clearly misusing appropriated funds. Congress has 
never enacted any legislation that has authorized GSA to construct the 
College Park and White Oak FDA facilities.
    President Carter's Executive Order 12072 (see Exhibit 4), requires 
all Federal facilities and Federal use of space in urban areas to 
``serve to strengthen the Nation's cities and to make them attractive 
places to live and work'', and to ``encourage the development and 
redevelopment of cities''. When he issued this Order, President Carter 
stated that the Order was intended ``to strengthen the backbone of our 
major cities and to buildup jobs and further investments there.'' 
(Public Papers of the Presidents: Jimmy Carter, 1978, Book II, p. 
1429).
    Present Carter promulgated Executive Order 12072 pursuant to the 
authority granted to the President in the Federal Property and 
Administrative Services Act of 1949 (40 U.S.C. Sec. 486(a)). Federal 
courts have found that this Executive Order has the full force and 
effect of law.
    White Oak is not in or adjacent to any city. An FDA consolidation 
at White Oak would draw jobs and investments out of Washington, D.C. 
The requested appropriation serves to further weaken this economically 
troubled major city. Any appropriation to support an FDA consolidation 
at White Oak would violate Executive Order 12072 and 13006.
    In Executive Order 13006 (See Exhibit 5), President Clinton 
reaffirmed Executive Order 12072 and made it a policy of his 
Administration. His own Administration is now proposing this 
appropriation in violation of the President's own policies and 
established law.
    Section 12(c) of the Public Buildings Act states: ``The (GSA) 
Administrator in carrying out his duties under this Act shall provide 
for the construction and acquisition of public buildings equitably 
throughout the United States with due regard to the comparative urgency 
of the need for each particular building.''
    Despite this requirement, GSA is requesting an appropriation to 
construct a major Federal facility in affluent Montgomery County, 
Maryland. Unlike Maryland in general and Montgomery County in 
particular, the District of Columbia is economically depressed.
    The National Capital Planning Commission has recommended that 
Federal agencies increase the percentage of the National Capital 
Region's Federal employees that work in D.C. from 52 percent to 60 
percent, to restore the historic percentage of Federal jobs in the 
District. It is thus clear that the District of Columbia has a far 
greater ``comparative urgency of need'' for the FDA consolidation than 
does Montgomery County, Maryland.
    Thus, GSA is violating Executive Orders 12072 and 13006, as well as 
Section 12(c) of the Public Buildings Act, by proposing this 
appropriation. Your Committee should not endorse these violations by 
appropriating further funds for this project.
    It is important for your Committee to recognize that no law directs 
or requires GSA to consolidate FDA in Montgomery County. In 1992, 
Congress appropriated funds to begin constructing an FDA consolidation 
in Montgomery County, Maryland. However, in 1995, P.L. 104-19 rescinded 
all of these construction funds (See Exhibit 6). P.L. 104-19 removed 
any Congressional directive or requirement for FDA to consolidate in 
Maryland.
    The Treasury and General Government Appropriations Act, 2000 (P.L. 
106-58) appropriated $35 million for an FDA consolidation in Montgomery 
County. However, as noted above, P.L. 106-58 contains a provision that 
states (113 Stat. 451): ``Provided further, That funds available to the 
General Services Administration shall not be available for expenses in 
connection with any construction, repair, alteration, or acquisition 
project for which a prospectus, if required by the Public Buildings Act 
of 1959, as amended, has not been approved, except that necessary funds 
may be expended for each project for required expenses in connection 
with the development of a proposed prospectus.'' (See Exhibit 3).
    No prospectus has ever been approved for this project. Since the 
Public Buildings Act requires prospectus approval for all GSA 
construction projects costing more than $1.5 million, GSA cannot 
legally use the $35 million to construct anything at White Oak. 
Therefore, the FDA consolidation can still occur in the District of 
Columbia rather than in Montgomery County, Maryland.
    Rule 7(a) of your Committee's Rules of Procedure State that no 
project or legislation may be approved or otherwise acted upon unless 
the committee has received the written comments of the EPA 
Administrator, in accordance with section 309 of the Clean Air Act. You 
may therefore wish to consider the following EPA letter as representing 
the most recent comment from the EPA Administrator on this matter.
    In a letter dated January 5, 1999, Mr. William Hoffman, NEPA/404 
Program Manager, U.S. Environmental Protection Agency (EPA), Region 
III, informed GSA that GSA's Environmental Impact Statement (EIS) for 
the White Oak project did not comply with the regulations of the 
Council on Environmental Quality (See Exhibit 7). The EPA letter states 
that GSA had not adequately compared an FDA consolidation at White Oak 
with a consolidation at alternative locations on public and private 
lands.
    The letter formally encouraged GSA to perform the required 
comparison in a future proposed EIS. However, GSA has not prepared any 
new EIS since receiving the EPA letter.
    The federally owned Southeast Federal Center and St. Elizabeth 
Hospital sites in D.C., can accommodate the FDA consolidation. The 
federally owned Suitland Metro Station in Prince George's County, 
Maryland, may also be able to accommodate FDA. All of these sites are 
near Metro stations.
    Your Committee needs to assure that Congress does not appropriate 
any funds for the FDA consolidation until GSA evaluates these 
alternatives and until both the House Committee on Transportation and 
Infrastructure and the Senate Committee on Environment and Public Works 
approve a prospectus for the project and certify the project's need.
    On December 15, 1998, the Council of the District of Columbia 
approved a resolution (See Exhibit 8) that asked The President, GSA and 
Congress to give preference to D.C. sites, consistent with Executive 
Orders 12072 and 13006. The Council found that the FDA consolidations 
would remove 800 FDA employees from the District.
    The President and GSA disregarded the D.C. Council's request. GSA 
has refused to consult with D.C. officials (as required by Executive 
Order 12072) regarding this project.
    FDA does not need to consolidate at White Oak. The Capital 
Investment Program violates laws, Executive Orders, and EPA 
regulations.
                                 ______
                                 
                            LIST OF EXHIBITS

    1. The Food And Drug Administration Revitalization Act (P.L. 101-
635, Nov. 28, 1990): The authorizing legislation for that authorized 
the Secretary of Health and Human Services to enter into contracts to 
design, construct and operate a single consolidated FDA administrative 
and laboratory facility. The GSA Administrator was only authorized to 
consult with the Secretary of HHS.
    2. Public Buildings Act of 1959 (P.L. 85-249, Sept. 9, 1959): The 
Public Buildings Act requires the GSA Administrator to transmit a 
prospectus for large building projects to Congress. Sec. 7 states that 
approval of the prospectus is required ``in order to insure the 
equitable distribution of public buildings throughout the United States 
with due regard for the comparative urgency of need for such 
buildings.''
    3. Treasury and General Government Appropriations Act, 2000 (P.L. 
106-58, Sept. 29, 1999): The Fiscal Year 2000 Act that appropriated 
$35,000,000 to GSA's Federal Buildings Fund for an FDA consolidation in 
Montgomery County, Maryland. A provision in the Act restricts 
expenditures of these funds to the development of a proposed prospectus 
for the project in accordance with Public Buildings Act of 1959.
    4. Executive Order 12072: Federal Space Management (President Jimmy 
Carter, Aug. 16, 1978; 43 F.R. 36869; 40 U.S.C. Sec. 490; 3 CFR, 1979 
Comp., p. 213): Executive Order stating that the process for meeting 
Federal space needs in urban areas shall serve to strengthen the 
Nation's cities, shall give first consideration to a centralized 
community business area and adjacent areas of similar character, and 
that the heads of Executive agencies shall economize on their use of 
space.
    5. Executive Order 13006: Locating Federal Facilities on Historic 
Properties in Our Nation's Cities (President William J. Clinton, May 
21, 1996; Federal Register, Vol. 61, No. 102, May 24, 1996, pp. 26071-
26072): Executive Order reaffirming the Administration's commitment to 
Executive Order 120072 and encouraging the location of Federal 
facilities in historic buildings in central cities.
    6. P.L. 104-19 (Rescissions Act, 1995). The 1995 Act that rescinded 
$228,000,000 of the funds previously appropriated for the Montgomery 
County, Maryland, FDA consolidation. The Act rescinded all construction 
funds for the facility.
    7. Letter from U.S. Environmental Protection Agency to Mr. Jag 
Bhargava, General Services Administration, January 5, 1999. Letter 
informs GSA.--Letter from EPA that formally encourages GSA to compare 
alternative sites on public as well as non-public lands in the proposed 
Environmental Impact Statement (EIS) for the FDA Consolidation. The 
letter states that EPA had already informed GSA that a previous FDA 
consolidation EIS had not adequately compared the White Oak alternative 
to alternatives on non-public lands, thus making a comparison of 
environmental impacts difficult with anything other than the no action 
alternative.
    8. Council of the District of Columbia, Resolution No. R12-834, 
(Location of Federal Facilities in the District of Columbia Sense of 
the Council Resolution of 1998; December 15, 1998. D.C. Council 
Resolution that requests the President, the Vice-President, the GSA 
Administrator, the GSA Regional Administrator, the FDA Commissioner, 
the OMB Director, the heads of all other Federal executive agencies, 
other Federal officials, and Members of Congress, to identify and give 
preference to District of Columbia sites when meeting Federal space 
needs in the Washington Metropolitan Area, consistent with Executive 
Orders 12072 and 13006.
                                 ______
                                 
  Exhibit No. 1.--The Food and Drug Administration Revitalization Act
                              P.L. 101-635
                  104 Stat. 4583-4585 (21 U.S.C. 379b)
                           November 28, 1990

    An authorizing statute for the FDA consolidation. P.L. 101-635 
authorizes the Secretary of Health and Human Services to enter into 
contracts to design, construct and operate a single consolidated FDA 
administrative and laboratory facility. P.L. 101-635 authorizes the 
Administrator of General Services to consult with the Secretary of HHS, 
but does not authorize the GSA Administrator to enter into any 
contracts for the facility.
    P.L. 101-635 authorizes appropriations ``to carry out this 
section''. The Secretary of HHS can thus expend any funds appropriated 
pursuant to this law to enter into contracts for the consolidated 
facility. The GSA Administrator does not have this authority. P.L. 101-
635 does not authorize any appropriations to GSA.
    Other statutes, including the Public Buildings Act of 1959, 
authorize the Administrator of General Services to enter into contracts 
to acquire property for and to construct Federal facilities, in 
accordance with provisions (such as prospectus submission requirements) 
that such legislation contains. It is important to recognize, however, 
that P.L. 101-635 does not provide the GSA Administrator with any such 
authority.
    P.L. 101-635 authorizes only one consolidated FDA administrative 
and laboratory facility. GSA is currently planning to ``consolidate'' 
FDA's facilities in three separate locations (Beltsville, College Park, 
and White Oak, Maryland). P.L. 101-635 does not authorize this type of 
``consolidation''.
    P.L. 101-635 does not specify any location or political 
jurisdiction for the consolidated facility.
                                 ______
                                 
              Exhibit No. 2.--Public Buildings Act of 1959
                              P.L. 85-249
                           September 9, 1959

    The Public Buildings Act authorizes the GSA Administrator to 
construct public buildings in accordance with the provisions of the 
Act. Sec. 7(a) requires the Administrator to transmit a prospectus for 
any large building project to Congress. Sec. 7(a) states that approval 
of the prospectus is required ``in order to insure the equitable 
distribution of public buildings throughout the United States with due 
regard for the comparative urgency of need for such buildings.''
    Sec. 12(c) requires the Administrator to ``provide for the 
construction and acquisition of public buildings equitably throughout 
the United States with due regard to the comparative urgency of need 
for each particular building''.
    Note: In recent years, GSA has transferred thousands of Federal 
employees from the District of Columbia to Virginia and Maryland. GSA 
has accomplished this by constructing and leasing buildings for a 
number of Federal agencies in suburban areas that are outside of the 
District, without constructing and leasing a comparable number of 
buildings within the District.
    The District's current financial status is currently less favorable 
than the statuses of suburban Maryland and Virginia. There is thus a 
greater comparative urgency of need for public buildings in the 
District than in its Maryland and Virginia suburbs.
    Despite the requirement in Sec. 12(c), GSA has not relocated many 
Federal agencies from Maryland and Virginia into the District. It is 
continuing to delineate areas for Federal leasing and construction in 
the National Capital Region to exclude the properties located within 
the District.
    As an example, GSA is planning to construct new facilities for FDA 
in College Park and White Oak, Maryland. This would move approximately 
900 Federal employees from the District. It would further increase the 
inequitable distribution of Federal facilities that is present in the 
National Capital Region.
    The National Capital Planning Commission currently defines an 
``equitable distribution'' as distributing 60 percent of the Region's 
Federal employees within the District of Columbia and 40 percent in 
Virginia and Maryland. The District presently contains only 52 percent 
of such employees.

  Exhibit No. 3.--Treasury and General Government Appropriations Act, 
                                  2000
                      P.L. 106-58 (113 Stat. 430)
                           September 29, 1999

    The Fiscal Year 2000 Act that appropriated $35,000,000 to GSA's 
Federal Buildings Fund for an FDA consolidation in Montgomery County, 
Maryland. A provision in the Act restricts expenditures of these funds 
to the development of a proposed prospectus for the project in 
accordance with Public Buildings Act of 1959.
    Note: GSA has allocated these funds for the design and construction 
of FDA's proposed White Oak facility. However, the $35,000,000 
appropriated in P.L. 106-58 can only be used for the ``development of a 
proposed prospectus'' because no prospectus for the project had been 
approved prior to September 29, 1999, when P.L. 106-58 became law.
    A provision in the P.L. 106-58 states that the funds available to 
GSA shall not be available for expenses in connection with any 
construction or acquisition project for which a prospectus, if required 
by the Public Buildings Act, has not been approved, except that 
necessary funds may be expended for required expenses in connection 
with the development of a proposed prospectus. GSA therefore cannot use 
these funds to award contracts to develop construction plans or to 
construct any buildings at White Oak or anywhere else.
    Any Congressional committee approval of a prospectus for the White 
Oak facility after September 29, 1999, can only allow future 
appropriations acts to make new funds available to GSA to construct the 
facility. Because of the language in the restrictive provision, 
Congressional committee approval of a project prospectus after 
September 29, 1999, cannot give GSA the authority to use the funds 
appropriated in P.L. 106-58 for expenses related to construction and 
property acquisition.
    The National Capital Planning Commission currently defines an 
``equitable distribution'' as distributing 60 percent of the Region's 
Federal employees within the District of Columbia and 40 percent in 
Virginia and Maryland. The District presently contains only 52 percent 
of such employees.
                                 ______
                                 
    Exhibit No. 4.--Executive Order 12072: Federal Space Management
                 President Jimmy Carter, Aug. 16, 1978
      43 F.R. 36869; 40 U.S.C. Sec. 490; 3 CFR, 1979 Comp., p. 213

    Executive Order stating that the process for meeting Federal space 
needs in urban areas shall serve to strengthen the Nation's cities, 
shall give first consideration to a centralized community business area 
and adjacent areas of similar character, and that the heads of 
Executive agencies shall economize on their use of space.
                                 ______
                                 
 Exhibit No. 5.--Executive Order 13006: Locating Federal Facilities on 
               Historic Properties in Our Nation's Cities
               President William J. Clinton, May 21, 1996
     Federal Register Vol. 61, No. 102, May 24, 1996, pp. 26071-72

    Executive Order reaffirming the Administration's commitment to 
Executive Order 12072, defining the improvement of ``central cities'' 
as the purpose of Executive Order 12072, and encouraging the location 
of Federal facilities in historic buildings in central cities.
                                 ______
                                 
                 Exhibit No. 6.--Rescissions Act, 1995
                      P.L. 104-19 (109 Stat. 194)
                             July 27, 1995

    1995 Act that rescinded $228,000,000 of the funds previously 
appropriated for the Montgomery County, Maryland, FDA consolidation. 
The rescission removed all construction funds for any FDA consolidation 
in Montgomery County.
                                 ______
                                 
   Exhibit No. 7.--Letter From U.S. Environmental Protection Agency, 
                               Region III
    To Mr. Jag Bhargava, General Services Administration--National 
                             Capital Region

    January 5, 1999.--Letter from EPA that formally encourages GSA to 
compare alternative sites on public as well as non-public lands in the 
proposed Environmental Impact Statement (EIS) for the FDA 
Consolidation. GSA has not responded to this letter.
    The letter states that EPA had already informed GSA that a previous 
FDA consolidation EIS had not adequately compared the White Oak 
alternative to alternatives on non-public lands, thus making a 
comparison of environmental impacts difficult with anything other than 
the no action alternative.
    The letter states that a comparative analysis is the heart of an 
EIS and that the Council on Environmental Quality (CEQ) regulations 
require that the details of each alternative be presented in a 
comparative form. The letter cites CEQ's regulations in 
Sec. 1502.14(a), which states that agencies shall ``Rigorously explore 
and objectively evaluate all reasonable alternatives, and for 
alternatives which were eliminated from detailed study, briefly discuss 
the reasons for their having been eliminated''.
                                 ______
                                 
          Exhibit No. 8.--Council of the District of Columbia
                         Resolution No. R12-834
Location of Federal Facilities in the District of Columbia Sense of the 
                       Council Resolution of 1998
                           December 15, 1998

    D.C. Council resolution that requests the Mayor, the Financial 
Recovery and Management Assistance Authority, the District's Delegate 
to Congress, and the National Capital Planning Commission to take all 
appropriate actions to assure that the GSA Administrator and the heads 
of all other Federal executive agencies will comply with Executive 
Orders 12072 and 13006 and give preference to locations within the 
District when meeting their needs to house their facilities and to 
utilize leased and federally owned space in the Washington Metropolitan 
Area.
    The resolution also requests the D.C. Corporation Counsel to 
investigate immediately any enforceable actions and recognize any 
causes for action that may be necessary to direct the GSA 
Administrator, the HHS Secretary, and the FDA Commissioner to consult 
with appropriate local officials to identify a site within the District 
of Columbia that is suitable for the proposed FDA consolidated 
headquarters facility and to prevent the relocation from the District 
of any Federal employees associated with the FDA.
    The resolution further requests the President, the Vice-President, 
the GSA Administrator, the GSA Regional Administrator, the HHS 
Secretary, the FDA Commissioner, the OMB Director, the heads of all 
other Federal executive agencies, other Federal officials, and Members 
of Congress, to identify and give preference to District of Columbia 
sites when meeting Federal space needs in the Washington Metropolitan 
Area, consistent with Executive Orders 12072 and 13006.
  

                                <all>

</pre></body></html>
